<html>
<title> - SAMUEL W. BODMAN NOMINATION</title>
<body><pre>[Senate Hearing 109-1]
[From the U.S. Government Printing Office]



                                                          S. Hrg. 109-1
 
                      SAMUEL W. BODMAN NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE NOMINATION OF SAMUEL W. BODMAN TO BE SECRETARY OF ENERGY

                               __________

                            JANUARY 19, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources






                 U.S. GOVERNMENT PRINTING OFFICE

99-513                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001












               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD BURR, North Carolina,        TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel



















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     3
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     9
Bodman, Samuel W., Nominee To Be Secretary of Energy.............    13
Bunning, Hon. Jim, U.S. Senator from Kentucky....................    25
Burr, Hon. Richard, U.S. Senator from North Carolina.............    41
Cantwell, Hon. Maria, U.S. Senator from Washington...............     5
Craig, Hon. Larry E., U.S. Senator from Idaho....................    19
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Dorgan, Hon. Byron L., U.S. Senator from North Dakota............    10
Feinstein, Hon. Dianne, U.S. Senator from California.............    18
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............     6
Salazar, Hon. Ken, U.S. Senator from Colorado....................    11
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    24
Talent, Hon. James M., U.S. Senator from Missouri................     8
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    19

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    51

                              Appendix II

Additional material submitted for the record.....................    87




















                      SAMUEL W. BODMAN NOMINATION

                              ----------                              


                      WEDNESDAY, JANUARY 19, 2005

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Pete V. Domenici, 
chairman, presiding.

           OPENING STATEMENT OF HON. PETE DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The committee will please come to order.
    While some Members are not present now, I would just call 
the committee to order and thank you all for coming. This is 
the first hearing of the committee in the 109th Congress, so I 
want to take a few moments and make comments about the five new 
Members and welcome them to the committee--Senator Allen, who 
is not here, we welcome him; Senator Burr, new Senator on our 
side; Senator Corzine, on the Democrat side; Senator Martinez 
from Florida; and Senator Salazar from my neighborhood--Senator 
Bingaman and my neighboring State of Colorado. We welcome you. 
Those of you who are here, we welcome you.
    I think we should start off by saying, to the new Members--
and make sure the record is straight--that this committee has a 
remarkable history of producing much legislation for many parts 
and many activities of the Government. We passed more bills 
last year that dealt with American issues than any committee in 
the Senate, and we almost got every bill that we reported 
through the Senate and passed as laws. A few were hung up at 
the end, though. We will get them done. That is done when we 
work together. I am very proud of the production that takes 
place. I think it is true that this cooperation results in 
productivity, and I am hopeful that it will apply to the energy 
bill this year.
    We can accept responsibility for the fact that it was not 
done in a bipartisan way last year, as least as bipartisan as 
it could have been. Senator Bingaman, it is my hope that we can 
alleviate that problem. I hope so, because I believe, as I've 
discussed with you, that the energy crisis is bigger than our 
parties, and probably much bigger than this committee, and we 
ought to be able to contribute to its solution.
    Now, we'll move quickly to the nominee. Dr. Bodman, we 
welcome you to the committee for the hearing to consider your 
nomination to be the Secretary of the Department of Energy. The 
rules of the committee apply, as they do to all nominations, 
and you are required to do a few things right now--first, that 
you be sworn in, in connection with your testimony. So would 
you please rise and raise your right hand?
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Dr. Bodman. I do.
    The Chairman. Please be seated.
    Before you begin your statement, I will ask you three 
questions that are asked regularly of nominees. One, will you 
be available to appear before this committee and other 
committees of the Congress to represent the Department's 
position and respond to issues of concern to the Congress?
    Dr. Bodman. I will.
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict or 
create the appearance of such a conflict should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    Dr. Bodman. All of my personal assets have been reviewed, 
sir, both by myself and by appropriate ethics counselors within 
the Federal Government, and I have taken appropriate action to 
avoid any conflicts of interest.
    The Chairman. Are you involved or do you have any assets 
that are held in blind trusts?
    Dr. Bodman. Yes, sir, I do.
    The Chairman. Now, we will make note of that.
    Dr. Bodman, I want to thank you for your willingness to 
serve our President and our country. You have been very 
successful in the private sector, and I have heard good reports 
of your tenure at the Departments of Commerce and Treasury. You 
appear to me to be the sort of dedicated, success-oriented 
person that we need in this Government and in this Department, 
and you certainly have a background, in terms of education and 
experience, that bodes well for your success and the 
Department's success.
    Because of your experience in the past several years as 
Deputy Secretary at both Commerce and Treasury, I know you are 
aware of the magnitude of the position for which you are being 
considered. I commend you for being willing to undertake this 
extremely important responsibility. The issues you will have to 
address are extremely important to the individual states of 
every Senator here, and certainly of our United States. If you 
are confirmed, I encourage you to work closely with each of us 
as you consider and develop the Department's policies on energy 
and otherwise.
    Now, having said that, I certainly want to yield to Senator 
Bingaman for some opening remarks. And unless Senators feel 
absolutely compelled to have opening statements, in which event 
I will certainly permit it, we would like to move on to 
questions so that we will not be here too late.
    [The prepared statements of Senators Akaka, Alexander, 
Cantwell, Landrieu and Talent follow:]
      Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii
    Mr. Chairman, thank you for promptly scheduling this hearing to 
confirm a new Secretary of Energy. The sooner we confirm Dr. Bodman as 
the Secretary of Energy, the sooner he can begin work on this new and 
challenging assignment.
    I am pleased that the President has nominated Dr. Bodman to be the 
Secretary of Energy. Dr. Bodman has a remarkable background that spans 
engineering and academia, the corporate boardroom, financial services, 
and public service including the Departments of Commerce and Treasury. 
Dr. Bodman, I commend you for accepting the challenge of running the 
Department of Energy. It is one of the most challenging jobs in the 
Federal government.
    As a member of this Committee and as a member of the Senate Armed 
Services Committee, I look forward to working with you on all aspects 
of the operations of the Department.
    Dr. Bodman, as you know, our nation has suffered the impact of high 
energy prices for the last four years. Some areas of the country have 
suffered more than others. Hawaii has borne the brunt of having to pay 
high energy prices for over 20 years. For most of the 1990s, the 
average Honolulu gasoline price, based on a weekly survey, hovered at 
roughly 25 cents to 50 cents above the national average. Electricity 
also costs more to produce in Hawaii. The average cost to a consumer of 
a kilowatt hour in Hawaii is more than double that of the U.S. average. 
Residential customers in Hawaii paid an average of 23 cents per 
kilowatt hour in January 2005!
    One of the major challenges facing our nation is to stabilize our 
energy prices and ensure that Americans enjoy reasonable and affordable 
energy prices. We have not had a coherent and comprehensive energy 
policy for a long time, and we need a an energy policy crafted in a 
bipartisan manner. Additionally, we have not had a serious commitment 
to address our dependence on foreign sources of oil. Hawaii depends on 
oil for over 90 percent of our energy production. If we are to have a 
comprehensive energy policy that strengthens our economy and serves the 
real needs of Americans, then we need to dismantle our dependence on 
foreign oil as soon as possible. The absence of an effective policy and 
a visible commitment to addressing our energy dependence has made us 
captive to OPEC's production decisions and led to other problems. I 
look forward to working with you to promote renewable energy solutions 
that can be found readily in the Pacific and other remote areas that 
need to develop self-sufficient sources of energy.
    I believe the way to improve our energy outlook is to adopt energy 
conservation, encourage energy efficiency, and support renewable and 
alternative energy programs. Above all, we must develop energy 
resources that diversify our energy mix and strengthen our energy 
security. I hope that you will be a strong advocate for advanced fuel 
carriers such as hydrogen, and renewable fuels such as biomass 
conversion, that can potentially alleviate some of our dependence on 
foreign oil. I look forward to working with you on these initiatives.
    I noted your leadership, while Deputy Secretary of Commerce, of the 
Department's climate research program. As you may know, Hawaii and 
Pacific islands face many problems related to the accumulation of 
carbon dioxide in the atmosphere, one of the factors that promotes 
climate change and is linked to sea level rise. I hope that as the 
Secretary of Energy you will see the importance of including carbon 
dioxide emissions monitoring and control as an integral part of an 
energy policy. Additionally the Department of Energy needs a strong 
climate change research program, with the ability to model regional and 
subregional changes that will affect us.
    This is only one of the challenges faced by the Department. There 
are other varied and complicated issues as well. Securing nuclear waste 
or used nuclear sources is a monumental problem. The U.S. needs an 
aggressive and effective program to contain and dispose of low level 
and Greater Than Class C, or GTCC, radioactive sources. The GTCC 
sources are the most frequently mentioned of the sources for so-called 
``dirty bombs'' for terrorists. With heightened need for national 
security, I am sure you would agree with me that programs and 
facilities for disposal are of the utmost importance.
    The Department of Energy needs an effective leader who can promote 
sustainable energy policy and build consensus. Should you be confirmed, 
Dr. Bodman, I look forward to working with you on the challenges facing 
the Department of Energy.
                                 ______
                                 
            Statement of Hon. Lamar Alexander, U.S. Senator 
                             From Tennessee
    Dr. Samuel Bodman is an excellent choice to become the new Energy 
Secretary. His education, experience and management credentials provide 
a strong foundation for leading one of the nation's most important and 
complex organizations. I am grateful for his willingness to answer 
President Bush's call to lead the department and seek this committee's 
confirmation.
    Our nation's energy policy has reached a major crossroads. If we 
continue down the current path, we will continue to depend on foreign 
sources of energy, prices will continue to rise, and our environment 
will continue to be polluted. High energy prices and polluted air pose 
threats to American jobs and our health.
    We can choose another path. Unlike some issues we face here in 
Washington, there are some relatively clear solutions to our energy 
problems--solutions driven by advances in science and technology, 
American ingenuity and a healthy dose of common sense.
    President Bush has repeatedly challenged Congress to enact a 
comprehensive energy policy. Despite the best efforts of Chairman 
Domenici and others, we have so far failed to act. Both energy and 
clean air legislation have been bogged down in the Senate.
    Looking ahead to this Congress, I intend to work hard with Chairman 
Domenici and Senator Bingaman to enact bipartisan clean energy 
legislation. I also look forward to working with Senator Dorgan, the 
new ranking member of the Senate Subcommittee on Energy, in a 
bipartisan manner. Clean energy and clean air are absolutely linked, 
and so I also intend to continue to be active in the clean air debate.
    The Department of Energy has a critical role in providing 
leadership on energy and environmental policy. I am interested to hear 
today what Dr. Bodman's vision is for the Department. I hope he will:

    1. Actively support our national laboratories. According to the 
National Academy of Sciences, nearly half of our nation's economic 
growth since World War II can be attributed to advances in science and 
technology. We cannot take our leadership role in this area for 
granted; our best secret weapon for job-growth is our national 
laboratories, university and industry research institutions. We must 
continue to invest in research that fuels technological advances at 
institutions like the Oak Ridge National Laboratory in Tennessee.
    This means increasing fundamental research in the physical sciences 
leading to next generation materials such as superconductors capable of 
carrying considerably more electricity with less loss. Energy 
legislation approved in both the House and Senate last year contained 
language to authorize a doubling in funding for the Department of 
Energy's Office of Science.
    Supporting national labs also means investing in clean energy 
technologies such as hydrogen and fusion energy and establishing world-
class computational tools capable of modeling such diverse things as 
molecular interactions and global climate change. To that end, in 2004 
the president signed legislation authorizing DOE to pursue ``Leadership 
Computing in the Department of Energy.'' With bipartisan support, 
Congress appropriated additional funds in both FY-2004 and FY-2005 to 
fund this project. The department should also continue to develop and 
operate world-class user facilities such as the Spallation Neutron 
Source, a facility which lays the foundation for the long-articulated 
but elusive dream of creating ``materials by design'' creating a new 
form of metal or plastic, for example, for some specific purpose.
    2. Actively advocate nuclear energy and practical solutions to 
nuclear waste storage. Nuclear power-plants generate 20 percent of the 
nation's electricity but nearly 70 percent of the ``emissions-free'' 
electricity produced annually in this country. I am proud, as the 
Chairman of the TVA Congressional Caucus, that TVA is leading the way 
by restarting the Browns Ferry nuclear plant. In 2007, it will become 
the first new nuclear plant to come on-line in decades. TVA and other 
utilities should also be encouraged to develop advanced nuclear plants. 
We need to create the right policy environment so they can do so. On 
the issue of nuclear waste, DOE needs to take a clear position on the 
future of Yucca Mountain and stand behind it. TVA ratepayers have paid 
almost $700 million into Yucca Mountain with no tangible return to 
date. This is equivalent to a 2-year rate increase of 8 percent--the 
same as the highly controversial TVA 2003 rate hike. Put another way, 
$700 million is just under the cost of installing clean air technology 
at Kingston and Bull Run, the two coal-fired plants closest to the 
Great Smoky Mountains National Park.
    3. Support national policies that promote coal, but require coal 
plants to quickly install emissions control technology or utilize 
technologies such as coal gasification. In the coming months, DOE has a 
critical role in the interagency review of the administration's clean 
air programs. While I support the President's framework for clean air, 
I support initiatives that go farther, faster than President Bush's 
plan. The vast majority of my state is in non-attainment with federal 
air quality standards, and the Great Smoky Mountains National Park is 
the most polluted national park in the country.
    DOE has a clear choice: to encourage that the proposed Clean Air 
Interstate Rule be strengthened, weakened or remain the same. While 
legislation is the best answer and is being pursued by the Senate, I 
strongly encourage DOE to strengthen the Clean Air Interstate Rule as 
it goes through the interagency review process.
    The nation also needs coal gasification to be commercialized as 
soon as possible. In addition to cleaning our own air, once 
commercialized, it can be deployed in other developing nations with 
growing energy demands such as China. DOE has a critical role in 
helping to bring this technology to the world marketplace.
    Polluted air is the problem; clean energy is the solution.
    4. Provide leadership on the natural gas crisis--so manufacturing 
jobs stay here in the U.S. In October 2004, I convened a round table of 
the largest employers in Tennessee representing about 750,000 Tennessee 
jobs--farmers, chemical companies, the automobile and hotel industries, 
and our universities--to discuss their growing concern about natural 
gas prices. During the last four years, U.S. natural gas prices have 
gone from the lowest in the industrialized world to the highest. Our 
farms and large industries were built to operate on $2 to $3 mmBtu 
natural gas prices. Today's price of $6.50 shutters barns and could 
ship 1 million jobs in the chemical industry overseas. As a result, I 
intend to be very active legislatively on this issue. Addressing high 
natural gas prices is important to keeping our industries competitive 
so that manufacturing jobs stay in the United States. DOE and the 
Federal Energy Regulatory Commission should quickly license the new 
pipeline proposal from Alaska, support new and improved liquid natural 
gas and pipeline infrastructure and urge greater conservation of 
natural gas at home. DOE can help encourage a balanced discussion on 
natural gas supply issues.

    Those are four priorities I hope Dr. Bodman will take on as Energy 
Secretary. We've found ourselves stalled at this energy crossroads for 
some time now. Getting America through it will require strong 
leadership. Once confirmed, I look forward to working with Dr. Bodman 
as he takes on these critical challenges.
                                 ______
                                 
     Statement of Hon. Maria Cantwell, U.S. Senator From Washington
    Thank you, Mr. Chairman and Senator Bingaman. And thank you, Dr. 
Bodman, for being here today. I want to start by saying that I very 
much appreciated our opportunity to meet earlier this month to discuss 
in an informal setting the many Department of Energy (DOE)-related 
issues that are critical to my Washington state constituents. I am 
pleased that we were able to touch on a wide array of issues, ranging 
from cleanup of the Hanford Nuclear Reservation and policies impacting 
the Bonneville Power Administration (BPA), to the federal role in 
research and development at institutions such as the Pacific Northwest 
National Laboratory. I also appreciated the opportunity to discuss the 
continuing challenges Washington state consumers, utilities and 
businesses are facing as a result of the Western energy crisis of 2000-
2001.
    From our discussion, I know that you've begun to develop an 
appreciation for just how large DOE's ``footprint'' is in the State of 
Washington, and how much is at stake for our economy and environment 
when it comes to the many policy decisions you will make if confirmed 
as the next Secretary of Energy. It's a job that comes with a 
considerable number of challenges--but also, incredible opportunity. 
Putting in place a real, forward-looking energy policy for the 21st 
century is not only essential for this nation's economic security, it's 
my belief that it will fuel the next wave of innovation. It is critical 
for this country to take the technology lead in the energy sector. 
Otherwise, we will find ourselves in ten to twenty years in exactly the 
same position we do today as it relates to our dependence on foreign 
oil--we will be importing the next generation of energy technology. 
Instead, we need to seize the opportunity before us and recognize that 
it is the key to securing our nation's long-term energy independence.
    Dr. Bodman, I have a number of questions for you on a variety of 
issues that--by nature of their diversity--further illustrate the 
tremendous responsibilities you will shoulder if confirmed.
    As we've discussed, the Western market meltdown of 2000-2001 has 
had a profound impact on my state's economy, the pocketbooks and 
economic well-being of my constituents--too many of whom have had to 
make the choice between keeping their heat and lights on and buying 
food, paying rent, and purchasing prescription drugs. In some parts of 
Washington state, utility disconnection rates have risen more than 40 
percent. People just can't pay their utility bills. So you can imagine, 
what we've seen and heard since the height of the crisis--as we've 
learned about the market manipulation and fraud that took place in the 
Western market, while Enron energy traders laughed about the plight of 
``Grandma Millie''--has added tremendous insult to substantial economic 
injury. Moreover, the Western crisis has brought to the forefront a 
number of very important policy questions about the kind of behavior 
that will be tolerated in our nation's electricity markets, as the 
Federal Energy Regulatory Commission (FERC) has continued to pursue its 
``restructuring'' agenda.
    As the Secretary of Energy, you would have a very important, 
leading role--defined in the 1977 Department of Energy Organization 
Act--in guiding overall electric regulatory policy. I want to make sure 
today that we are on the same page on some of these policies and 
principles.
    First, we need strong leadership that will condemn the types of 
schemes used by Enron traders--manipulation tactics with infamous 
nicknames like Get Shorty, Death Star and Ricochet. We need to send a 
strong and unanimous message that these practices will not be tolerated 
in our nation's electricity markets. Next, we need to agree--as a 
matter of common-sense policy--that the victims of these schemes should 
not have to pay the inflated power prices resulting from market 
manipulation.
    Dr. Bodman, you know that these are more than just ``theoretical'' 
concerns for me and my constituents. Not only are Western ratepayers 
trying to recover some small fraction of the money they lost to Enron 
as a result of its unscrupulous trading practices, they are trying to 
avoid paying even more. Right now, Enron is claiming utilities in 
Washington state and Nevada alone owe about a half billion dollars 
more--for power Enron never even delivered. You can understand just how 
outrageous this seems to my constituents, who are already struggling to 
pay their power bills.
    Unfortunately, justice delayed is justice denied for Enron's 
victims. It has literally been years now, in which the ratepayers of my 
state--who have already suffered enough--have been waiting for the 
other shoe to drop.
    Dr. Bodman, my understanding is that the Secretary of Energy has, 
under the DOE Organization Act, substantial discretion to intervene in 
matters pending before the Commission. There is also substantial 
precedent, as both Secretaries Richardson and Abraham have involved 
themselves in various ways in matters before FERC. I can understand 
why. I imagine that any Secretary would have a considerable interest in 
doing so, in ensuring that regulatory matters are being handled in a 
manner consistent with national energy policy. I hope that you agree 
that what I've outlined above--the scenario in which Enron is allowed 
to collect money for power never delivered, at outrageous rates 
resulting from market manipulation--is not in the public interest, and 
I hope it is not the energy policy endorsed by this Administration. I 
hope you will agree to work with me, to help my constituents in this 
matter if you are confirmed as the next Secretary of Energy.
    I must also make a few remarks about the importance of Hanford 
cleanup to the residents of Washington state and the Pacific Northwest 
as a whole. Dr. Bodman, it's been my experience that achieving our 
mutual goal of an effective and efficient Hanford cleanup suffers when 
relationships between the states and DOE, the Congressional delegations 
and other stakeholders are damaged by the bad faith actions of one of 
the parties.
    I know you are aware of what happened last year, when DOE-authored 
language related to the reclassification of high-level nuclear waste 
was inserted into the Fiscal Year 2005 Defense Authorization bill. This 
was done behind closed doors, in a Committee that is not the rightful 
forum for debate on the issue of high-level nuclear waste and how it 
should be treated and disposed of. This legislative end-run was viewed 
by me and Sen. Murray, as well as the State of Washington and many of 
our constituents, as an ill-considered attempt to take short-cuts at 
Hanford. I hope you will commit to me, Dr. Bodman, that DOE--under your 
leadership--would not attempt a similar backdoor maneuver. It does 
nothing but destroy trust on an issue in which trust has been a very 
scarce commodity.
    Dr. Bodman, as the next Secretary, you would be our nation's chief 
energy policymaker. As my colleagues on this Committee know, the 
general direction of our nation's energy policy is a topic on which 
I've been known to offer an opinion or two. But for purposes of my 
remarks this afternoon, I simply want to welcome you, and will focus my 
questions today on a few of the many issues on which I hope we can work 
together.
                                 ______
                                 
    Statement of Hon. Mary L. Landrieu, U.S. Senator From Louisiana
    Mr. Chairman, this hearing takes place at a particularly crucial 
time for our nation's energy policy. Oil prices have been consistently 
over $40 a barrel for the better part of a year and our country 
continues to face what appears to be a serious natural gas crisis 
problem.
    For the past two Congresses we have been unable to put our 
differences aside in the country's interest and establish a national 
energy policy that is reflective of today's world and the role of the 
United States in it.
    I had the opportunity to meet with Dr. Bodman a few weeks ago and 
believe his vast experience and knowledge in both the public and 
private sectors will be an asset to the country as well as the 
Department of Energy (DOE).
    Dr. Bodman has proven his capability as a leader in his role as 
Deputy Secretary at two other Departments, Commerce and Treasury, as 
well as running a corporation for a number of years. These qualities 
will be critical in promoting the goals of DOE and establishing a new 
energy policy for our country.
    The goals of DOE include:

  <bullet> protecting our national security by applying advanced 
        science and nuclear technology;
  <bullet> protecting our national and economic security by providing 
        world-class scientific research capability;
  <bullet> protecting the environment through a responsible resolution 
        to the nuclear waste generated from the cold war and
  <bullet> finally protecting our national and economic security by 
        promoting the delivery of an affordable, diverse, 
        environmentally sound and reliable supply of energy.

    One of the most important issues that Dr. Bodman will have to 
address is the growing imbalance in our nation's energy supply as 
reflected by what is happening in the natural gas sector. A consistent 
and strong presence from the Administration will be necessary for us to 
tackle this problem.
    I commend the Chairman for starting this Congress off on a good 
note by organizing a conference focused solely on the issue of natural 
gas.
                              the problem
    The growing gap between demand and supply of natural gas did not 
develop overnight. Quite simply, we have pursued a policy that is in 
conflict with itself. On the one hand we encourage the use of natural 
gas in this country to meet our energy needs and environmental goals.
    Of the new electric generating power either recently constructed or 
about to placed in operation over the next few years, over 90% will be 
fueled by natural gas.
    However, we continue to take the supply side of the equation for 
granted. Demand continues to increase in 2003 Americans used 22 
trillion cubic feet (tcf) of natural gas and by 2025 consumption is 
expected to be 29 to 34 tcf, according to the Energy Information 
Administration but supply is not keeping up with demand. In fact, total 
U.S. domestic natural gas production is only expected to increase by 
less than half of the demand over the same period.
    Presently, domestic production accounts for approximately 84% of 
our consumption with imports from Canada (14%) as well as LNG (2%) 
accounting for the remainder. With all indications that current 
domestic production is flattening out and Canada not likely to provide 
as significant a contribution as they have in the past some combination 
of increased production, conservation and imports will be required to 
make up the difference. It is our duty to lead the country toward a 
solution.
    We simply cannot continue to put such a strain on one source of 
fuel. The implications to many of our states are too serious. For 
example, in Louisiana, industrial users of natural gas, such as the 
chemical industry, use natural gas not only as a fuel but also as a 
feedstock. High prices are translating into a loss of jobs.
                           what can be done?
Options
    Provide tax incentives to build advanced nuclear and clean coal 
powered plants. Coal and nuclear energy today generate 70% of our 
electricity. However, over the past 30 years no new nuclear plants have 
been constructed in this country. Yet based on current consumption 
rates we have over 200 years domestic supply of coal at our disposal.
    Establish a national renewable portfolio standard (RPS) for 
electric utilities to encourage the production of renewable sources of 
energy (wind, solar, et al.) which currently accounts for only 3% of 
total generation.
    Expand production in the OCS. The OCS provides more than a quarter 
of our natural gas supply. Almost all of our OCS production (98%) comes 
from a very concentrated area of the OCS, the western half, which 
really means offshore Louisiana and Texas. Most of the Pacific Coast 
and Eastern Gulf of Mexico as well as the entire Atlantic Coast are off 
limits to exploration and production.
    If we continue to honor these moratoria then we must also consider 
what it will take to maximize the gas currently being produced both 
offshore and onshore.
    In addition, we must explore opportunities to find more 
unconventional gas onshore as well as explore whatever gas reserves 
exist in the deeper undiscovered waters of the Gulf.
    Also, if six states are going to serve as the platform for almost 
30% of the nation's supply then it is only fair to return some 
percentage of the revenues generated from that production back to these 
states in order to guarantee that this supply stream continues.
    Importation of Liquified Natural Gas (LNG) must also be part of 
this equation. Almost everybody seems to agree that LNG will play a 
significant role in the future of our domestic natural gas supply. The 
question is how significant and have we thoroughly considered all of 
the implications?
    Those of us in the Gulf are starting to see a familiar pattern 
develop. While 30 plants have been proposed around the country the only 
ones that appear to be moving forward in reality are those on and off 
the coasts of Louisiana and Texas.
    Also, while the supply of natural gas around the world may not be 
as concentrated in one area as oil (Persian Gulf) some of the most 
significant reserves are located in less than stable environments. Do 
we risk going down a path with LNG that is similar to our experience 
with oil?
    The fact is, Mr. Chairman, I think there is much difficult work to 
be done in addressing what is emerging as a national crisis. I commend 
your decision to hold a conference next week on this subject so we can 
focus our attention in more detail. The situation requires leadership 
at the highest level.
    I am confident and hopeful that Mr. Bodman will provide a 
significant contribution to this debate as we move forward.
                                 ______
                                 
     Statement of Hon. James M. Talent, U.S. Senator From Missouri
    Mr. Chairman, thank you for holding this hearing today. I am 
pleased to be returning to the Energy Committee in the 109th Congress--
we have some unfinished business held over from last year, and I think 
today's witness will help us accomplish that ``unfinished business.''
    Dr. Bodman, you are an experienced executive who has served in the 
administration and you have varied and distinguished career in the 
private sector; you've served as a professor at MIT, president of an 
investment firm, the chairman and CEO of an industrial company with 
operations worldwide. I'm sure each of these diverse experiences has 
prepared you to lead and manage an agency which affects American's 
every day.
    As I've said many times while traveling throughout Missouri, 
economic growth and job creation are dependent upon reliable access to 
affordable energy. In 2001, the President put forward a comprehensive 
energy strategy that was designed to help us achieve those goals. I 
thank Secretary Abraham for his leadership in implementing much of that 
strategy and for meeting the challenges of securing our energy supply 
in this post-September 11th world. We have been able to accomplish many 
of those initiatives, but there is still a great deal of work to be 
done--specifically on the renewable fuels standard.
    Dr. Bodman, I serve as Co-Chair of the Biofuels Caucus in the 
Senate and I have a real interest in promoting the use of renewable 
fuels, like ethanol and biodiesel. It is imperative that we continue 
the effort to enact a comprehensive energy bill that includes key 
provisions promoting renewable fuels. Over the past few years important 
progress has been made. The ethanol industry has doubled in size and 
key incentives for ethanol and biodiesel have been created or extended. 
In Missouri, we have two ethanol plants up and running and we will soon 
have a third plant at full production in Malta Bend. Additional delay 
in enacting a strong renewable fuels standard will stifle the growth of 
the industry. I look forward to working with you and my colleagues in 
the Senate to draft a renewable fuels standard that is good policy our 
nation and the ethanol and biodiesel industries.
    I look forward to working with you and my colleagues in Congress to 
develop and pass a comprehensive legislation that moves America toward 
greater energy independence. I'm optimistic about the task ahead, and I 
am confident that Dr. Bodman has the skills and the initiative to lead 
this important and vital agency. I am pleased to support your 
nomination as Secretary of Energy.

    The Chairman. Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman.
    First, I want to join you in indicating a willingness and 
commitment to work, on a very bipartisan way, in meeting the 
responsibilities of the committee this year and this Congress. 
I think we have a lot of challenges, the country has a lot of 
challenges, with regard to energy policy, and we need to find 
solutions that we can all buy into, and I hope that that 
happens expeditiously.
    Let me just say, Mr. Bodman, that I am extremely impressed 
with your background, obviously, and have enjoyed the 
opportunity to visit with you and talk a little about some of 
the challenges that we have in the Department of Energy.
    My staff went back and found a statement that you made when 
you were being sworn in as Deputy Secretary of Commerce. The 
statement was that you considered the Commerce Department to 
have the most diverse set of missions of any Department or 
agency in the Federal Government. I would just suggest that 
you'll think back on the ``good old days'' when you had a clear 
idea of what your responsibilities were, because the Department 
of Energy has a very broad and diverse set of responsibilities. 
And I am sure you're well aware of that.
    I do think that one of the great challenges all of us 
recognize is the challenge of remaining preeminent in science 
and technology, and using science and technology to meet our 
energy needs and our energy challenges in the future. And I 
think your background in science and technology prepares you 
very well for understanding that and acting on that 
understanding. So I look forward to the rest of the hearing, 
and expect that you will be confirmed with a large majority, 
and look forward to working with you.
    Dr. Bodman. Thank you, sir.
    Senator Bingaman. Thank you.
    The Chairman. Thank you, Senator Bingaman.
    It is interesting, just before I walked out here, Senator 
Bingaman, while meeting his family, my closing remarks were 
just what you said. I failed to tell him that you just returned 
from a visit to inform yourself on some startling science and 
research education in India. But you did that because it is 
obvious that this Department should be taking a much more 
active role. And I think that he might be the right person, 
because of his background, to understand and see if he can help 
us on that.
    Now, on our side, anybody else want to make an opening 
statement? You are certainly welcome. You do not want to talk 
about ANWR, Senator?
    [Laughter.]
    Senator Martinez. Mr. Chairman, I just would like to--as a 
freshman Member of your committee, just to thank you for 
welcoming me to your committee, and I look forward to working 
with you. I'll have a question or two when we get to the 
questions.
    The Chairman. What I do want to say, you are one of the new 
Members that make our committee different, because we are 
usually all Westerners, except for a few exceptions, but the 
Easterners are taking over. I am just hopeful that--so, well, 
we got Allen in there. I do not know where we put him.But in 
any event, that might make our work a little different, 
although we think there is a common ground when it comes to the 
energy problems, without any question.
    Now, if you all have no opening remarks, I understand, 
Senator Dorgan, you might like to comment.

        STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR 
                       FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, I am not able to stay for the 
entire hearing--I regret that--because of another schedule, but 
I did want to take the opportunity to say that I think Dr. 
Bodman is a man of considerable achievement, and I am happy to 
support his nomination. I think he is a good choice.
    He and I had a chance to visit at some length this morning 
on the subject of lignite coal, which is, of course, a favorite 
subject of mine, but also renewables, ethanol, hydrogen fuel 
cells, the Global Threat Initiative, which I think is very 
important. And I look forward to working with him, and with my 
colleagues on the committee, to write an energy bill that will 
advance this country's interests.
    So thank you very much. Thank you, Dr. Bodman.
    [The prepared statement of Senator Dorgan follows:]
       Prepared Statement of Hon. Byron L. Dorgan, U.S. Senator 
                           From North Dakota
    I am pleased the Energy and Natural Resource Committee is taking up 
this nomination. It could not come at a more critical time, as energy 
has become a big issue and a big concern for our nation.
    We import approximately 60 percent of our oil from some of the most 
volatile places in the world and now depend on OPEC to ensure oil 
supplies remain high and prices remain low. We should not have to 
depend on other countries for our energy needs. I believe we can be an 
energy self-sustaining country, but we have to implement policies that 
move us towards that goal.
    Next week, this Committee will hold a hearing on natural gas and if 
we are not careful, history will repeat itself. Just like our 
dependence on foreign oil has grown, if we are not careful, so too will 
our dependence on foreign sources of natural gas. It is inevitable. If 
we do not find ways to better utilize the resources available 
domestically, we will have to look beyond our borders for our energy 
needs, which ultimately threatens our national security.
    It doesn't have to be this way. We can learn from our past to 
better situate ourselves for the future, but there has to be a focus 
and we must think outside the box.
    In the coming months, Congress will again debate the merits of 
opening the Arctic National Wildlife Reserve for oil exploration. 
Supporters believe we can simply ``dig and drill'' our way out of our 
dependence on foreign oil, but I don't believe this is the case. Even 
if we opened ANWR, it would only reduce our oil imports by a fraction 
of what they are projected to be. Instead of continuing to argue over 
this proposal, we must set out an aggressive goal of reducing our 
overall dependence on foreign oil.
    I believe the best way to do that is to develop a hydrogen 
infrastructure. The use of hydrogen fueled cars can be to our 
grandchildren what gas powered cars were to our grandparents. I support 
the President's idea about hydrogen, but, unfortunately, we differ on 
how to implement it. I believe we should be aggressive, not passive in 
this endeavor. If we miss this opportunity, we will miss an opportunity 
to create significant high paying, technical jobs, as well as all the 
other benefits that can be achieved by developing a hydrogen-based 
infrastructure.
    There are other areas in our energy development that DOE will need 
to play a larger role in. I come from a state that has vast amounts of 
fossil fuels and I believe we should continue to use them. However, we 
should also expand the role renewables play in our energy portfolio. 
Working together, renewable and fossil fuels will play an important 
role in our nation's future energy needs. That is why I support a 
Renewable Fuels Portfolio Standard (RPS). An appropriate RPS can be the 
catalyst that is needed to make renewable energy development move from 
the niche market into the mainstream and cement itself as part of the 
solution to our ever-growing energy needs.
    Like I mentioned earlier, North Dakota has vast amounts of fossil 
fuels. Lignite coal is the fuel of choice in my state, but its 
properties make it hard to ship. We need more funding for Clean Coal 
Research to address some of the issues related to the use of lignite 
coal. We hear a lot about the need to reduce mercury in coal, but there 
is not a feasible way to reduce mercury in lignite. That is why I 
support clean coal research at NDSU's EERC. I hope as a former academic 
Dr. Bodman will support the continued involvement by colleges and 
universities as they develop new technologies for our energy sector.
    Additionally, energy efficiency is important and I believe DOE 
should be a leader in this area. As everyone knows, a unit of energy 
saved is the same as a unit of energy produced. Energy efficiency is 
the easiest and most important part of addressing our future energy 
needs. From implementing more efficient standards for appliances to 
using Energy Savings Performance Contracts to install energy efficient 
equipment, DOE must provide the leadership in moving our country 
forward in this area. And I hope DOE will take this opportunity to set 
us on the appropriate course.
    Reducing our dependence on foreign sources of energy is not only 
important for our pocketbooks; it is also import for our national 
security interests. But, just as important is the threat of nuclear or 
radiological materials falling into the hands of terrorists. In May of 
last year, Secretary Abraham launched the Global Threat Reduction 
Initiative (GTRI) which integrates a number of programs concerned with 
securing or removing nuclear materials from facilities around the 
world. I've been very pleased with the progress that was made during 
the first term and hope that the program continues to receive full 
funding.
    Additionally, I am very concerned that one of the goals set forth 
in the November 2004 Strategic Plan of the National Nuclear Security 
Administration (NNSA) Strategic Plan is ``to be able to design, 
develop, and begin production of a new [nuclear] warhead within 3-4 
years of a decision to do so.''
    I hope that policy will be dropped in view of the fact that last 
year Congress wisely and overwhelmingly cut funding for three nuclear 
weapons research programs, including the Modern Pit Facility, the 
Robust Nuclear Earth Penetrator (also known as the ``bunker buster''), 
and Enhanced Test Readiness.
    There are compelling arguments why the budget requests for those 
programs did not withstand scrutiny. Not only are these initiatives an 
unwise and unnecessary use of limited resources, they also send the 
wrong signal to the rest of the world. When we want countries such as 
Iran and North Korea to abandon nuclear weapons development, it is 
hypocritical for the United States to embark on new weapons and testing 
initiatives.
    The U.S. needs to lead by example. New U.S. nuclear initiatives 
might actually risk, rather than enhance, our national security by 
encouraging other countries' nuclear weapons initiatives.
    Earlier today I had a chance to sit down and talk to Dr. Bodman 
about some of these issues and I look forward to working with him in 
the future to address our international and domestic energy and 
security needs.

    The Chairman. Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Senator Domenici and Senator Bingaman, I 
just want to say it is an honor for me to be here to serve with 
all of you on this very important committee, and I look forward 
to working with all of you.
    I do have an opening statement, and I have questions, and I 
just, with your permission----
    The Chairman. Do you have an opening statement? We'll make 
it a part of the record, if you have one.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Good afternoon. Thank you, Mr. Chairman. It is a privilege to serve 
on this important Committee with you and with Senator Bingaman, to whom 
I am grateful for this assignment. I very much look forward to working 
with you and with all of my colleagues as we strive to develop a clean, 
diversified and secure energy future for Colorado and our country. I 
know I will learn a great deal from all of you, as you share your 
experiences and leadership on a wide range of issues affecting the 
nation's energy sources and other natural resources. I hope that my own 
experience, as a farmer and rancher for much of my life, and as someone 
who has been deeply involved in water, environmental and natural 
resources issues throughout my career will be helpful to this 
Committee.
    And thank you, Dr. Bodman, for your long and distinguished service 
to our country. Your experience in the Commerce and Treasury 
Departments will be very valuable, I expect, as you consider ways to 
improve our nation's energy independence and energy security.
    I grew up in Colorado's San Luis Valley, part of the fifth 
generation of my family to make its living from the land. As I said, I 
have been actively engaged in agriculture as a farmer and rancher for 
much of my life. My grandparents and parents passed along to me the 
values of preserving and protecting our air, land and water for future 
generations.
    Colorado is blessed with an abundance of natural energy resources, 
and the oil and gas industry plays a significant part of our state 
economy. As long as America is dependent on foreign oil for a 
significant part of our energy needs, our economy and our national 
security are at risk. We need to move rapidly toward energy 
independence. As we work to attain energy independence, we can also 
strengthen our economy, increase our national security and protect our 
air, land and water.
   A. Balance Between Energy Development and Environmental Protection
    We need to increase our domestic production of oil and gas, and we 
can do that in ways that do not harm the environment. But there are 
some places that should not be drilled because they are just too 
valuable for protection of water, fish and wildlife habitat or 
recreation.
    The Roan Plateau near Rifle, Colorado, is an area that exemplifies 
the need to balance multiple values and uses of public lands. The area 
is rich in natural gas and other energy resources, but the top of the 
plateau is one of the state's most biologically rich areas. We need to 
work toward energy independence, but we also need to protect wildlife 
habitat critical to hunting and fishing, an important component of the 
local economy. Garfield County and some other local governments, as 
well as many local citizen groups, have expressed opposition to 
drilling on top of the plateau. The Bureau of Land Management recently 
released a draft Environmental Impact Statement reviewing all of these 
matters. I am working closely with representatives of BLM and the state 
to ensure that the federal government refrains from issuing additional 
leases on top of the Plateau until leases at the base of the Plateau 
are fully developed and other environmental safeguards are in place.
                          B. Renewable Energy
    The Western Governor's Association has now adopted at least two 
energy policy resolutions, which call for new exploration and 
development of conventional energy sources, where air, land and water 
can be protected, and at the same time urge the development of 
alternative (renewable) energy resources, energy efficiency and 
conservation. In my judgment, renewable energy is our future, and we 
need to support research and development in this industry so that we 
are the international leader, not a follower.
    As you may know, Colorado just passed Amendment 37, the Renewable 
Energy Standard. I supported Amendment 37, because it makes renewable 
energy a reality, not merely an aspiration. Amendment 37 creates a 
modest standard for renewable energy generation in Colorado, starting 
at only 3% in 2007 and rising gradually to only 10% in 2015. The ballot 
measure protects ratepayers from any rate hike larger than 50 cents per 
month for any expense related to the policy. Many other states have 
passed similar legislation, and I look forward to working with you and 
my colleagues to further this agenda on renewable energy.
               C. Clean Energy Research and Conservation
    We also need to support research into hydrogen fuel cells, solar 
energy, geothermal energy, hybrid auto engines, and higher fuel 
efficiency for automobiles and home appliances. I hope I can count on 
your support for these principles and your commitment to working with 
this Committee to develop a national energy policy that includes a 
viable renewable energy program as well as necessary clean energy 
research and energy conservation.
    To further these goals I urge you to support the Department's 
National Renewable Energy Laboratory in Golden, Colorado. As you know, 
NREL is the Department of Energy's primary national laboratory for 
renewable energy and energy efficiency research and development. I am a 
proud supporter of NREL and its research projects. Providing NREL with 
the resources it needs will lead our nation to greater energy 
independence and security.
                             D. Rocky Flats
    Finally, I fully expect you to provide continued support for the 
timely cleanup of the Department's Rocky Flats facility west of Denver, 
Colorado. As you know, Rocky Flats manufactured components for nuclear 
weapons for the nation's defense from the 1950's until 1992. The 
environmental cleanup is scheduled to be completed by December 2006. 
Most of the 6,500-acre site will become part of the National Wildlife 
Refuge System, but approximately 1,200 acres will remain under DOE 
control. As I understand it, that area, which will be cleaned up to no 
more than 50 picocuries of Plutonium per gram of soil, will be fenced 
off from the National Wildlife Refuge to protect Refuge workers and the 
public. The cleanup of Rocky Flats serves as a model for the cleanup of 
DOE facilities nationwide, and it is therefore important to the people 
of my state and to the country as a whole for DOE to make its plant 
closure mission at Rocky Flats a priority and to complete environmental 
cleanup, waste management and decommissioning by December 2006.
    It is with these principles in mind that I hope you will help 
develop new clean energy goals and energy efficiency programs that will 
help meet our country's future energy needs and lead to greater energy 
independence and security. The Committee will work on an energy bill 
again this year. I look forward to working with my colleagues on this 
Committee and with you, Dr. Bodman, to do everything we can to help 
develop a comprehensive and sustainable energy strategy that is also 
protective of a healthy environment in the West and across the country.
    Again, thank you, Mr. Chairman and Senator Bingaman. And thank you, 
Dr. Bodman.

    The Chairman. Senator Allen, in your absence, we welcomed 
you to the committee.
    Senator Allen. Thank you.
    The Chairman. You knew I did that, in any event, but I just 
wanted to remind you.
    Senator Allen. I just want to keep things moving along, Mr. 
Chairman.
    The Chairman. You are great.
    Dr. Bodman, we will proceed. And the next item is for you 
to introduce your family and give your opening remarks.

    TESTIMONY OF SAMUEL W. BODMAN, NOMINEE TO BE SECRETARY, 
                      DEPARTMENT OF ENERGY

    Dr. Bodman. Mr. Chairman, Senator Bingaman, Members of the 
committee, I am very pleased and appreciate the opportunity to 
be here before you today.
    I am very honored to be the President's nominee----
    The Chairman. Would you introduce your family?
    Dr. Bodman. Yes, sir.
    The Chairman. Oh, you will?
    Dr. Bodman. Yes, sir, just in the next----
    The Chairman. Okay. I thought you forgot.
    [Laughter.]
    Dr. Bodman. I am just--well, I had a choice, and I had to 
put the President first.
    [Laughter.]
    The Chairman. Oh, okay.
    Dr. Bodman. I thought that was a wise thing to do.
    And so, I am honored to be the President's nominee for this 
job, and I am very grateful for his confidence and support.
    I am very pleased--to your point, sir--that my wife Diane 
is here with me today, as well as my son, Perry, who is 
immediately behind her. I am the proud father of five children, 
and I have eight grandchildren, and I am very blessed to have 
their continued support.
    As the Deputy Secretary of Commerce during the first 3 
years of the administration, and as the Deputy in Treasury for 
the last year, I have had the privilege of serving this 
President and the American people for the past 4 years. During 
that period, and over the course of the last 6 weeks, I have 
had the good fortune to visit with almost all of you 
personally. The meetings have been extremely helpful to me, and 
I express my gratitude to you for your spending the time with 
me. They have been a great source of encouragement as to what I 
hope we can accomplish together as we move forward.
    By way of personal background, I was born in Chicago, and 
raised in a very small Illinois community, but I spent most of 
my adult life in Massachusetts. I went to Boston as an MIT 
graduate student, and I never left town. I stayed there for 40 
years.
    I started out my career as a professor of chemical 
engineering at MIT. I then joined a small investment firm--
then-small investment firm called Fidelity Investments. During 
my 17 years there, the last ten of which were as president of 
the company, I helped orchestrate the transformation of a small 
regional investment company into one of the nation's largest 
financial-service enterprises.
    Following my time at Fidelity, I spent 15 years serving as 
chairman and CEO of Cabot Corporation, a publicly owned 
specialty chemical manufacturer. Four years ago, Diane and I 
moved here to Washington so that I might serve as Deputy in 
Commerce and then move on to Treasury.
    In many ways, the challenges and opportunities of the 
Department of Energy, which I now have to admit, sir, is even 
somewhat more diverse than that which I was used to at the 
Commerce Department--these challenges and opportunities will 
call upon all aspects of my life's professional work in 
academia, in business, and in government.
    I believe that the Department of Energy, with its critical 
national and economic security missions, is one of our most 
important Federal agencies. But, at the same time, it is 
perhaps one of the least understood by much of the general 
public. That lack of understanding might be partly a result of 
its name, which belies the broad spectrum of the Department's 
scientific research and national-defense missions.
    Some people have told me that the agency might well be more 
appropriately called the ``Department of Energy, Nuclear 
Defense, Science, and Technology.'' But if that were, indeed, 
its name, perhaps the Department would be in the news a little 
more often than just during times of power blackouts and high 
gasoline prices.
    One example of an important mission that goes well beyond 
the Department's ``energy'' name is the responsibility to 
maintain America's world leadership in science. The Department 
of Energy, as the Members of this committee well know, is the 
primary Federal agency conducting basic research in the 
physical sciences. The Department operates a network of 
national laboratories that drive dramatic advances in a number 
of fields. Those fields include high-energy physics, nuclear 
science, plasma science, material and chemical sciences, as 
well as the biological and environmental sciences.
    For the public good, the Department of Energy invests in 
the large, sophisticated scientific facilities needed to 
support basic research and the needs of the general science 
community. Each year, thousands of researchers from around the 
Nation, and the world, work with the Department of Energy's 
national laboratories. As testament to the importance of the 
impact of this research, scientists working with the DOE 
national labs over the years have been awarded more than 80 
Nobel Prizes. Quite a statement. As an engineer by training, 
and a teacher, I very much look forward to the prospect of 
learning more about the national labs, and supporting their 
critically important work.
    I am also eager to contribute to the Department of Energy's 
better-known mission of helping to ensure stable, reliable, 
secure, affordable, and environmentally responsible supplies of 
energy for our Nation's growing economy. As you know, the last 
Congress came very close to enacting a comprehensive piece of 
energy legislation. That legislation contained numerous 
provisions to expand our domestic production of traditional 
energy resources, modernize our energy infrastructure, expand 
our use of renewable energy sources, such as wind and solar 
power, and make wiser use of energy, and pursue new forms of 
energy production that would help reduce pollution and lessen 
America's dependence on foreign oil.
    A stable and affordable supply of energy is, indeed, the 
lifeblood of the U.S. economy. Comprehensive energy legislation 
should address the energy challenges that we face, which 
include the high prices of gasoline, heating oil and natural 
gas, power blackouts, and shortages in some regions of natural 
gas and electricity. It is, in my view, among the most 
important matters to come before this Congress. And, if 
confirmed, I will look forward to working with the Members of 
this committee, along with your colleagues in both houses of 
Congress, to pass this legislation.
    Another major area of focus for the Secretary of Energy is 
the Department's National Nuclear Security Administration and 
its responsibility for America's nuclear defense, both the 
stewardship of our nation's nuclear-weapons stockpile and our 
international nuclear nonproliferation efforts.
    As Members of this committee know, one of the most 
important responsibilities of the Secretary of Energy, in 
cooperation with the Secretary of Defense, is certifying to the 
President that our Nation's nuclear-weapons stockpile is safe, 
secure, and reliable. The nuclear deterrent was a vital factor 
in winning the cold war, and it continues to be a key strategic 
component of our national-security posture. Since the beginning 
of this administration, the Energy Department has made 
significant progress in upgrading the capabilities of nuclear 
weapons and the facilities that support it. I look forward to 
continuing that progress.
    I also believe that we must build on the Department's 
impressive programs in the area of nuclear nonproliferation. 
Few things are more important in today's world than keeping 
weapons-usable nuclear material away from terrorists and enemy 
regimes. Nuclear material around the world must be made more 
physically secure to make certain that it is never acquired for 
use in weapons, either in nuclear devices or in radiological-
dispersion devices, or so-called ``dirty bombs.''
    Closely related to the Department's nuclear-defense mission 
is the cleanup of various sites around the country that have 
been contaminated through the years as a result of the 
development of our nuclear-defense capability. Over the past 4 
years, the Department has revamped the massive cleanup process 
for these sites, reducing the timetable by 35 years, moving the 
projected completion date to 2035 from 2070, and saving 
taxpayers about $50 billion in the process.
    I commend Secretary Abraham and the many DOE employees who 
have worked on this accomplishment. And, if confirmed, I know 
that we will build on their achievement to ensure that chemical 
and radiological contamination at these facilities is properly 
dealt with, and that, where practical, these sites are restored 
and returned to the public for safe and constructive use.
    All of the Department's mission-critical work is vital to 
America's national security, to the well-being of our economy, 
and to our Nation's leadership in the world of science and 
technology.
    Once again, Mr. Chairman, I am deeply honored that the 
President has nominated me to serve this important agency, and 
I look forward to working with each of the committee Members as 
this confirmation process moves forward. And I am now pleased 
to take any questions that you may have.
    Thank you, sir.
    [The prepared statement of Dr. Bodman follows:]
   Prepared Statement of Samuel W. Bodman, Nominee to be Secretary, 
                          Department of Energy
    Mr. Chairman, Senator Bingaman, and members of the Committee, thank 
you for the opportunity to appear before you today. I am honored to be 
President Bush's nominee to be Secretary of Energy, and I am grateful 
for his confidence and support.
    I am most pleased that my wife, Diane, is here with me today. I am 
the proud father of five children and eight grandchildren, and I am 
blessed to have their continued support.
    As Deputy Secretary of Commerce during the first three years of the 
Administration, and as Deputy Secretary of the Treasury for the last 
year, I have had the privilege to serve President Bush and the American 
People since 2001. During that period, and over the course of the last 
six weeks, I have had the good fortune to visit with many of you. The 
meetings have been very helpful to me, in preparation for this day, and 
have been a source of great encouragement as to what I hope we can 
accomplish together if I am confirmed.
    By way of personal background, I was born in Chicago and raised in 
a small Illinois community, but I spent most of my adult life in 
Massachusetts. I went to Boston as an MIT graduate student and ended up 
staying for 40 years. I started out my career as a professor of 
chemical engineering at MIT. In 1970, I joined a then-fledgling 
investment firm called Fidelity Investments. During my seventeen years 
there, the last ten as president, I helped orchestrate the 
transformation of a small company into one of the nation's largest 
financial service enterprises.
    Following my time at Fidelity, I spent fifteen years serving as 
Chairman and CEO of Cabot Corporation, a specialty chemical 
manufacturer. Four years ago, Diane and I moved to Washington so that I 
might serve as Deputy Secretary of Commerce, and for the last year, in 
the same position at the Treasury. In many ways the challenges and 
opportunities of the Department of Energy will call upon all aspects of 
my life's professional work in academia, in business, and in 
government.
    I believe the Department of Energy, with its critical national and 
economic security missions, is one of our most important federal 
agencies. But, at the same time, it is perhaps one of the least 
understood by much of the general public. That lack of understanding 
might be partly a result of its name--which belies the broad spectrum 
of the Department's scientific research and national defense missions.
    Some people have told me the agency might be more appropriately 
called the ``Department of Energy, Nuclear Defense, Science and 
Technology.'' And if that were indeed its name, perhaps the Department 
would be in the news more often than just during times of power 
blackouts or high gasoline prices.
    One example of an important mission that goes well beyond the 
Department of Energy's name is the responsibility to maintain America's 
world leadership in science. The Department of Energy, as the members 
of this Committee well know, is the primary federal agency conducting 
basic research in the physical sciences. The Department operates a 
network of large national laboratories that drive dramatic advances in 
a number of fields--such as high-energy physics, nuclear science, 
plasma science, material and chemical sciences, and biological and 
environmental sciences.
    For the public good, the Department of Energy invests in the large, 
sophisticated scientific facilities needed to support basic research 
and the needs of the general scientific community. Each year, thousands 
of researchers from around the nation, and the world, work with the 
Department of Energy's national laboratories. As a testament to the 
importance and impact of this research, scientists working with the DOE 
national labs over the years have been awarded more than 80 Nobel 
Prizes. As an engineer by training, I very much look forward to the 
prospect of learning more about the national labs and to supporting 
their critically important work.
    I also am eager to contribute to the Department of Energy's better-
known mission of helping ensure stable, reliable, secure, affordable 
and environmentally responsible supplies of energy for our nation's 
growing economy. As you know, the last Congress came very close to 
enacting comprehensive energy legislation that contained numerous 
provisions to expand our domestic production of traditional energy 
resources, modernize our energy infrastructure, expand our use of 
renewable energy sources such as wind and solar power, make wiser use 
of energy, and pursue new forms of energy production that would help 
reduce pollution and lessen America's dependence on foreign oil.
    A stable and affordable supply of energy is indeed the lifeblood of 
the U.S. economy. Comprehensive energy legislation should address the 
energy challenges that we face, including high prices for gasoline, 
heating oil and natural gas, power blackouts and shortages in some 
regions of natural gas and electricity. It is, in my view, among the 
most important matters to come before Congress. And if confirmed, I 
look forward to working with the members of this Committee, along with 
your colleagues in both houses of Congress, to pass this legislation.
    Another major area of focus for the Secretary of Energy is the 
Department's National Nuclear Security Administration and its 
responsibility for America's nuclear defense--both the stewardship of 
our nation's nuclear weapons stockpile and our international nuclear 
nonproliferation efforts.
    As the members of the Committee know, one of the most important 
responsibilities of the Secretary of Energy--in cooperation with the 
Secretary of Defense--is certifying to the President that our nation's 
nuclear weapons stockpile is safe, secure and reliable. The nuclear 
deterrent was a vital factor in winning the Cold War, and it continues 
to be a key strategic component of our national security posture. Since 
the beginning of this Administration, the Energy Department has made 
significant progress in upgrading the capabilities of the nuclear 
weapons complex and the facilities that support it. I look forward to 
continuing that progress.
    I also believe that we must build on the Department's impressive 
programs in the area of nuclear nonproliferation. Few things are more 
important in today's world than keeping weapons-usable nuclear material 
away from terrorists and enemy regimes. Nuclear material around the 
world must be made more physically secure to make certain that it is 
never acquired for use in weapons--either in nuclear devices or in 
radiological dispersion devices, so-called ``dirty bombs.''
    Closely related to the Department's nuclear defense mission is the 
cleanup of various sites around the country that have been contaminated 
through the years as a result of the development of our nuclear defense 
capability. Over the past four years, the Department has revamped the 
massive cleanup process for these sites, reducing the timetable by 35 
years (moving the projected completion date to 2035 from 2070) and 
saving taxpayers about $50 billion in the process.
    I commend Secretary Abraham and the many DOE employees for this 
accomplishment. And, if confirmed, I know that we will build on their 
achievement to ensure that chemical and radiological contamination at 
these facilities is properly dealt with--and that, where practical, 
these sites are restored and returned to the public for safe and 
constructive use.
    All of the Department's mission-critical work is vital to America's 
national security, to the well-being of our economy, and to our 
nation's leadership in the world of science and technology. Once again, 
I am deeply honored that the President has nominated me to serve in 
this important agency, and I look forward to working with each of you 
as this confirmation process moves forward. I am now pleased to answer 
any questions.

    The Chairman. Thank you very much.
    First, I want to thank you for that statement. I think you 
have quite appropriately captured the essence of the 
Department, and have indicated most of the highlights of what 
we will be confronted with.
    Having said that, I want to let the record show that two 
additional--three additional Senators have arrived, and if they 
want to make a brief opening statement, albeit late, and others 
did not, you are welcome to.
    [Laughter.]
    Senator Feinstein. I'll put mine in the record.
    [The prepared statement of Senator Feinstein follows:]
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                               California
    Thank you, Mr. Chairman, for holding this hearing.
    Mr. Bodman, I would like to welcome you to the committee and share 
with you my concerns with our nation's energy policy.
    As you know, in 2000-2001, the entire West suffered through an 
energy crisis. In California, the total cost of electricity soared from 
$7 billion in 1999 to $27 billion in 2000 and $26.7 billion in 2001--a 
400% increase in one year. We know that demand cannot and did not 
increase by 400% in one year!
    Over the past few years, we have learned a great deal about the 
energy companies' trading practices in the West.
    It is clear that there was not adequate federal oversight to 
protect Californians and the other energy consumers in the West.
    Indeed, the record shows that energy companies including Enron, 
Mirant, and Dynegy, for example, deliberately withheld electricity and 
natural gas to boost their companies' profits.
    Fraud and manipulation occurred, in part, because strong federal 
oversight of much of the energy trading system was non-existent. In 
fact, strong federal oversight of our energy markets is still lacking.
    I am also concerned about this Administration's lack of commitment 
to combating climate change.
    As you know, this country has the technological know-how to utilize 
existing technologies, such as energy efficient appliances, strong 
hybrid vehicles, and renewable energy sources, to reduce the greenhouse 
gases we emit into the air every day. Yet we have no federal commitment 
to incentivizing these technologies to make them more cost-effective 
for consumers.
    I would also like to express my concerns about the Administration's 
nuclear weapons policy. I have several questions that I will ask later 
in the hearing to seek your opinion on the path the Administration 
should take in developing new, low-yield and tactical nuclear weapons.
    I would also like to raise the topic of the National Ignition 
Facility. This and other Administrations have strongly supported the 
funding and the goals of the National Ignition Facility.
    I applaud them for their efforts and hope it will continue under 
your tenure as Secretary.
    Thank you Mr. Chairman and I look forward to Mr. Bodman's 
testimony.

    The Chairman. Senator Craig.
    Senator Craig. Mr. Chairman----
    The Chairman. Do not take too long to think about it.
    [Laughter.]
    Senator Craig. Having properly phrased your recognition of 
my presence, I ask unanimous consent that my statement be a 
part of the record.
    The Chairman. All right. That is good.
    [The prepared statement of Senator Craig follows:]
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho
    I am pleased that the Committee was able to schedule this 
confirmation hearing in a very expeditious manner.
    We have before us a nominee with whom this Committee will interact 
in very substantive ways during the coming Congress.
    Aside from the important goal of completing a comprehensive energy 
bill, each of us brings to our work on this Committee, energy issues 
that are specific to our states. I am no different in this regard.
    In Idaho, we host two of the Department of Energy's national 
laboratories, and we are on the threshold of something very exciting.
    On February first--less than two weeks from today--the Idaho 
National Engineering and Environmental Laboratory and Argonne National 
Lab West will officially be combined in the new Idaho National Lab.
    The creation of this new lab--which is a combining of the 
capabilities of the two existing labs in Idaho--was launched by 
Secretary Abraham nearly two years ago. The Idaho National Lab will be 
at the center of DOE's efforts to revitalize the commercial nuclear 
power industry through the demonstration of advanced nuclear reactors 
and technologies.
    Along with Chairman Domenici, I have worked with DOE and within the 
energy bill, to move forward on the design and construction of an 
advanced Generation 4 nuclear reactor at the Idaho National Lab. This 
advanced reactor will generate both electricity and hydrogen.
    With the nominee for Secretary which we have before us today, I 
will continue this close working relationship for the success of 
nuclear energy and the success of the Idaho lab.
    Just as important to me, however, is addressing the environmental 
legacy of DOE's past practices in Idaho. Ongoing in Idaho is a 
comprehensive clean-up of hazardous and radioactive waste--through 
DOE's Environmental Management Program.
    This clean-up is costing the taxpayers hundreds of millions of 
dollars per year in Idaho alone. Nationwide it is costing many 
billions. It is important that this clean-up be done right, done soon 
and done cost effectively.
    This nominee has an impressive background and, in being nominated 
for this position, he has accepted a challenge that is every bit the 
equal of his skills. He has my support. I look forward to his speedy 
confirmation and working cooperatively with him on these challenges.

    The Chairman. How about our Senator from Wyoming?
    Senator Thomas. I think I have no choice but to submit it.
    [Laughter.]
    The Chairman. No, you have whatever choice you would like.
    Senator Thomas. I will be glad to submit it. Thank you.
    [The prepared statement of Senator Thomas follows:]
   Prepared Statement of Hon. Craig Thomas, U.S. Senator From Wyoming
    Welcome, Dr. Bodman. President Bush has nominated you for an 
extremely important position especially in light of the tremendous 
importance of the energy and national security issues facing this 
country today. I believe your education and experience as Deputy 
Secretary of the Treasury, Deputy Secretary of Commerce as well as the 
knowledge you gained in the private sector gives you a solid foundation 
to be an effective Energy Secretary.
    The responsibilities of the Department of Energy are extremely 
diverse and complex--ranging from national security, energy policy, 
science and technology, to environmental management. For instance, a 
key responsibility entrusted to the Secretary of Energy is to annually 
certify to the President that the U.S. nuclear arsenal is safe, secure, 
and reliable. The Department also plays a critical role in the 
challenge of nuclear nonproliferation and at the same time, oversees 
our nation's national laboratories.
    In addition, the Department of Energy is the principal Federal 
agency charged with the responsibility for development of a national 
energy policy. Your predecessor, Secretary Spencer Abraham was actively 
engaged with the committee during the past four years as we tried 
diligently to pass an energy bill. The time is here to buckle down and 
finally pass a comprehensive energy policy.
    We must strive for our nation's energy independence. I come from 
the State of Wyoming. In 2003, we ranked 6th in the nation in proved 
reserves of crude oil, 2nd in natural gas, and 3rd in coal reserves so 
I happen to think energy independence is achievable. Yet, oil imports 
continue to run at historic levels and we are talking about importing 
huge quantities of natural gas to make up a deficit. How do we find 
ourselves in this situation? We tend to create some of our own problems 
and fail to make the difficult decisions to use all our available 
resources.
    The California energy crisis was an unfortunate series of events 
but it highlighted the danger of putting all your eggs in one basket. 
Especially with regard to base load generation, we must look to our 
nation's most abundant fuel--coal. That is why we need the Department 
of Energy's commitment to coal and the development of technologies to 
make coal cleaner and more efficient. Most importantly, we need your 
commitment to continue coal research and development. The current Clean 
Coal Power Initiative and the FutureGen project are promising 
technologies but they have to be fully funded. All this is necessary to 
expand the use of coal for power generation so natural gas can saved 
for industrial, commercial, and home use.
    In addition, we need to be able to get coal power to market. The 
federal government is the largest owner of transmission capacity in the 
United States. As the Secretary of Energy you will be in charge of the 
federal power marketing administrations--BPA, WAPA, SWPA and SEPA. The 
Bonneville Power Administration (BPA), alone, owns and operates 75% of 
the high voltage transmission system in the Pacific Northwest. For some 
time now, a group of utilities in the states of Nevada, Oregon, 
Washington, Idaho, Montana, Wyoming and Utah have been working to 
develop a regional transmission organization (RTO)--now known as 
GridWest. I believe an RTO would bring increased certainty that leads 
to added investments in transmission capacity and to a more effective 
and less congested transmission grid. An RTO in my region of the 
country would produce enormous benefits for my constituents and 
throughout the West.
    Dr. Bodman, I have only touched the surface of your enormous 
portfolio that you will carry as the Secretary of Energy. The 
challenges are immense. I look forward to working with you.

    The Chairman. After all, you know, it is not very often 
that we comment on your great State. But when it comes to coal, 
we have to recognize that America would be in tough shape if we 
did not have your State.
    Senator Thomas. I certainly agree. And if that is the case, 
perhaps I should go ahead.
    [Laughter.]
    The Chairman. No, I think, with that, you really should not 
speak.
    [Laughter.]
    The Chairman. Now, I have four quick questions, but I do 
want to open by saying to you that--you mentioned the NNSA, the 
National Nuclear Security Administration. We have not had many 
hearings on that, and those--that acronym and what it does has 
still not been--become very public, and people are not yet 
aware. And I do not think the Department has done a very good 
job at implementing the legislation for this autonomous 
structure--semi-autonomous.
    I do have a letter I will submit to you that states what I 
think you ought to do, and what you have not done. And I will 
submit it to the committee Members--in particular, Senator 
Bingaman--shortly.
    Now, having said that, I am going to do something that is 
rather parochial first. Los Alamos National Laboratory will 
soon be--soon have a renewed contract--not necessarily a new 
contract or--but we've had the same contract and the same 
contractor for 60 years. And now it is being--the management is 
being competed for the first time. The outcome of this 
competition is, as you might suspect, causing a great deal of 
concern among a number of the superb scientists at the 
laboratory, to the point that some at least indicate that they 
might be considering leaving the laboratory rather than 
trusting the outcome of the competition. I have tried, and so 
have Senator Bingaman and others, to assure them that they 
should not do that, and that the bidding will properly protect 
their interests and their contract and their benefits.
    So do you share the commitment that was made by the 
Secretary--that is, Secretary Abraham--that the Department 
fully intends to maintain, and even enhance, the scientific 
capabilities at Los Alamos; and, second, that laboratory 
employees or retirees will maintain the existing pensions or 
health benefits as a result of the competition?
    Dr. Bodman. I am happy to make that commitment, sir. I 
would go on to say that I consider Los Alamos to be among the 
crown jewels, really, I guess, a phrase--perhaps it's 
overused--but the crown jewels of this Nation's technological 
effort. And anything that I can do to enhance that--not just 
leave it the way it is, but to enhance it--I will do. And I 
remain very enthused and, frankly, humbled at the opportunity.
    The Chairman. My second question has something to do with 
plutonium disposition. I have been involved in an effort to 
achievement a binational agreement with Russia on plutonium 
disposition. That continues to be stymied by endless wrangling 
on the issue of liability, which is a strange word, but it 
really has to do with Russian liability, in case of an 
accident, in turning this plutonium into something that is 
safe. Can you assure me that you will push forward and press 
with the administration for the resolution of the issue of 
liability so that progress can be made on this very key 
nonproliferation effort? Are you aware of the issue?
    Dr. Bodman. Yes, sir, I am aware of it. I can certainly 
attest to my commitment to following through on that effort. 
This President, this administration, has made nonproliferation 
a very high priority. It will certainly have a high priority on 
my agenda. I am, further, aware that the issues are of a legal 
nature and are highly complex, and that efforts are being made 
to resolve these matters even as we speak. And I will 
certainly, if confirmed, put forth my effort to join in an 
effort to resolve whatever differences exist.
    The Chairman. You mentioned electricity and blackouts--but, 
you are right, that is about the time we begin to think we 
have--that an Energy Department's important, when we have one--
but the security of the Nation's aging power network is 
becoming a great concern. It is highlighted by an August 14 
blackout, which you apparently alleged to in your remarks, that 
affected 50 million citizens. There has been a strong push for 
enacting mandatory reliability rules as a way to address this 
issue. However, many of us believe that more than that is 
necessary. Do you have any idea what other efforts, if any, you 
might think are necessary to address the challenges of the 
electricity grid?
    Dr. Bodman. The challenges facing the delivery of 
electricity to the citizens of this country are quite profound. 
We have a system for delivering electrical energy to our 
citizens that is highly varied. Some areas have less expensive 
power, other areas have more expensive power. Some areas have a 
more reliable network for delivery, others have a less reliable 
network. We have some parts of the country that are regulated, 
other parts are deregulated. It strikes me that we need to 
develop an approach that will take into account the diversity--
this great diversity that I alluded to--and stimulate 
investment in the grid. We have an aging facility, and we seem 
to be having difficulty putting together a program that deals 
with this range of issues.
    It is very tough, I would say, sir. It is a real challenge. 
I do not think I underestimate it, although I may be. But I am 
very much committed to working with this committee, working 
with the committee that, as you pointed out earlier, represents 
a broad range of states, and seeing if we can develop an 
approach that would stimulate investment. That is really what 
we need. We need to find a way to stimulate investment and 
creativity. That seems to be starting to take hold, but we need 
to see more of it, in my judgment.
    The Chairman. Mr. Bodman, I have a question on nuclear 
energy, as it is related to projects within--programs within 
your Department. You are well aware of my interest. And rather 
than take that question right now, I hope, at the end, I will 
have time, and I will ask you about the programs for moving 
ahead with a new generation of technology in that area.
    But let me now yield to the Ranking Member for his 
questions.
    Dr. Bodman. Thank you, sir.
    Senator Bingaman. Thank you very much, Mr. Chairman.
    Let me follow up, first, on the question that you started 
with relation to Los Alamos. It is my impression--and I know 
that others probably disagree with this--but my impression is 
that one of the things that is essential in the case of this 
awarding of a new contract to operate Los Alamos is that it be 
done expeditiously. I think we have had a long period here 
since Secretary Abraham announced that there would be a 
competition. It has been over 2 years. That period of time has 
created a high level of uncertainty among lab employees as to 
who was going to run the lab, who was--how that was going to 
shake out. For that reason, I think it is very important that 
we go ahead and get this contracting decision made and awarded, 
and move down the road. I hope that, as Secretary of Energy, 
you will take some personal interest in the process of getting 
this done quickly; in addition, of course, to the concerns that 
Senator Domenici raised, which I also share, about making sure 
that the new contract is favorable and is designed in a such a 
way that we can retain and attract the top people we need for 
that laboratory. But I just mention that. That is not a 
question; that is just a statement from me on that issue, 
because I do think it's very important.
    One of the issues that I think we will undoubtedly be 
discussing at length in our deliberations on an energy bill in 
this Congress is what actions the administration has been able 
to take, absent legislation, in this area. We have passed a few 
pieces of legislation, but nothing like what we set out to 
pass. And there were a great many recommendations in the 
original administration task-force review of Energy that did 
not require any legislative action.
    Senators Byrd and Jeffords and I all asked the General 
Accounting Office to give us a report as to how various 
agencies had proceeded to implement the recommendations in the 
administration's May 2001 National Energy Policy. We made that 
request some time ago. We were advised by the General 
Accounting Office that it was relying on the Department of 
Energy to provide information; we were told then that the 
Department of Energy would deliver that information last 
August. To my knowledge, that information still has not been 
forthcoming.
    I would not expect you to know about this in any detail at 
this stage in the proceedings, but I would just, again, urge 
that, after your confirmation, if you could look into that, it 
would be very helpful to the Congress to know what actions have 
been taken administratively. We could then have that 
information before we charge off to enact legislation again.
    Dr. Bodman. You certainly, sir, would have my commitment to 
look into the matter and to report back to you as to what I 
find when I do so.
    Senator Bingaman. Well, I appreciate that very much.
    The other question I wanted to ask relates to a subject 
that Senator Domenici is probably more familiar with than I am 
because of his joint responsibilities here and in the 
Appropriations Committee. But last year the administration 
failed to request sufficient funds for the Yucca Mountain 
project. And, in my view, that unnecessarily jeopardized the 
future of that repository program. Can you assure the committee 
that this is a mistake we will not make again, that you will 
try to ensure that adequate funding is requested for that 
effort?
    Dr. Bodman. Senator, I would say this to you, that I view 
as one of my responsibilities in this job would be to execute 
the will of Congress and the will of the President in seeing to 
it that we follow through with Yucca Mountain. I am aware that 
apparently there were differences of opinion as to how one 
might go about appropriating funds for Yucca Mountain. I have 
not personally reviewed, nor should I have, the 2006 budget. I 
know a lot about the 2006 budget in Treasury, but nothing about 
it in the Department of Energy. And so, I cannot really speak 
to what is in there. But I can tell you that this is a matter 
of great import, it will be a matter of great import to me, and 
that I will enthusiastically follow through on it.
    Senator Bingaman. Well, thank you very much.
    Let me ask one other question. This is a subject, again, 
that both Senator Domenici and I have been concerned about, 
related to the Department's polygraph policy. The National 
Academy of Sciences did a report on the use of polygraph 
examinations and where they thought it was valid and where they 
did not think it was valid. There is a new proposal that just 
came out of the Department for use of polygraphs, and it makes 
some changes. My concern is that, in my view, it still 
contemplates a much more liberal use of that tool than is 
justified by the science that the National Academy of Sciences 
alluded to. I would just ask that--if you would agree that 
members of the scientific community should be given an adequate 
chance to comment on the new proposal that has just come out of 
the Department before that's finalized, and that their comments 
should be given careful consideration.
    Dr. Bodman. I am not aware, in detail, of this situation, 
Senator. I am aware that the Department felt that it had, in 
large measure, reflected the views of the Academy, in the work 
that the Academy did, with respect to polygraphs, and that they 
have proposed to have a three-tier system, where only a very 
few people at the top of the tier who are constantly recipients 
of classified information would be subjected, on a regular 
basis. There would be a group under that that would be taken 
randomly, and then a whole group of people below that that 
would not be required to do it.
    So I think the effort has been one of trying to respond. 
And I would think that this Department will continue to try to 
respond to the wishes and the views of the science community.
    Senator Bingaman. Thank you very much. My time is up.
    The Chairman. Thank you, Senator.
    I am going to go on time of arrival, if you do not mind. I 
will, however, say there are two Senators who have arrived 
since we started, Senator Smith and Senator Bunning. Would 
either of you like to have any comments, in lieu of opening 
statements? I would tell you that nobody else made any, so we 
will then frown upon you, but, nonetheless, accept statements.
    [Laughter.]
    Senator Smith. I will follow the example of my colleagues 
and put it in the record and welcome our Cabinet nominee.
    Dr. Bodman. Thank you.
    [The prepared statement of Senator Smith follows:]
   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon
    Chairman Domenici, I appreciate your ongoing efforts to provide 
energy security for our nation, and look forward to working with you 
again this Congress in an effort to enact meaningful national energy 
legislation. I want to welcome the Honorable Samuel Bodman here today, 
and express my strong support for his nomination as Secretary of 
Energy. Once confirmed, his leadership will be key in helping us craft 
bipartisan energy legislation.
    I represent a state that receives a significant percentage of its 
power from the Bonneville Power Administration (BPA). In our 
conversations since your nomination, Deputy Secretary Bodman, I 
outlined my position that the benefits of the federal Columbia River 
hydropower system must continue to be available to the residents, farms 
and businesses of the Northwest, in accordance with federal law.
    BPA must also have certainty with respect to its access to capital 
for long-term infrastructure development. This is true whether such 
financing is through BPA's Treasury borrowing account or some other 
means, such as third-party financing. There are many congestion points 
on the northwest transmission grid, much of which is owned and operated 
by BPA. The resulting inability to secure firm transmission rights is 
hampering the development and siting of new generation, and will 
threaten the region's economic recovery if not addressed. BPA's access 
to capital must not be artificially constrained, and I will seek your 
assurances that such constraints will not be imposed.
    On another issue, drought conditions in the Pacific Northwest could 
result in tight energy supplies this summer. The last time we faced 
tight electricity markets on the West Coast, then Secretary of Energy 
Richardson issued a secretarial order on power sales into California. 
At that time, I wrote the Clinton Administration to express my concern 
that the order inappropriately gave the California Independent System 
Operator first priority rights to Northwest power and water, and would 
result in greater risk for power shortages and substantially increased 
rates for residential and business customers in Oregon. I also raised 
the concern that the order would shift the burden of California's 
liquidity and credit issues to others in the West by forcing them to 
sell to California without guarantees of compensation. Lastly, I also 
expressed my concern that the federal dams on the Columbia and Snake 
Rivers were being operated in a manner that could jeopardize salmon 
recovery efforts.
    While the water supply could improve or worsen I will be seeking a 
commitment from you that if we get into another tight electricity 
market this summer, you will not turn the Northwest into California's 
energy farm, or shift economic risk from California to the Northwest.
    Dr. Bodman, I am now starting my fifth Congress as a member of the 
Senate Energy and Natural Resources Committee. This means I have also 
worked now for just as many congresses on national energy legislation. 
While some bills made it farther than others, we have yet to enact 
comprehensive energy legislation, even when it was supported by a 
majority of the Senate.
    This lack of a national energy strategy is coming home to roost. 
Prices remain at or near historically high levels across the various 
energy sectors crude oil, natural gas, gasoline and electricity. This 
nation is more dependent on foreign oil than at any time in its 
history, and that dependency is expected to reach 70 percent by 2025.
    The U.S. economy is the economic driver of the world. But for 
prosperity to continue, the U.S. needs energy. It needs abundant, 
reasonably priced oil, natural gas and electricity. I am confident 
that, as President Bush's Secretary of Energy, you will work with the 
Congress to achieve the Administration's dual goals of increased 
conservation and increased energy production.
    Finally, with respect to the Northwest, I urge the Bush 
Administration to maintain its commitment to providing sufficient 
federal funding for the Hanford Site cleanup, and to resolving any 
outstanding issues that would hamper that effort. The health of 
Northwest residents and of the Columbia River ecosystem depend upon it.
    In closing, I look forward to your comments today and to working 
with you on these important issues.

    Senator Bunning. I will do likewise.
    [The prepared statement of Senator Bunning follows:]
   Prepared Statement of Hon. Jim Bunning, U.S. Senator From Kentucky
    Thank you, Mr. Chairman.
    I am pleased that Mr. Bodman is before us today.
    His nomination is very important given the issues that Kentucky has 
with the Paducah Plant and coal.
    Thankfully since my legislation to move the Energy Employees 
Compensation Program to the Department of Labor was signed into law 
last Congress, one of the major issues at the Paducah Plant has 
lessened. Hopefully, Mr. Bodman will help Paducah make some of the 
other issues, such as cleanup at the plant, better.
    I also hope the Mr. Bodman will work with members of Congress to 
ensure that coal has a future as an energy source in this country. I am 
hopeful that we will get an energy bill this year that will help make 
that happen.
    This is a big job and I expect Mr. Bodman will be receptive to 
suggestions and comments by myself and other members of Congress.
    If the Senate confirms Mr. Bodman, I expect he will work hard to 
make sure that the DOE effectively manages the Paducah Plant and the 
clean coal issue.
    Thank you, Mr. Chairman.

    The Chairman. Thank you very much.
    All right. We will proceed in time of arrival, and I hope I 
am correct. Senator Alexander, I believe you are next.
    Senator Alexander. Thank you, Mr. Chairman.
    Dr. Bodman, welcome. I am impressed with your broad 
background. I think you are exactly the kind of person who 
could head a Department of Energy and Nuclear Safety in Science 
and Technology.
    I would also say, to the chairman, I appreciate his public 
comments that we would try to work together better, in a 
bipartisan way this next year, and I look forward to that. 
Senator Bingaman stepped out for a moment, but he and I worked 
together on a bill to help the country recapture the lead for 
computing in America, and on a Science and Technology Caucus, 
and I see no need why--no reason why we cannot do that, and 
make that more than just a few words.
    If someone--I would like to use my time to emphasize a few 
points and then ask you one question, and then I will ask in a 
second round. But the--if someone landed from the moon in our 
country, and looked at the problems we have to solve, they 
would see a number of them that we do not know exactly what to 
do about, including Iraq, Iran, immigration, Medicare. These 
are problems for which there are no obvious answers. But 
everyone here knows what to do about energy. It's perfectly 
clear what to do about energy. You know, and we have clear 
answers and clear technology, and we have it for today, and we 
have it for 15 or 20 years from now, which makes it extremely 
disappointing not to be able to agree on an energy bill.
    And the areas of importance are conservation and innovation 
and production. And, at least for the short-term, we have to 
have more production of nuclear and/or oil and/or coal. Now, 
there are other ways to do it, but we have to have enough to 
keep the economy running for that time.
    So I was very pleased to hear you talk about the national 
laboratories--they are our secret weapon for job growth--and 
about the importance of the physical sciences. We are going to 
wake up 10 years from now and wonder what happened to us when 
the insourcing of brains slows down and our investments in 
science technology slows down and our job standard of living 
slows down. So the best way to stop the outsourcing of jobs is 
to continue the insourcing of brains and creating better brain 
power here. And no one else in the world has anything like our 
national laboratories. And that, plus our research at 
universities--need to work together.
    And I mentioned to you in our private meetings that I hope 
you or Margaret Spellings, at Education, will consider yourself 
a point person on all the advanced research, science, 
technology, and higher education we do to call attention to 
that, because we just--we take it for granted, but, 10 years 
from now, we'll be wondering why some of us did not do 
something.
    I include, by that, hydrogen and fusion and the issues on 
down the road which are very serious, serious issues, and the 
work done at the Oak Ridge National Laboratory on Spallation 
Neutron Source. That's very advanced work. We know how to do 
this.
    Second, the chairman emphasizes nuclear power. Seventy 
percent of our emissions-free electricity produced in this 
country comes from the nuclear power plants, which generate 
only 20 percent of the power. So we want clean air, we need 
clean energy; and, to provide a lot of it, nuclear power is the 
obvious answer.
    So I hope you will focus on helping that. And this is 
somewhat parochial, but we have a big Federal power company 
down in my neck of the woods, called TVA, that is opening a 
nuclear power plant, and could open a second, and could open a 
third. And I think it ought to be in a consortium with private 
power plants and lots of others, with encouragement from us to 
use its autonomy to show how we can build these billion-and-a-
half-dollar prototype nuclear power plants so we can do what 
France is doing and provide power and clean the air.
    Also, we do not like paying $700 million into Yucca 
Mountain and not have it used. I mean, that's an 8 percent 
increase on our electric rates for 2 years, or enough money to 
put scrubbers on the two power plants closest to the Great 
Smoky Mountain National Park which are polluting the air there. 
So that's--I am glad you mentioned that.
    Third, coal. We're the Saudi Arabia of coal. We say that. 
You'll have a role in your Department in what's called the 
Clean Air Interstate Rule. And it's been the habit of the 
Department of Energy to weaken it, because our technology 
doesn't produce the production of coal in a clean enough way so 
that we can meet those standards. I hope you do not weaken it. 
I mean, we've got the most polluted national park, and the 
Great Smokies in the Knoxville area, right outside, is one of 
the most polluted part of the country. We need a stronger 
clean-air program, not a weaker one. And the way to do that is 
to encourage coal gasification and to find some way down the 
road to sequester the carbon. You'd find a lot of coal-State 
Senators--Tennessee doesn't produce much coal anymore--but a 
lot of coal-State Senators and liberal environmental groups 
working together with you on that because of--because that will 
set a standard for the world, and maybe China and India would 
build our new-technology clean coal instead of old-technology 
clean coal, which will pollute them and pollute us and make 
what we do about clean air not worth much.
    And, finally--I see the red light's on--Senator Domenici 
has a round table on natural gas, and our farmers and our 
chemical industry--there are a million jobs in the chemical 
industry--we do not want that in Germany. We want those jobs 
here.
    Thank you.
    Dr. Bodman. Thank you, sir.
    The Chairman. Well, Senator, you did not have a question.
    Senator Alexander. Well, I did, but I was out of time. So I 
will----
    The Chairman. That's correct.
    Senator Alexander. Well, let me ask----
    The Chairman. You did not have to ask it. I was just----
    Senator Alexander. Well, maybe----
    Senator Allen. Why do you not say, ``Don't you agree?''
    Senator Alexander. I could say that. Maybe he would give me 
a succinct response on coal, since I know you'll ask about 
nuclear energy, Mr. Chairman.
    The Chairman. No--succinct after that lengthy and beautiful 
and learned treatise, perhaps in, say, 30 seconds--could you do 
that in 30 seconds?
    Dr. Bodman. Coal. Coal is the dominant source of our 
electric energy in this country. We simply need to do a better 
job. The administration has proposed, and the Department has 
pursued, a number of initiatives with respect to coal, or so-
called clean-coal power initiatives, and I am sure, you are 
aware of that. And you have my commitment that these will have 
a very high place in my hierarchy of issues to pursue.
    Senator Alexander. Thank you.
    The Chairman. Thank you very much.
    Senator Smith. Mr. Chairman?
    The Chairman. Yes?
    Senator Smith. A question.
    The Chairman. Please.
    Senator Smith. I apologize. I and a number of us are 
between two hearings and if the timing doesn't work out right, 
may we submit written questions to the nominee?
    The Chairman. You may submit them, and they've been asked 
to have a turnaround that's very fast.
    Senator Smith. Thank you, Mr. Chairman.
    The Chairman. Of course, we'd like to get the confirmation 
vote quickly.
    Senator Smith. Thank you.
    The Chairman. But you may do that.
    Senator Smith. I have three questions.
    The Chairman. Okay. And yes, that has to be done by today. 
If you have them ready, would you or your staff do that?
    And my list says that the next Senator would be Senator 
Martinez, followed by Senator Salazar. So might we proceed? 
And, Senator Murkowski, you're next, after that.
    Senator Martinez. Thank you, Mr. Chairman.
    Secretary Bodman, it's a pleasure to participate in your 
confirmation hearing, sir. I know that we also should take a 
moment to thank outgoing Secretary Spencer Abraham, with whom I 
had a high honor of serving in the Cabinet with, and who I 
consider a great friend and to have been not only a great 
Senator, but also a great Secretary of Energy. And I know, from 
my work with the nominee and the administration, that he was 
always known--had a great reputation for someone who had 
tremendous competence and an ability to get things done. And I 
know that will be true, as well, in your endeavors in the 
Department of Energy. So I look forward to supporting your 
nomination, and voting on your nomination. I consider it a real 
privilege and an honor to do so.
    On a couple of parochial notes--and I think those are 
perfectly appropriate for all of us, I suppose--but in the 
Florida International University in Miami, we have the 
Hemispheric Center for Environmental Technology. It is a place 
where a lot of innovation is taking place, and partnership, and 
in work with our hemisphere, which I think is so increasingly 
important, not only in the issues of energy, but, really, in 
issues of trade and commerce, as well. And I would hope that 
you would have an interest in that program, and, at some point 
when it was feasible for you, that you might even visit us when 
you might be in Florida so that you can get even better 
acquainted with that particular program.
    Dr. Bodman. I am unfamiliar with the program, Senator, but 
I'd be very anxious to learn about it. I'd be particularly 
anxious to learn about it tonight, I think, or tomorrow, with 
looking outside at the weather.
    Senator Martinez. Yes, sir. Well, come down, and it'll be 
still that--the variance between the temperatures will still be 
great for several months to come, so you can come in the next 
few weeks, if you can.
    Last year, the Department of Energy announced that they had 
selected the Southern Company and Orlando Utilities Commission 
to build a $557 million advanced-coal gasification facility in 
Central Florida as part of the Clean Coal Power Initiative. And 
I was on the board of the Orlando Utilities Commission. It's a 
municipal-owned utility in Orlando, and I was its president and 
participated in the construction of a coal-fired plant there in 
the mid 1990's. And I am delighted that the Department of 
Energy provided part of the funding for this project to go 
forward. It's a public/private partnership, and it's going to, 
hopefully, expedite the development--the commercial development 
of gasification technologies, which I think would help the 
country greatly. And I was--my question really is, Would you be 
committed to continuing this type of public/private 
partnerships? And would you, again, take an interest in this 
particular project that we have in central Florida?
    Dr. Bodman. Senator, I cannot speak to that specific 
project, because I am not aware of it. I can tell you that 
public/private partnerships are central to the strategy of this 
Department, and certainly the CCPI is a good example of that, 
and I would expect to continue that in the years ahead. So I 
would--without commenting on the specific project, I certainly 
can tell you that, in general, it is something that I would 
look on very favorably.
    Senator Martinez. Mr. Chairman, I am through with my 
questions. I look forward to the confirmation of this nominee. 
I know that the President seems to have the great good judgment 
he exercised in the first term in appointing great people to 
the Cabinet in the second term.
    [Laughter.]
    Senator Martinez. So, anyway, I look forward to your 
confirmation.
    Dr. Bodman. Thank you, sir.
    The Chairman. Okay.
    Senator Salazar.
    Senator Salazar. Thank you, Mr. Chairman, Senator Bingaman, 
and Members of the committee. It is, again, an honor for me to 
be a Member of this committee.
    And, Mr. Bodman, I congratulate you and look forward to 
working with you.
    The Chairman. You might pull the microphone down a little.
    Senator Salazar. Can you hear me?
    The Chairman. That's good.
    Senator Salazar. First of all, let me just say, I have a 
number of questions--nine questions--and I would appreciate 
your response to those questions in writing, because I do not 
know that we'll be able to get through all those questions in 
the time that we have today.
    I want to ask you a question about renewable energy. In my 
own State of Colorado, we have seen renewable energy do a 
number of good things for our State. In the rural areas of 
Colorado, on the Eastern Plains, we have wind farms that have 
come into play in the last several years, which are doing a lot 
of good things for the communities out on the Eastern Plains.
    Is that a microphone problem?
    The Chairman. No, we are trying to figure it out, but I do 
not think it's--as long as we can be heard, maybe you can 
proceed. We understand it's nothing risky. So----
    Senator Salazar. Not a warning?
    The Chairman. No, it's not a warning. It's nothing like 
that.
    Senator Salazar. From my point of view, renewable energy is 
really important, first of all, because it helps us get rid of 
the over-dependence on foreign oil. Second, it's good for 
economic development, especially in our rural communities of 
our Nation. And, third, it's good for our environment. And my 
question to you is this. If you can speak to specifics, in 
terms of how you would move forward in embracing a renewable 
energy ethic for our country? It's easy, I think, in this area, 
to sometimes do a lot of talking about renewable energy, and 
I'd like to hear from you how we intend to walk the talk as we 
move forward with the energy policy of the country with respect 
to renewable energy. And specifically, and related to that in a 
parochial way, we have the National Renewable Energy Labs in 
Golden, Colorado, and we have a groundbreaking for the new 
Science and Technology Lab that's coming up in this next month. 
One, I would invite you to come out there and to be a part of 
what is going to be happening out there, and, two, I would also 
ask you to support, in the capital construction budget for 
2006, the continued operations of that lab and the new part of 
that lab that will be opened up, hopefully, within the next 
couple of years.
    Dr. Bodman. As to renewable energy, sir, the first part of 
the question that you asked--I have not, at this time, reviewed 
all of the different programs. There are a number of them 
within the Department. I can tell you that I remain quite 
enthused about the prospects for a number of them--wind being 
one--where, at least based on inquiries that I have made, 
preliminary ones, there seems to be the prospect of being able 
to produce energy, particularly if we can do it near a 
population center, where we are not dealing with a great length 
of transmission.
    An area that has not been as successful--as I had forecast 
some years ago is in the photovoltaic area, or solar energy. 
One would hope that, with the work that's gone on in the 
nanomaterial area, with the possibility of new devices, that we 
could see some progress there.
    So it's hard for me to be more specific than that, other 
than to tell you that, as a general matter, I tend to be rather 
hands-on, and the folks who are involved in these efforts at 
the Department would find a willing ear to listen, and, I hope, 
a good questioner, as to what our past practices have been, and 
encouragement on being more aggressive in these matters, 
because I do think we need to be successful.
    Senator Salazar. That's right.
    Dr. Bodman. I cannot comment on my schedule, as to the 
opening of the laboratory in Golden, but I will certainly do my 
best to try to be responsive to your wishes.
    Senator Salazar. Thank you.
    Let me ask you another parochial question. This relates to 
Rocky Flats, but it's actually applicable to all other States 
where we have cleanup of nuclear facilities underway. Rocky 
Flats, in Colorado, has become, I think, a role model for how 
we do cleanups around the country, and it's a project that we 
have put together on a bipartisan basis, and there's a lot of 
pride in the achievement that we have out there at Rocky Flats.
    We have, in Colorado, put together State legislation that 
allows us to put institutional controls into place so that we 
can safeguard land that is not completely cleaned up, as is the 
case in Rocky Flats, from future development. And it's a way 
which I think the states are being very effective at trying to 
address the cleanup challenges that we face at some of these 
facilities.
    We've had problems, frankly, with the Department of Energy 
and the Federal Government, in terms of recognizing our State 
law. And I do not know if you are familiar with that kind of 
detail at this point in time, but it's something that I would 
ask you to look into, and hopefully support the bipartisan 
institutional controls that we have created in the state of 
Colorado.
    Dr. Bodman. I am not familiar with it, so I cannot comment 
on it specifically, but I would be happy to look into it. And I 
would be happy to discuss the matter with you, sir, once I 
learn a little bit more about it. It sounds, on the surface, to 
be a reasonable thing to do, but I would like to have the 
chance to understand some of the details.
    Senator Salazar. Thank you, Dr. Bodman. I see I have some 
more time. One more question here, and that is, I know last 
year, with the energy bill, there was lots of debate about the 
Arctic National Wildlife Refuge--whether you drill there, 
whether you do not. It obviously is going to be a huge issue, 
probably, as this energy bill unfolds. Without thinking about a 
specific area--whether it's ANWR or the Roan Plateau in 
Colorado or other places--what kind of criteria do you envision 
using, in terms of area that you think are appropriate for 
development and areas that are not appropriate for development? 
Where would you draw the line?
    Dr. Bodman. The issues about where to develop and where not 
to develop is a function of the probability of success when one 
does seek hydrocarbon reserves. It also is a function of 
preserving the largest possible areas for environmental 
purposes, while also trying to seek out additional supplies of 
energy. It's always a matter of trying to strike a balance. I 
am a newcomer here; and so, I have spent the last 6 weeks 
reading materials. I haven't even yet visited the Energy 
building. Some tell me that that's an advantage, not to have 
been there, but I have not been there, so I cannot really 
comment on it. I would tell you that, at least based on my 
experience to date, I think you would find that I would pursue 
this in a fashion that is balanced. As we try to address the 
problems we have, we need to worry about supply, we need to 
worry about being more efficient in the use of our energy that 
we have available to us now, we have to repair the 
infrastructure, or add to the infrastructure, so we can 
deliver, particularly, electrical energy to our citizens around 
this country, and we have to seek out new and, hopefully, 
renewable ways of dealing with problems so that we will 
minimize the effects on the environment. And in all of these 
areas, I think it calls out for a balance. And I would seek out 
additional supplies of energy--materials for energy only at the 
same time that we would seek out all these other things with 
equal emphasis.
    The Chairman. Senator, thank you very much. Your time is 
expired. I know you have another, but----
    Senator Salazar. I will--I have submitted my questions, 
and----
    The Chairman. Very good.
    Senator Salazar [continuing]. Hopefully will get an answer. 
And if you have a second round, I will have some other 
questions.
    The Chairman. I would say, you did mention ANWR and the 
energy bill. I think it's fair to say that the ANWR was not an 
issue in the energy bill, but that's just a technical issue. It 
is a constant issue, but--you know, it's a filibuster item, for 
sure, so it doesn't generally--it doesn't generally go on a 
bill that you hope to pass, because it takes too long. But 
it'll come up, one way or another. I just want you to know 
that.
    I know the Senator from Alaska would prefer that I not say 
anything about that, but, Senator, we are going to do 
everything we can, and now it's your turn.
    Senator Murkowski. Thank you. As if by cue, the ANWR 
subject comes up.
    But before I jump to that, Dr. Bodman, I appreciate the 
opportunity that we had to visit a couple of weeks ago, and 
welcome to the committee here this afternoon.
    I enjoyed reading your opening statement, kind of, the way 
you had separated out, first, the focus on the science and 
technology, and then moving to the very critical importance of 
a national energy policy. And we had a chance to speak a little 
bit about the science and technology component and the 
difficulties that we have in this country in explaining or 
educating the public on our energy sources, on how energy 
benefits us. And I have said, many, many times--and I am sure 
Members of this committee have heard it--that so many here in 
this country subscribe to the immaculate-conception theory of 
energy: It just happens. The lights turn on, our house is warm 
or cold, it just happens, but there's no connection between 
extraction of that coal or that oil or that natural gas and how 
it comes to be in this building and gives us that level of 
comfort or that ability to move. And I think that that's a 
challenge for you in this new position, as the Secretary of 
Energy, is helping to educate, because it's then when we can 
really explain how we use, how we consume this incredible 
source, this source that makes us the great Nation that we are, 
and a very comfortable nation, that we can explain why--why we 
have to have this balance, why we have to have the 
conservation. So you've got a tough job ahead of you there.
    Moving to the national energy policy--and I appreciate your 
statement in the opening here, where you submit that you feel 
that this is amongst the most important matters to come before 
the Congress. I certainly agree with that, and I want to work 
with you to do everything that we can to make that happen. This 
country has been, for too many years, without a sound, balanced 
energy policy, and we want to make that a reality.
    As I look through the comments I will stand before you and 
make the case that ANWR fits neatly within those categories of 
what it is that we are looking for when we are seeking 
increased domestic production in this country--a decreased 
reliance on foreign sources of oil, an ability to provide for 
this country in a manner that can be balanced, that can be done 
in concert with the environment. With the technology that we 
are utilizing up north, we can do it right; we just need the 
permission of Congress to go there. And I want the assurance 
that you and your Department will work with us as we try to 
move forward to successfully open up ANWR to oil exploration 
and development in a responsible manner.
    Dr. Bodman. ANWR has been part of the energy policy that 
this administration has proposed, and I would expect to be an 
energetic advocate for it. I am an engineer, and I tend to 
think of things in, sort of, analogies--ANWR is about the size 
of South Carolina. The coastal region that contains the 
hydrocarbons is about the size of the State of Delaware, so it 
is a relatively modest fraction, 15 percent or so of the 
State--of the size of ANWR. And the surface area that would be 
needed, with the new drilling technologies, to pursue oil would 
be something about the size of Logan Airport, in my old home 
town, so it's very small. And I think that it can be done.
    And the other point I would make is Senator Salazar asked 
about what my criteria were for seeking--for when to drill and 
how to drill. We regulate the drilling of oil and gas wells 
more effectively than any other country in the world of which I 
am aware. And, therefore, one of the criteria would be--I would 
rather see it go on in this country, where we have the kinds of 
laws and the kinds of due process that has been well exercised 
over many years. And I think it can be done. And so, I will be 
very energetic about it.
    Senator Murkowski. Well, I appreciate that short little 
educational exercise. It is important that people understand 
what it is exactly that we are talking about when we are 
talking about ANWR and oil exploration and drilling, and the 
size and the changes in technology that have allowed us to make 
the statements that I am making today, that we can do it 
responsibly. And if we are true global environmentalists, then 
we ought to want to drill responsibly in an area where we know 
we are doing it right, where we know we have the environmental 
safeguards, where we know we have that balance, rather than 
shipping those environmental woes, if you will, overseas or in 
places where they're not taking the concern.
    I understand that my time is out. I do have some additional 
questions that I would like to ask you, about our natural-gas 
pipeline, up north. But I will extend to you an invitation to 
join us up north to look at ANWR for yourself, to come and talk 
to the residents in the one village that is in the area, and to 
have that field trip that I think will really allow you to be a 
hundred-percent advocate for an issue which, for us in Alaska, 
as the ``energy bank,'' if you will--we need some help in 
educating the rest of the country. So we look forward to 
working with you on that.
    Dr. Bodman. Thank you, Senator.
    Senator Murkowski. Thank you.
    The Chairman. Thank you very much, Senator.
    First of all, I am very glad that you're back, because, not 
only was it a pleasure working with you, but I do believe it's 
important that you represent that issue in the way that you 
can, and we look forward to that.
    Now, let's see, my records here show that the next Senator 
would be Senator Allen, followed by Senator Feinstein, followed 
by Senators Craig, Smith, and Bunning, but they are not here. 
So would you please proceed?
    Senator Allen. Thank you, Mr. Chairman, and thank you for 
having this hearing. And I hope that we'll be able to act and 
vote on Mr. Bodman's nomination so that we'll have our Energy 
Secretary in place in the midst of this cold weather, where we 
do want reliable energy production.
    So let me just say--let me incorporate, by reference, in 
the complete agreement with the insight and statement of 
Senator Alexander, as well as that of Senator Murkowski and all 
of their statements, including exploration of the North Slope 
of Alaska. I'll say the same thing--ANWR's the size of South 
Carolina; and it's half the size of Dulles Airport, where the 
actual exploration would occur.
    I do believe that, out of all the legislation that we will 
be acting upon, whether it's eliminating the death tax, 
litigation reform, whether it's medical liability, whether it's 
class action, asbestos--all very important--judges getting fair 
consideration will be important--but the one measure that will 
have the largest impact, I think, in a variety of fronts, will 
be sound energy policy for this country.
    It is important for three different reasons. No. 1, our 
security. We are far too dependent and reliant on foreign 
sources of energy. Second, it's important for jobs, and the 
jobs that'll be created, whether it's coal, whether it's 
natural gas, whether it's a variety of others. And then, third, 
it's our competitiveness. Our economy requires us as--to have 
the energy sources that are reliable, that are affordable. And, 
if you think of it, it's essential for lower diesel and 
gasoline prices for our transportation, electricity upon which 
all enterprises operate--if we do not have reliable and 
affordable electricity, however, that is generated; that's 
important--and natural gas. Natural gas, in my view, when you 
look at the permitting of power plants, so much of the base 
load is being provided by natural gas, which is like using 
bottled water to wash your dishes; it'll do the job, but it 
needs to be utilized for our chemical, plastics, fertilizer, 
paper, tire manufacturers. And if we lose those jobs in this 
country, because they're going to go to a country where they 
can get more affordable natural gas, those jobs are going to be 
lost. And it is important that we do have greater natural-gas 
production, as well.
    But when you get into all of these efforts, you have to 
develop, here in this country, more, obviously, in oil and 
natural gas. Technology is the key to the future on so many 
fronts--in clean coal technology, hybrid and fuel-cell 
propulsion is important, in my view; solar photovoltaics are 
another.
    Now, one of the things that was touched upon somewhat by 
Senator Alexander is some of the efforts that you all have in 
the Office of Science. It is a very important component of your 
Secretariat. And whether that's in the FutureGen projects or 
Clean Coal Power Initiative, I am all for those efforts to 
reduce CO<INF>2</INF> emissions. But the Office of Sciences is 
very important. About 40 percent--from my research, 40 percent 
of total funding for basic research in physical sciences is 
coming out of that department, so it's obviously important. It 
manages our ten world-class national labs, which are referred 
to, I think rightfully, as our crown jewels for our national 
research infrastructure.
    We're proud to have the Jefferson Lab, in Virginia, where 
they have the--what they say--their free-electron laser is now 
the most powerful tunable laser in the world. And you say, 
``Oh, what the heck good is that?'' Well, it helps in 
nanotechnology.
    And nanotechnology--Ron Wyden, a Democratic Senator, and I 
led the effort about a little over a year ago--the President 
signed our bill--on nanotechnology. And it's going to be 
important in microelectronics, health, and life sciences. It's 
also going to be important in materials engineering, where you 
can get lighter, stronger materials.
    Would you please share with us, Dr. Bodman, where you see 
nanotechnology, which I think is the next revolution so 
important for us, as Americans, to be in the lead--how do you 
see your Secretariat, in the Office of Science, assisting in 
the area of nanotechnology? You answered it, in passing, on the 
solar photovoltaic issue, to Senator Salazar. If you could, 
elaborate on some more specifics on nanotech, in particular.
    Dr. Bodman. Well, first, if I may say, Senator, I fully 
subscribe to your views with respect to the role of the Office 
of Science. The support of the physical sciences in our country 
has not grown. And we've seen this enormous growth of seven-, 
eight-, tenfold in the development of the life sciences. And 
the progress in the life sciences is heavily dependent on 
progress in the physical sciences. And so, it's great that it's 
happening in the life-science area, but we really need some 
attention, in terms of how we are dealing with the 
possibilities in the physical sciences. So I would, hopefully, 
be viewed as a strong voice in support of science, generally--
physical sciences, in particular--in the administration.
    With respect to nanotechnology, there are a number of 
things that will have an impact, particularly on energy. I 
mentioned, before, the possibility of photovoltaic cells, new 
kinds of batteries, which I think portend all kinds of 
possibilities. Anyplace that we are looking for the 
modification of physics and chemistry at a very molecular 
level, we are now able to start doing that. And so, these are 
very exciting times, when you go through the labs and take a 
look at it. I've not visited the Jefferson Lab, but I can 
believe that there will be all sorts of contributions to our 
way of life, to the life sciences, as well. So I would be very 
enthused about that.
    Senator Allen. I look forward to working with you, and I 
appreciate your leadership.
    Dr. Bodman. Thank you, sir.
    Senator Allen. Thank you, Mr. Chairman. My time is expired.
    The Chairman. Well, Senator, I want to say that you're 
right on, your remarks. No question, the things you've 
addressed are terrific. Very important. Everybody is talking 
about Social Security reform for the future. Well, you know, if 
we do not have an energy policy, there are not going to be 
enough jobs to keep the base funding for Social Security. So 
what--this is a little more fundamental, I think, than any of 
them.
    Having said that, I am going to now go to Senator 
Feinstein. Let me just say, Senator, it's been great working 
with you on some of the issues, even though the biggest one has 
been very parochial to California. We understand that you are 
very--one that is very desirous of exercising reciprocity. So 
we look forward to you helping us with ours.
    Senator Feinstein. Mr. Chairman, believe it or not, I did 
get that message----
    [Laughter.]
    Senator Feinstein [continuing]. Even before the new year. 
And I look forward to helping, as well.
    Dr. Bodman, welcome.
    Dr. Bodman. Thank you.
    Senator Feinstein. As you may know, I am a Californian. 
And, as you know, we've had some rough experiences with respect 
to energy--electricity, natural gas--some of which was due to a 
broken bill, in 1996; but the great bulk of it was really due 
to fraud and manipulation on the part of a number of companies. 
I do not really want to go into that now, but I just want to 
say that this could be a rough year, coming up, for California. 
Our Governor has tried to move production plants along, but, 
nonetheless, it's a complicated process, and the financial 
world has been such that it's been difficult for companies to 
get their long-term financing.
    I would just like to ask that you keep an eye out. The 
Federal Energy Regulatory Commission, in my view, has not been 
strong in giving the kind of Federal protections for just rates 
of power. And, you know, as Enron and Mirant and El Paso and 
Dynegy and all of these companies have been fined for 
withholding power, this next year could be a difficult year. 
And I'd just like to ask if you would keep an eye out.
    Dr. Bodman. You certainly have that commitment, Senator.
    Senator Feinstein. Thank you very much.
    Now I wanted to ask you, specifically on nuclear issues--
these are not peaceful nuclear issues; this is the reopening of 
the door to new nuclear weapons specifically through a robust 
nuclear earth penetrator, tactical battlefield, low-yield--less 
than five kilotons--nuclear weapons, known as the Advanced 
Concepts Program, a modern pit facility that could produce 
plutonium pits at cold war rates, and enhanced test readiness. 
Last year, thanks to Chairman Hobson, in the House, on the 
Energy Appropriations Committee, and with some of us trying to 
help, we were able to prevent the funding of these programs.
    My question to you is, Do you plan to request funding for 
the programs I have just enumerated, in the 2006 budget?
    Dr. Bodman. Senator, I cannot speak to the 2006 budget. I 
said this before you arrived, I have not looked at the 2006 
budget for Energy. And as I also mentioned, I can tell you a 
lot about the Treasury Budget, because that's where I live. But 
I cannot really comment on what's in there, in terms of the 
Energy budget, so I cannot speak to it.
    Senator Feinstein. I guess the thing I would like to say to 
you is, I hope we can have a private discussion on the subject, 
because we've done a lot of study into the radioactivity of a 
nuclear bunker-buster, of the inability to have the shell 
casing strong enough to drive a device a thousand feet into the 
ground to prevent the spewing of radiation. An eminent 
physicist, for example, Dr. Sidney Drell, at Stanford 
University, has said, there is no casing known to man that can 
sustain driving a missile a thousand feet underground; 
therefore, you would have a spewing of radiation.
    There are many of us that believe, very passionately, that 
we should not--should not--reopen the nuclear door, that we 
have the most sophisticated conventional technology, and should 
not begin the production of new nuclear weapons, because all we 
do is spur other countries on to do the same thing. And I think 
this is a very strong underlay, sufficient enough last year to 
remove the funding. So I would very much appreciate an 
opportunity to talk with you sometime in depth about this, 
technically about it. And hopefully you will keep an open mind.
    Dr. Bodman. Senator, I would say two things. One, I would 
have to learn more about it before I would even endeavor to 
come and talk to you about it, which I will do at an early 
date. And you certainly have a commitment on my part that I'd 
be happy to visit with you about it. And your passion for this 
subject is well known.
    Senator Feinstein. Well, thank you very much.
    Dr. Bodman. And I understand it, and I will certainly do my 
best to try to understand what has been proposed and come talk 
to you about it.
    Senator Feinstein. Thank you very much.
    Dr. Bodman. You're very welcome.
    Senator Feinstein. I appreciate that.
    Dr. Bodman. Thank you.
    Senator Feinstein. Thanks, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Now, let's see, Senator Craig, you are next. And we'll go a 
second round as soon as he's finished, if anybody has any.
    Senator Craig.
    Senator Craig. Welcome to the committee, Dr. Bodman.
    Dr. Bodman. Thank you, sir.
    Senator Craig. Let me, first of all, thank you for another 
life you lived. And it was pre-Treasury. It was Commerce. 
Because of your effort at Commerce to begin to shape the 
scientific community to study climate change, myself and 
Senator Craig Thomas and Chairman Joe Barton, from the House 
Commerce Committee, were in Buenos Aires recently, for COP-10. 
And your effort, and the money we are putting with it, has 
given this country substantially greater credibility on the 
issue of climate change and the science that we are all 
struggling to understand and to get to, to make sound public 
policy.
    And I must tell you that we, with great pride, stood before 
a variety of nations--in fact, we had numerous bilaterals--and 
that pride is a product of having--of being able to say that we 
are investing now, as a country, three times more than all the 
rest of the world combined, in the issue of climate change, in 
both science and technology. And, clearly, the science side was 
driven by the initiative that you launched while at the 
Department of Commerce.
    I must also say that we, with great pride, said, ``And when 
we complete this, we will share it with the rest of the 
world.'' And we will be a cleaner world, not because we fell in 
political lockstep with Kyoto, but because we went well beyond 
it to drive the science and technology, to keep the lights of 
the world on, and to clean up our environment while doing so. 
In fact, it was at this conference that the environmental 
minister from Italy privately opined that, probably in 2012, 
they would have to back away from Kyoto, because they cannot 
afford to shut their economy off unless new technology comes 
along to meet the standards and the criteria of the 1990 levels 
of gas.
    So, again, thank you for that initiative.
    Dr. Bodman. Thank you, sir.
    Senator Craig. And not only now are you in even a greater 
position to pursue it, along with us, as we deal with these 
critical issues of clean coal technology and a variety of 
others--and it leads me to the two questions I have to ask you.
    Clearly, the world now recognizes that they cannot shut the 
lights off in any nation, especially third-world nations, in 
anticipation of meeting certain environmental goals. And, as a 
result of that, whether it is here in this country, whether 
it's the initiative of this committee or our President, in you, 
or whether it's the world at large, clearly the recognition of 
building, not only national, but world base-loads of energy in 
the decades ahead on existing technologies and new technology 
in many ways falls at the feet of a nuclear industry, or the 
rebirth of an industry of that character, and we are working 
very hard on that, as you will be in your new position.
    Do you think full-scale technology demonstrations of the 
type that is embodied in generation-four nuclear reactors, or 
what we call mixed generation nuclear plants, are important to 
advance the nuclear industry and nuclear energy?
    Dr. Bodman. Yes, sir.
    Senator Craig. How do you see such demonstrations fitting 
into the overall nuclear energy program?
    Dr. Bodman. Well, there are a number of programs as--again, 
I have not been there, and not been doing it. And so, what 
you're going to get from me is an overview based on what I have 
learned from reading. But there are a number of initiatives 
that I believe make sense. I think the next-generation nuclear 
plant, the NGNP, which is a very high-temperature demonstration 
plant that is, at this point in time, estimated to be some--of 
the order of $2 billion to get it built, I believe is something 
that, on the surface, makes sense. I have not looked at the 
work and talked to the people who are doing the technical work 
on it, which I would intend to do.
    There are other initiatives that also make sense--the so-
called 2010 Program, a nuclear program. We have built, in our 
country, a belief that nuclear plants cannot be built, and 
there's a fear of nuclear energy. The chairman has written 
about it in his book, and with great eloquence. And there is a 
concern about all this. And it--therefore, in order to, kind 
of, jump start the licensing program, to jump start the siting 
program--that's what this 2010 initiative is all about--and two 
grants, I believe, have already been made, one to Dominion and 
the other to so-called New Start--so I am enthused about both 
of those.
    But before any of that happens, we are going to have to get 
real progress on Yucca and we've spoken to that already. And we 
are going to have to overcome the legal and regulatory barriers 
that are before us in order to move that forward, and I am 
committed to do my best to try to do that.
    Senator Craig. Well, my next question was going to be about 
Yucca. You've answered that. Let me move to the next.
    An economic study released by the University of Chicago 
last year found that new nuclear plants could be extremely cost 
competitive with other sources of energy, and they spoke of 
breaking through that threshold. And you've already alluded to 
a variety of the steps necessary. What other steps do you 
believe should be taken by government in the overall remaining 
impediments that would effectively deploy additional nuclear 
plants?
    Dr. Bodman. I would be interested in looking at that 
Chicago study and see what they're comparing it to. Because the 
generation of energy we are in--by fossil fuel has suddenly 
gotten to be a much more expensive undertaking than it was even 
a short time ago.
    Senator Craig. You're right, that study was done probably 
at $4 gas, not $6 gas.
    Dr. Bodman. Exactly. And so, therefore----
    Senator Craig. And so, that did change the dynamics again.
    Dr. Bodman. And so, I think the things that can be done 
would be to update the competitive fuel prices so that we can 
get a better fix on just exactly what the competitive 
environment is. And then we can move along on the science and 
global climate change. There are a wide variety of views on 
just what global climate initiatives should be taken. But if 
there are any, as we complete the work on the science, they're 
not going to be cost-free. And so, the more progress we can 
make in understanding the science of the impact of carbon 
dioxide, if any, on global warming will be an important matter, 
I would think, in looking at nuclear fuel.
    Senator Craig. Thank you much. My last question, Mr. 
Chairman.
    Our new colleague from Colorado responsibly alluded to the 
effective cleanup of Yucca--or of Rocky Flats, of that being a 
prototype. And I do not disagree with that. I will say that 
when you clean up one place, you have some--you need someplace 
to go with that which you take from it. And in the case of 
Rocky Flat, Idaho was a repository of the materials that came 
from Colorado. So while Rocky Flat looks very good at this 
moment--and it should; it was well done--Idaho is a repository 
of your waste, Senator.
    Now, having said that----
    The Chairman. We're the repository for yours.
    [Laughter.]
    Senator Craig. We do not mind it. We do not mind it. We're 
processing it, responsibly and cleanly, so we can send it to 
the chairman.
    [Laughter.]
    Senator Craig. In other words, let us be honest about how 
we deal with the reality of our nuclear legacy and responsible 
cleanup. You've alluded, of course, to Yucca Mountain. There's 
a problem with Yucca Mountain. And if you take away all of the 
politics and you effectively open it within a reasonable 
timeframe, it's already full. And so, we really need to get out 
in front our headlights again, and think beyond that as we talk 
about a new growing potential for nuclear generation, and, 
therefore, a waste stream that falls from it.
    So while all are important, what now is important to me is 
your commitment that you will acquaint yourself with the 
agreements that have been made between the Department you are 
now inheriting and my state of Idaho as it relates to our 
cleanup and that responsibility.
    Dr. Bodman. Yes, sir, I'll certainly do that. I have been 
made aware of some of your concerns. I think these are called 
Batt Agreements, I believe, sir, meaning that the government--
--
    Senator Craig. It is better known as the Batt Agreement, 
yes.
    Dr. Bodman. The Batt Agreement. And I am aware of your 
views, and I will certainly learn. I'll make it my business to 
learn far more about it than I do now. And I'll be happy to 
talk to you about it.
    Senator Craig. And the date in which you will visit the 
facility to learn more?
    [Laughter.]
    Dr. Bodman. I would, respectfully, defer an answer to that, 
sir.
    The Chairman. He's got about six ahead of that.
    Senator Craig. Oh, well, shucks.
    [Laughter.]
    Senator Craig. Dr. Bodman, congratulations, once again, on 
your nomination.
    Dr. Bodman. Thank you, sir.
    Senator Craig. And we look forward to getting you confirmed 
rapidly, and getting you in position, and working with you on 
what we believe to be the final hours of the development of, 
and the voting on, and the signing of, by our President, a 
national energy policy for our country. Because all of my 
colleagues on this committee certainly know of its importance, 
and--as you do--if we can sustain ourselves long into the 
future with a competitive energy base, and I think you are now 
at the threshold of playing a very key role, not only in the 
final hours of that, but the implementation of it over the next 
4 years.
    Thank you.
    Dr. Bodman. Senator, thank you. I look forward to working 
with you and your colleague. Thank you.
    The Chairman. Let's see, we have a new Senator, that's just 
joined us, from North Carolina. Where did you come from without 
a coat?
    [Laughter.]
    Senator Burr. Mr. Chairman, I've got that coat behind me. 
And after a 2-hour trip in from Georgetown, at a lunch, in this 
snowy thing, let me apologize to you and to the committee----
    The Chairman. You needed to come in here to get refreshed, 
take off your coat.
    Senator Burr. I would ask, Mr. Chairman, unanimous consent 
that my opening statement be made a part of the record.
    The Chairman. It's going to be done.
    [The prepared statement of Senator Burr follows:]
         Prepared Statement of Hon. Richard Burr, U.S. Senator 
                          From North Carolina
    Thank you Mr. Chairman. It is a pleasure to be here today and I 
look forward to working with you, Senator Bingaman and our other 
colleagues on the Committee.
    Deputy Secretary Bodman, thank you for being here today and your 
willingness to accept the President's call to be nominated for this 
office. It is clearly not the most glamorous Cabinet level job and more 
often than not, only gains the spotlight when something has gone wrong 
rather than gone right. Your soon-to-be predecessor, Secretary Abraham, 
can attest to this, given the scant media attention paid to his 
accomplishments in curbing nuclear proliferation across the globe.
    As a member of the House, I worked closely with this Administration 
and the previous one on formulating a comprehensive national energy 
policy. DOE, for the most part, has achieved its goals for implementing 
this policy, but it is now time for this Congress to take its 
responsibility seriously and finally pass comprehensive legislation. It 
will take the prodding and influence of DOE to help move this 
legislation along and I feel confident after having met with Mr. Bodman 
that this is a very real possibility.
    Although the sense of urgency might have waned, the need for a long 
term energy policy is still just as imperative as it was at the 
beginning of the 21st century. The need itself is simple: We are 
experiencing a fundamental imbalance between energy supply and consumer 
demand. If we continue energy production and consumption at a rate 
equal to the one set in the 1990s, by 2020 we will be experiencing a 
shortfall of supply and demand of nearly 50%. This shortfall can only 
be made up in three ways: import more energy; improve energy efficiency 
even more than expected; and increase domestic energy supplies.
    A diversified energy policy, like the one that passed both Houses 
of Congress but died in Conference last Session, will have far reaching 
effects on my state as well. An extension of the wind energy production 
tax credit will breathe new life into wind farm projects. Appalachian 
State University has identified areas in western North Carolina that 
might be the most suitable locations in the Southeast for developing 
wind farms. A production tax credit for energy generated from animal 
waste opens new opportunities for energy production, innovative and 
useful methods of waste disposal and increased farm income for North 
Carolina hog and poultry farmers.
    Our soybean farmers will also benefit from programs that encourage 
the production of biodiesel fuels from soybean oil. Corn, sweet potato 
and even tobacco farmers will benefit from the ethanol provisions in 
this bill, as demand for products that can be converted into ethanol-
blended fuels will increase.
    A comprehensive energy policy will go a long way to retain jobs in 
our country as well as create new jobs throughout the country. By 
allowing the Southeast, which enjoys cheap and reliable power, to 
develop our electric marketplaces as we see fit, we will see jobs 
retained in North Carolina and throughout the South. Knowing that the 
cost of electricity is one of the highest overhead costs manufacturers 
and factories assume, keeping costs low and reliability high will lead 
to the return of more manufacturing jobs to our region of the country.
    I look forward to hearing Mr. Bodman's vision on what areas of the 
domestic energy policy must be addressed by this Congress in order for 
our country to have a comprehensive, diversified long-term energy 
policy that will meet the needs of a 21st century economy.
    I will also be interested to hear our witness's views on how best 
to get the Yucca Mountain repository project back on track. It is 
becoming evident that in one way or another, our country will be 
entertaining the idea of international global climate change agreements 
in the foreseeable future. I am of the opinion that in order for us to 
negotiate any agreements, we must have a viable and robust nuclear 
generation sector. Nuclear power has allowed us to avoid more than 2 
billion tons in carbon emissions since the 1970's. In 1999, nuclear 
power plants provided about half of the total carbon reductions 
achieved by U.S. industry under the federal voluntary reporting program 
Without this component of electric generation, our manufacturing 
industry and other energy-intensive businesses will be at a stark 
disadvantage to businesses in countries that might not have the 
stringent emissions reduction levels we can expect here in the United 
States.
    We cannot, however, promote this nuclear generation option without 
first addressing the future of the permanent disposal of nuclear waste. 
I look forward to hearing Mr. Bodman's plans for getting the Yucca 
Mountain project back on track with the goal of receiving waste in the 
coming decade.
    Finally, I look forward to hearing Mr. Bodman's opinions on the 
roles and responsibilities of Federal Energy Regulatory Commission 
(FERC) and state utility commissions that oversee our electric 
transmission systems. Over the past four years, I have grown 
increasingly concerned with some of the actions FERC has taken or 
attempted to take that would encroach or outright superseded the legal 
responsibilities of state Public Utility Commissions, especially in 
states like North Carolina that enjoy low-cost, reliable electricity.
    Again, welcome to the hearing and I look forward to working with 
you and your staff in the coming Administration.

    Senator Burr. And I would only ask the Secretary, can you 
do anything about snow removal in Washington, DC?
    [Laughter.]
    Dr. Bodman. I live here, sir, and I've been struggling with 
that myself.
    Senator Burr. Mr. Chairman, I certainly hope our colleagues 
will support the President's nominee, here. I cannot think of 
anybody more intelligent to be placed over at the Department of 
Energy, a very challenging agency as we talk about a very 
complex set of issues. And certainly I look forward working 
with you, not only on the nuclear issues that I am sure my 
colleagues have worn out today, but the issue of reliability in 
our transmission grid in the coming years. And I certainly 
welcome you here today.
    Dr. Bodman. Thank you, sir.
    Senator Burr. Thank you, Mr. Chairman.
    Dr. Bodman. Appreciate it, sir.
    The Chairman. Senator, I just wanted to repeat what I've 
told you privately, we are very pleased to have you. We do not 
have a monopoly, on this committee, from the West. You are very 
informed on the subjects, and--that we deal with--and we really 
welcome the input from another region on many of the issues; in 
particular, electricity.
    Senator Burr. Thank you, Mr. Chairman.
    The Chairman. You all, your State and surrounding ones, 
have been very big leaders in their part of the electric grid, 
and we want to make sure we work together on that.
    Senator Burr. Thank you very much.
    The Chairman. And we thank you very much. And, besides, the 
people here should know, you're very experienced, based upon 
your House work, so--you'll find us a little different, in that 
we take a lot longer to get things done.
    Senator Burr. I've noticed that.
    [Laughter.]
    The Chairman. And we do not attest to it, saying that it's 
that much better because we spend that much longer on it. We 
just say, ``Our rules do not let us do it any quicker.''
    Senator Burr. Well, seeing Mr. Salazar in the chair next to 
you, I see how quickly change comes on the other side of the 
aisle, that he's now the Ranking Member on the committee.
    The Chairman. On the full committee.
    Okay. Now, Senator Wyden has just arrived, and he's a 
veteran. And even though we are--we should probably go on and 
let him go last, when we've all had our seconds, we won't do 
that; we'll call on you, right now.
    Senator Wyden. Well, Mr. Chairman, thank you. And you are 
always so thoughtful. And I am just glad you're beginning the 
new year in good health.
    The Chairman. Thank you very much.
    Senator Wyden. And we look forward to working very closely 
with you.
    I think the nominee knows that I am going to ask this 
question, but, in our part of the world, of course, we feel 
very strongly about the concept of privatizing Bonneville 
Power. And I want to ask you, as I did with our former 
colleague and friend, Spencer Abraham, that question, right out 
of the box. Privatization would just be poison for our part of 
the world, and it would mean a whole lot to me, Dr. Bodman, if 
you would just take that off the table this afternoon as any 
kind of concept that the administration is looking at, as it 
relates to Bonneville.
    Dr. Bodman. As I mentioned to you in my visit to your 
office, Senator, I am personally opposed to the privatization 
of Bonneville. And to the best of my knowledge, that's also the 
position of this administration.
    Senator Wyden. All right. I hope that you'll be sure if 
there's any change in that, in any way, shape, or form, that 
we'll be advised about that, because what happens is, 
individuals in your shoes come before us, and then there is 
pressure from other parts of the country, and, all of a sudden, 
it's back on the table. You have taken it off the table this 
afternoon. We appreciate that. That is good news for our 
region's economy. And certainly we want to be on ready alert if 
anyone tries to take it in a different course.
    The second area I want to talk to you about is what we 
talked about also in the office, and that is, What can be done 
to make energy policy more bipartisan? I mean, I am of the view 
that we desperately need a fresh approach in this field. I 
think the country is hungry for it. I think, for example, we 
could make our Nation the green-energy capital of the world, 
because there is that kind of bipartisan support in the 
Congress for it. But it seems like we are just continually 
fighting yesterday's battle. We're going to have the same fight 
about ANWR, we are going to have the same fight about CAFE 
standards, we are going to have the same battles that we have 
had again and again.
    And I think I mentioned to you, for example, Congressman 
Cox and I have what we think is a breakthrough approach on 
hydrogen vehicles that has been backed by both the automobile 
industry and by the environmental community. And that's the 
kind of approach that we'd like to pursue with you.
    So your thoughts on what could be done to make sure that 
this effort is tackled in a more bipartisan way would be 
helpful.
    Dr. Bodman. Senator, I can tell you, I have just--I guess, 
in my own way, just conducted my own poll of the Members of the 
committee. I've seen not quite every one of you, but almost 
every one during the last 6 weeks, and I can tell you that 
there is, without exception, a great enthusiasm about having an 
integrated energy policy bill taken up by Congress, so that 
there seems to be a lot of enthusiasm among your fellow Members 
of the committee. I would be very eager to work with you, and 
work with other Members of the committee, on success there.
    I believe that it's fair to say--I think I discussed with 
you, when I was there--that this administration, I think, at 
least in my judgment, should get pretty good marks for having 
proposed a pretty balanced portfolio, whether it's developing 
supply, on the one hand, greater efficiency, on the other hand, 
new technology, whether it's in the nuclear area or coal, 
hydrogen, a whole range of proposals that I'd describe as 
balanced. And I think, if I may say, that that strikes me as 
one approach to the problem. And I would hope we could continue 
to talk with one another, and that we could continue to make 
progress there.
    I did, sir, take the opportunity, following our meeting, to 
read your bill and to do a little homework on it. And it 
strikes me that there are a lot of good ideas in that bill and 
that as I asked around about it among those in the Department 
that have been working on it, the one objection that I heard 
was that of timing, that the concern was that the development 
of technology for hydrogen vehicles was lagging that which we 
had all hoped that it would be, and that putting a lot of 
incentives out to create supply of hydrogen, without having the 
technology to go with it, was a question. And I thought that 
was a fair question to ask.
    And so, I would hope that, if we get through this program, 
and if I am confirmed, I'd be very happy to sit down and talk 
with you to see if there are areas where we have common ground.
    Senator Wyden. I appreciate your thoughts on this. The 
point is, of course, that this is a marketplace approach. And 
so, if the marketplace doesn't find the incentives attractive, 
then you're not going to spend any money. That's the whole 
point of the exercise.
    Dr. Bodman. I understand, sir.
    Senator Wyden. And I really hope that we can be bolder. I 
know Senator Sununu, for example, asked the Department of 
Energy's Energy Information Administration (EIA), in effect, to 
do a report on last year's energy bill, and EIA said it would 
not do much in the area of promoting conservation. Now, this 
isn't a bunch of Democrats; this is the administration's own 
Energy Information Office--said that the bill would not do much 
in terms of promoting conservation. So that's why I'd like to 
see if we could work, in a bipartisan way, to be bolder.
    One last point, and the chairman's been very gracious, and 
I appreciate the time. As you know, in our part of the world 
people feel passionately about the question of cleaning up 
Hanford. And there is great concern that the administration, 
for example, may close these dangerous tanks without cleaning 
them up to a high standard that protects the health and safety 
of the region. Can you give us a commitment today that the 
Department will pursue, very vigorously, the cleanup of 
Hanford, and, in particular, that the Department will clean up 
the Hanford tanks so as to leave no more than 1 percent of the 
waste that remains in the tanks? That was what we had been 
pledged earlier, and there's concern that that commitment may 
be wavering a bit.
    Dr. Bodman. I think, as I understand it, sir, that there is 
a so-called TriParty Agreement among the Department of Energy, 
the EPA, and the State of Washington, in which that 99 percent 
number is included. And I think it's very important that the 
Department honor its commitments, and I would plan to see to it 
that we honor it.
    Senator Wyden. All right.
    Mr. Chairman, I'd also like to just state, for the record, 
that I intend to vote for the nominee. I think that he's 
indicated a responsiveness and a willingness to look at these 
issues in a creative kind of way, and I will be supporting him.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much. I am glad to hear 
that. We're going to have that meeting to vote on him, on 
Wednesday----
    Senator Wyden. Very good.
    The Chairman [continuing]. But I'll make that announcement 
shortly.
    I understand, Senator Murkowski, you have one question. And 
might I ask, Senator Salazar, do you have another one, or are 
we finished?
    Senator Salazar. Sixty second statement.
    The Chairman. Sure, of course.
    Senator.
    Senator Murkowski. Thank you, Mr. Chairman.
    When I left off, I promised I would come back and just 
touch on the subject of the natural-gas pipeline. And I want to 
thank you, Mr. Chairman, as you're walking out. We are having 
hearings this coming Monday, the 24th, on natural-gas supply, 
an opportunity, too, to look at, perhaps, more creative ways 
that we can meet the ever-increasing demand for natural gas in 
this country. Senator Alexander and Senator Allen, to my right 
here, earlier were talking about the impact in their States to 
manufacturing, to businesses, as we see that pinch, that 
squeeze, on the supplies of natural gas. We know that we need 
to figure out the way that we can bring more natural gas into 
this country.
    I referred earlier to Alaska being that energy bank for 
oil. We can do the same for natural gas. But we are a long ways 
away from the rest of the country here. And we are making great 
progress with movement toward a natural-gas pipeline that will 
bring our natural gas down from the North Slope, possibly 
through Canada, and into the Midwest, to meet the needs here.
    This is a tremendous project. We're talking about a 3,500-
mile pipe. We were successful, in the last Congress, in getting 
some fiscal incentives necessary, from the Federal level. 
That's going to help a great deal. The state is in the process 
now of taking applications from interested parties as to how we 
move forward.
    There's still much that needs to be done at the State 
level, but this is a complex, incredible engineering project. 
It will be the largest project--construction project of its 
kind. We'll require crossing from the U.S. side in Alaska, into 
Canada, and coming out the other end. We will need help from 
the Department, we will need help from the administration in 
working through the complexities of this.
    We've had an opportunity to have the commissioners of the 
FERC, the Federal Energy Regulatory Commission, up north for a 
hearing to meet with interested parties about issues like open 
season and access and how we make this incredible project work.
    But I do anticipate that the role and the assistance that 
we will be seeking from your Department and--should you be 
confirmed, which I certainly anticipate that you will be, and 
in a very comfortable way--that we can count on your support, 
as we move forward, to making this project in--a reality in the 
short term.
    Dr. Bodman. You certainly have my support, Senator, for two 
reasons. One, I believe that it's important that it be done, 
for all the reasons that I mentioned before. This is one of the 
components of the balance that I believe has been in the 
program. And, second, as I understand it, if I am confirmed I 
will have some responsibility, specifically, for the 
undertakings of this bill. And so, for both personal reasons 
and those that have been legislated, you will have my support.
    Senator Murkowski. Good. Well, I appreciate that. I think 
we are going to be able to spend a lot of time with one 
another, and that can, hopefully, be a good thing for both of 
us.
    Dr. Bodman. I hope so.
    Senator Murkowski. I just want to comment, very briefly, on 
the statement that came from Senator Wyden, since I still have 
a couple of minutes remaining here. He asked, What can we do to 
make an energy policy less partisan? And that's something that 
I think we, in this committee, struggled with as we were trying 
to advance a good, well-rounded, balanced energy policy in this 
last session.
    And it goes back to the--kind of, the quandary that we deal 
with when we talk about energy. It's not like Republicans 
consume differently than Democrats. Maybe some of the vehicles 
are a little bit different, but, at the end of the day, there 
really isn't that much difference when you're talking about 
Republicans versus Democrats and how we use our energy.
    And, again, I think this takes us back to educating 
Americans about our energy use--where it comes from, why it is 
that we need it, and what we can do to ensure that we have 
these comforts that we all like, regardless of political 
persuasion, and figure out how we make that happen.
    We do need to work on the conservation, we do need to work 
on renewables. I guess I, kind of, get branded, because I come 
from a State that's rich in these fossilized fuels, that that's 
all we think about. We have an opportunity, in Alaska, to do 
some incredible, remarkable things with renewables, whether 
it's wind or geothermal or, believe it or not, solar. We've got 
24-hour daylight during the summertime. We have opportunities 
in these areas, and we want to be on the receiving end of some 
of this research and technology that I know you're going to be 
focusing on.
    But it really causes you to think, Why do we have to be so 
political about a comprehensive energy policy, when it's really 
in all Americans' best interests, regardless of political 
persuasion.
    So we'll keep working on it, Mr. Chairman. And I, 
personally, want to thank you for all the efforts that you have 
made and I know you will continue to make. Thank you for the 
extra time.
    The Chairman. We have to do better.
    Senator Murkowski. We will.
    The Chairman. Senator Salazar.
    Senator Salazar. Thank you, Mr. Chairman.
    I just want to make a comment to you and to Senator 
Bingaman. For me, sitting on this committee with you and with 
Senator Bingaman is a great source of pride, because my family 
settled your capital city of Santa Fe, New Mexico, almost 407 
years ago. And for the last 150 years, my family has farmed the 
same farm, 110 miles north of Santa Fe, New Mexico. And to come 
back to the circle where I now get to sit on the committee of 
the two Senators from the Land of Enchantment is something 
that, for me, is a great moment of personal pride. So thank you 
very much.
    The Chairman. Thank you very much, Senator. It's mutual. 
We're delighted. And we do not know each other, but I think 
what I see and hear--and I hope it's mutual--there should be no 
reason why we cannot do a lot of things together. And I think 
that if Senator Bingaman was here, he would say the same. Not 
that there are three New Mexico Senators. Clearly, you are 
Coloradan.
    [Laughter.]
    The Chairman. In fact, I do not want to make that mistake. 
Somebody ran against me once, and had some friends of his make 
a statement, ``If you elect Domenici's opponent, Texas will 
have three Senators.''
    [Laughter.]
    The Chairman. And do you know what? That appeared at every 
house in New Mexico, ``Domenici's opponent's going to be the 
Senator from Texas.'' You know what? He lost.
    Senator Salazar. He lost to--someone reminded me, Mr. 
Chairman, that, in front of the word ``Senator'' there's the 
words ``United States''. So I think we'll work together.
    The Chairman. Let me do a couple of things.
    First, just for the record, to emphasize what Senator 
Bingaman said, and what you said in your opening remarks about 
science, somehow or another, Mr. Bodman--Dr. Bodman, we are not 
able to have either the Congress, the executive branch, or the 
country understand what a huge investment in science and 
research your Department is. I mean, we just had somebody bring 
up the budget numbers so we could just state it--3.6 billion is 
the estimate of what's spent on science and science research by 
the Department of Energy in this country. You know, it could 
really be the Department of Science, but then, if we tried to 
do that, all those that have science would get very mad around 
here, and we'd have to call it something else. So we are going 
to keep it there.
    That's important for you to know, but it's also important 
for you to know that we very much would like to find innovative 
ways to put that effort to work for the real basic problems, as 
discussed here by both Senator Alexander and Senator Bingaman, 
about America's future in the natural sciences.
    You already know. We do not lack an investment in human 
science. You know, we have doubled, and more, National 
Institutes of Health and their internal and external funding in 
a period of 8 years. Nothing like that has occurred anywhere 
else on all the rest of the sciences, combined. So, clearly, 
one's deficient. But it's also deficient because others are 
doing a lot more. You want to--if you want to know of one, 
Senator Bingaman just came back from one: India. He's going to 
do something--already, something incredibly--to make them 
incredibly competitive, that--we are just sitting by and 
looking, aghast, at what they're doing. So we'd like that to be 
known.
    Second, the NNSA, we spoke of it, the National Nuclear 
Security Administration. I want to tell you that I've got a 
general letter for you that I will also share with Senator 
Bingaman, on my thoughts. And I'll give it to you today. But I 
really believe you must do what's in the statute, or you should 
recommend that we do--get rid of it. I mean, we worked too hard 
to set this up to have it only partially implemented. And if 
you really think it won't work, and you would rather run it all 
yourself out of the Secretary's office, let us know. We'll give 
consideration to it. But I think, so long as it's on the books, 
you ought to implement it. You know that.
    Dr. Bodman. If it's on the books, sir, I will implement it. 
And I will and I will do it, because, based on the work that I 
have done heretofore, it seems to me that it can be made to 
work just fine. And so, I will endeavor to do that.
    The Chairman. Well, essentially, the work on nuclear-
defense activities is not the same as the myriad of other 
activities. And so, it might have to have different rules. And, 
essentially, that's the premise. Should it have the same rules 
that all the rest of the Department does, with reference to the 
administrative functions, the regulations, the environmental 
considerations, or should it have its own set? And we concluded 
it should have its own set, run by a deputy secretary or a 
director of this entity. That's what it's all about.
    My last observation has to do with the Energy Information's 
current studies on--there's a wonderful package of them that we 
would hope you would get. In fact, we will specifically call 
them to your attention and give them to you, and you'll--
they're there. It's our agency that did it. It sets forth the 
next 25 years and what our needs, and what the source of 
fulfilling the needs, are. And I think when you finish looking 
at it, you will be astounded, because that says, if you're 
going to meet the needs in 25 years--27 years, there will be a 
void of huge, huge, quads of energy for electricity that you 
currently do not know how to fill. So they assume it would be 
filled by natural gas, except they assume that natural gas will 
be imported. So they assume it will be filled by LNG. And 
that's a wonderful product. The problem is, it's all from 
overseas. So we get rid of one dependence, create another one. 
But we only have a little--a few ways to import it into the 
country. We would have to increase, by 13-fold, the means of 
importing LNG, total facilities, to bring it in. We haven't 
been able to do a second one in years.
    We cannot sit around and say, ``We do not know how to do 
this. Where are we going to get it?'' Because the second answer 
is, you're just going to multiple coal-burning power plants. 
And we ought to do coal, but we cannot just turn on that spigot 
without doing something better about the environment, either 
through its improvement or something. Now, nuclear is part of 
it, but not for the next 10 or 12, 14 years.
    But I think that kind of basic thing is your problem. It's 
no longer, ``Well, I am not the Secretary for that.'' You are. 
And you have to be telling us how to fix that. That's big, big 
stuff for our people. How do we, just in a general way, do 
that? We're not dumb. We know what we need. Right? When you 
read that, you'll know what we need.
    In fact, I will close by telling you, if you want to figure 
out whether a country has any substantial material wealth, just 
look at two things. Look at how much electricity they have, and 
how much clean water they have, and you'll determine whether 
they have very much on their plate. Because if they do not have 
electricity and they do not have clean water, they're in pretty 
bad shape. That's the truth in the world, and we surely have a 
part in trying to help fix that.
    With that, an announcement. We're going to have a--going to 
schedule a meeting for Wednesday. You do not have to be here. 
That's a business meeting to consider the nomination on the 
favorability of a report on your nomination. For the record, to 
facilitate that process, any additional questions by the 
Senators should be submitted by the close of business today. 
And, Doctor, we would like you to respond by noon on Tuesday. 
You'll want to share in the inauguration festivities, but some 
of that time over the weekend you will share your time in 
answering the questions that we give you, if you want to get 
them in on time and if you want to be confirmed.
    Dr. Bodman. I am happy to do it, Senator.
    The Chairman. With that, we are in recess.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                              Department of Energy,
     Office of Congressional and Intergovernmental Affairs,
                                  Washington, DC, January 25, 2005.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici: I am enclosing answers to the questions 
that were submitted to Department of Energy Secretary-Designate Samuel 
W. Bodman by Members of the Senate Committee on Energy and Natural 
Resources.
    He would be pleased to answer any further questions that you might 
have.
            Sincerely,
                                             Jill L. Sigal,
                                        Acting Assistant Secretary.
[Enclosure.]
                     Questions From Senator Thomas
    Question 1. Our nation needs a comprehensive, progressive energy 
policy to achieve energy independence. We fell two votes shy of passing 
such a policy in 2003.
    Your predecessor, Secretary Abraham, and his staff played a very 
active role and traveled up to the Hill many times to meet with us 
during negotiations of the first energy bill. However, during 
subsequent endeavors, he did not play such an active role. I felt his 
leadership and involvement was pivotal. Do you see yourself and your 
staff playing an active role?
    Answer. If confirmed, my staff and I will be an aggressive advocate 
for comprehensive energy legislation.
    Question 2. Research and development, and investment in our 
existing infrastructure, are critical to a successful policy that 
achieves energy independence. But R&D and infrastructure investment are 
extremely expensive. How will we pay for these initiatives when the 
federal government is facing significant deficits for the foreseeable 
future?
    Answer. I agree that R&D and investment in our infrastructure, as 
well as investment in future upgrades to the nation's transmission 
grid, is important. However, I have not had the opportunity to review 
specific research and development proposals or all of the various 
mechanisms for directly or indirectly encouraging investment in our 
energy infrastructure. If confirmed, I will review this issue and look 
forward to working with you.
    Question 3. Our nation is blessed with incredible coal reserves 
that can be used to generate our nation's power for decades. Do you 
have any thoughts on how to make better use of this abundant resource?
    Answer. We need to develop technologies that make the use of coal 
cleaner and more efficient. That is the primary purpose of the Clean 
Coal Power Initiative and FutureGen activities. The President's Clear 
Skies proposal is also a key element to the future of coal.
    Question 4. Conversion of coal to hydrogen fuel is a promising 
initiative put forward by the President to increase U.S. use of cleaner 
burning fuels. Are you familiar with the FutureGen initiative and is 
the current $1 billion commitment to the project sufficient?
    Answer. I am familiar with the FutureGen program, but have not yet 
been briefed in detail so I am not yet prepared to comment on the 
budgetary aspects of the program.
    Question 5. Much of our nation's natural resources are located 
great distances from markets. The current infrastructure is not 
designed to efficiently direct the resources to where they are needed. 
What role can the Federal government play to fix this problem?
    Answer. As I noted during the confirmation hearing, it strikes me 
that we need to develop an approach that will take into account the 
diversity of our infrastructure needs and stimulate investment in our 
electricity grid, pipeline systems, and port facilities. It is a real 
challenge, but I am very much committed to working with this Committee 
to develop an approach that would stimulate investment.
    Question 6. Unduly burdensome and oftentimes unnecessary regulatory 
and statutory provisions inhibit our ability to become energy 
independent. Eliminating these impediments while at the same time 
protecting the health of our environment will be a challenge. How can 
we achieve a balance between the competing interests?
    Answer. It is always a challenge to balance environmental 
protection and responsible energy resource development, but I believe 
we can achieve this balance through the use of new technologies. 
Through both demand-side, efficiency enhancing advancements and supply-
side, environmentally friendly exploration and production, I am 
confident we can fuel a growing economy while continuing to improve the 
environment.
    Question 7. The western U.S. is still feeling the after-effects of 
the 2000-2001 western electricity crisis. As the demand for electricity 
rises with the growing economy, I fear that the West may be in line for 
another crisis if we do not build additional infrastructure to meet the 
increased demand for electricity. In particular, we need a more robust 
transmission grid to transport power from where it is generated to 
where it is consumed. However, very little new transmission capacity 
has been added over the last decade.
    In Wyoming we are blessed with tremendous coal and wind resources 
that can be utilized to meet the electric needs of the West. However, 
because of inadequate transmission more natural gas fired plants 
located near the points of consumption, causing electric rates to rise 
and reducing our energy security--by adding to the demand for natural 
gas. What will you do as Secretary of Energy to ensure that sufficient 
transmission is built in the West?
    Answer. We need to work together to provide greater regulatory 
certainty if we expect to attract new investment in the grid. This will 
require cooperation between the Federal Energy Regulatory Commission, 
the Department of Energy, the Power Marketing Administrations, 
Congress, regulators at the state level and others. If confirmed, I 
will commit to you that I will do my part to work with all parties 
toward that end.
    Question 8. The federal government is the largest owner of 
transmission capacity in the United States. As Secretary of Energy you 
will be in charge of the federal power marketing administrations--BPA, 
WAPA, SWPA and SEPA. The Bonneville Power Administration (BPA), alone, 
owns and operates 75% of the high voltage transmission system in the 
Pacific Northwest.
    For some time now, a group of utilities in the states of Nevada, 
Oregon, Washington, Idaho, Montana, Wyoming and Utah have been working 
to develop a regional transmission organization--now known as GridWest. 
BPA is part of this group and would account for half of all the 
transmission miles making up GridWest.
    However, some of Bonneville's power customers want to retain the 
special benefits they get from the BPA system even though the 
transmission grid is becoming increasingly congested. As a result, it 
is uncertain whether GridWest will get off of the ground at all. If BPA 
doesn't join, GridWest won't be able to perform as a truly regional 
RTO.
    I am a supporter of regionally-developed RTOs because they bring 
increased certainty that leads to added investments in transmission 
capacity and a more effective and less congested transmission grid. I 
believe that a RTO in my region of the country would produce enormous 
benefits for my constituents and throughout the West.
    We cannot do this WITHOUT BPA participating and since BPA is under 
your jurisdiction, is there anything you can do that would be helpful?
    Answer. While I am not sufficiently familiar with the issue to make 
a specific commitment at this time, I will look forward to working with 
you and others to determine the appropriate approach if confirmed.
                    Questions From Senator Alexander
    Question 9. High Performance Computing at Oak Ridge National 
Laboratory: DOE's Office of Science leads the world in the design and 
operation of large-scale research facilities. In 2004, DOE, after 
conducting an independent review of proposals, announced the 
development of supercomputing capability called the Leadership Class 
Computing Facility for Science at the Center for Computational Sciences 
at ORNL. The goal was to build the fastest computer in the world for 
open science. In 2004, the President signed legislation authorizing DOE 
to pursue ``Leadership Computing in the Department of Energy.'' With 
bipartisan support, Congress appropriated additional funds in both 
FY2004 and FY2005 to fund this project.
    What are your plans to ensure continued full funding of the 
Leadership Computing Facility at the Oak Ridge National Laboratory?
    Answer. I am committed to the concept of a Leadership Class 
Computing facility at Oak Ridge National Laboratory (ORNL). The 
facility will be used to meet the missions of the Department and those 
of other agencies. I can assure you that I understand the important 
role supercomputing plays in scientific discovery. I have not yet had 
the chance to look at this facility in detail, but I will do so if I am 
confirmed.
    Question 10. Role of the Labs in Economic Development: ORNL is 
endeavoring to broaden the Lab's partnerships with industry and 
universities. One goal of this effort is a more robust ability to 
commercialize the technologies developed in the Lab, a process that in 
turn would contribute to economic development in Tennessee and 
elsewhere through the creation of new companies and jobs.
    How can we encourage DOE labs to engage with universities and 
industry as a way of promoting commercialization and contributing to 
economic development for the country?
    Answer. Commercialization success is one of the characteristics of 
an outstanding scientific enterprise. The national laboratories, 
including ORNL, have contributed substantially to the commercialization 
of technology and the economy of the United States over their 50 year 
history. We live in a time of global industrial competitiveness and it 
is important to the nation that we utilize the great resources of our 
national laboratories to enhance our competitiveness. If confirmed, I 
fully intend to make sure that the national laboratories continue to 
make these contributions and I will look for ways to enhance them.
    Question 11. (Follow-up) Would you consider alternative mechanisms 
for permitting the national laboratories to work with the private 
sector to get technologies from the laboratory to practical use?
    Answer. We would always consider alternative mechanisms for 
permitting the national laboratories to work with the private sector to 
encourage the flow of discoveries and technologies from the laboratory 
to the private sector for practical application.
    Question 12. Funding for the Office of Science: While research 
funding has increased steadily for the National Science Foundation and 
the National Institutes of Health, for more than a decade funding for 
DOE's Office of Science has remained essentially flat. The Energy 
legislation before the House and Senate last year contained language 
approved in both bodies to authorize an increase in funding for the 
Office of Science.
    The question is in two parts. Do you support increased funding for 
the Office of Science?
    Answer. As I stated in my testimony, I believe we need increased 
attention in the area of the physical sciences. I intend to take a very 
close look at this issue, if confirmed, including assessing whether or 
not we can spend our current funds more effectively and efficiently.
    Question 13. (Follow-up) And, in the event you are faced with 
budget reductions, will you ask your staff to review the potential 
impact of such reductions on research programs in the Office of Science 
before such cuts are brought to the Congress for consideration?
    Answer. Yes.
    Question 14. Improving R&D management at DOE: A number of 
organizations have issued reports recently calling for improvements in 
the way DOE manages its R&D programs and communicates across programs. 
In other federal agencies, several different approaches are used to 
manage federal R&D.
    Would you consider changing the way DOE manages R&D in portions of 
the Department to improve efficiency, technical innovation and or 
mission focus of these programs?
    Answer. Senator, I am always open to new ideas and approaches.
    Question 15. (Follow-up) Can you speak to the issue of improving 
communication and coordination within DOE between fundamental and 
applied energy research and across the various applied research 
programs such as nuclear, fossil, efficiency, and renewables?
    Answer. It is my impression that in some areas, such as hydrogen, 
the Department is well-coordinated and the various offices have 
collaborated on a unified plan, but in other areas they have not. 
Clearly, DOE needs to overcome organizational ``stovepipes'' and 
promote better coordination and communication, and if confirmed I will 
work to do that.
    Question 16. Continuation of Y-12 Modernization: The Department of 
Energy has been very supportive of modernization efforts of the 
nation's nuclear weapons production complex, and in particular, the Y-
12 National Security Complex. The DOE National Nuclear Security 
Administration has: (1) supported the building of the Highly Enriched 
Uranium Material Facility (HEUMF), (2) approved the concept and need 
for a new Uranium Processing Facility (UPF), (3) supported nuclear 
material consolidation efforts, (4) funded major security enhancements, 
and (5) supported the private financing of two new administrative 
buildings at Y-12.
    What shape will your support take to continue the momentum for Y-
12's modernization efforts in support of our nation's national 
security?
    Answer. I understand the importance of modernizing the nuclear 
weapons complex. The Y-12 National Security Complex is one of the most 
important parts of our overall effort. I expect that we will continue 
the excellent progress that has been made in enhancing security and 
modernizing the complex in a fiscally responsible way.
    Question 17. Natural Gas: The Department of Energy has jurisdiction 
over a large number of energy conservation programs. Can you provide 
your perspectives on the issue of using conservation as a tool for 
reducing the demand for natural gas? Can conservation efforts make a 
sizable impact?
    Answer. Energy efficiency is generally the quickest and least 
expensive method of balancing energy supply and demand, so we should, 
and we will, use conservation and energy efficiency efforts as part of 
our balanced energy strategy. We should also be working to diversify 
our methods of electricity generation (including emission free sources 
such as wind and nuclear), and providing new supplies of natural gas 
through domestic exploration and production, the gas pipeline from 
Alaska, and new LNG terminals.
    Question 18. Natural Gas: Can you speak to which areas you believe 
we can make the biggest improvements in our nation's energy 
conservation efforts relative to oil and natural gas?
    Answer. Almost seven out of every ten barrels of oil we use are for 
transportation fuel, so reasonable efforts to promote more efficient 
cars and trucks in the near term, and alternatives to petroleum such as 
hydrogen in the long term, are likely to be the most effective in 
reducing petroleum demand. Most of our natural gas, on the other hand, 
is consumed for a variety of industrial, residential and commercial 
uses as well as for electricity generation. Therefore, there is no 
single or simple preferred approach to natural gas conservation. We 
should continue to pursue our diverse portfolio of activities that 
promote energy efficiency.
    Question 19. Natural Gas: Would you provide your perspectives on 
the importance of expanding and diversifying natural gas supplies to 
improve our nation's energy security, particularly in the Rocky 
Mountains and Eastern Gulf of Mexico?
    Would you encourage the construction of new liquefied natural gas 
infrastructure? What has your experience in the LNG business taught 
you, particularly in the area of safety?
    Answer. Clearly it is important to expand and diversify our 
nation's energy portfolio and work to address the supply and demand 
issues we face, particularly in the area of natural gas. In addition, 
it is important to encourage the construction of new liquefied natural 
gas infrastructure as LNG will play an important role in the 
development of new natural gas supplies in the future. With regards to 
the safety of LNG, my experience leads me to strongly believe that safe 
operation is not only achievable, but is to be expected. I would also 
refer the Committee to the Department's recently released LNG safety 
report conducted at Sandia National Laboratory. I would also note that 
the U.S. Coast Guard has a critical role to play in ensuring the safety 
and security of the transportation of LNG, and I look forward to 
working with the Coast Guard and other involved Federal agencies. If I 
am confirmed, I will review the measures that the Department could take 
to advance our efforts in this area.
    Question 20. Natural Gas: What is your view of local and states' 
rights in siting LNG projects?
    Answer. As you know, the Federal Energy Regulatory Commission 
licenses onshore LNG import and export facilities. It does so pursuant 
to Section 3 of the Natural Gas Act. Section 3 does not expressly refer 
to the authorization of facilities necessary for importing or exporting 
LNG, but the courts have held that it provides the authority to impose 
terms and conditions on import and export authorizations, including the 
authority to improve and condition LNG facilities. I believe it is in 
the national interest for jurisdiction over the licensing of these 
facilities to reside at the federal level, just as it does for 
interstate natural gas transmission pipelines.
    Question 21. Clean Coal Question: Do you believe that federal 
funding for clean coal initiatives should be on: a) initiatives to 
commercialize coal gasification as quickly as possible or b) on 
FutureGen, which focuses on demonstrating both coal gasification 
technologies with carbon sequestration technologies?
    Answer. I have been generally briefed on the program but I would 
prefer not to comment on the future direction of the Clean Coal Power 
Initiative until I have fully reviewed this matter. If confirmed, I 
look forward to working with you on this important effort.
    Question 22. Role of Renewable Energy--Wind, Solar and Biomass: How 
do you feel about wind power offshore and near national parks?
    Answer. I understand that there are a diversity of views regarding 
the siting of wind power and would like to take the opportunity to 
study all sides of the issue should I be confirmed.
    Question 23. (Follow-up) Do you feel that local governments have 
sufficient input in the siting of wind power today?
    Answer. I am not sufficiently briefed on siting so as to provide 
comment at this time but, if confirmed, I would take the opportunity to 
become more familiar with the issue.
    Question 24. Environmental Questions: DOE has a critical role in 
the interagency review process for the Administration's Clean Air 
Programs. While I support the President's framework for Clean Air, I 
support initiatives that go farther, faster than President Bush's plan 
as East Tennessee does not come into compliance with air quality 
standards under Bush's proposal. The vast majority of my state is in 
non-attainment with federal air quality standards and the Great Smokies 
Mountain National Park is the most polluted national park in the 
country.
    Would you support strengthening the Clean Air Interstate Rule, 
especially to address areas such as East TN that do not come into 
attainment?
    Answer. I have not had an opportunity to review the current draft 
of the Clean Air Interstate Rule. If confirmed, and recognizing DOE's 
appropriate role in this area, I look forward to working with other 
federal agencies, Congress, State and local officials, and other 
stakeholders, to assist counties in attaining air quality standards.
    Question 25. Can you provide your perspectives on the topic of 
global climate change?
    Answer. Global climate change is a century-long challenge that 
requires advancements in both science and technology to help us better 
understand the benefits of action and to lower the costs of mitigation 
options. This country has a strong commitment to, and history of sound 
science and research in this area. President Bush has asked all 
involved Federal agencies to push ahead at an accelerated pace. He 
believes, and I very much share this view, that we must take a 
comprehensive look at our climate change research programs and discuss 
how to move these activities forward, so that the results can best be 
used to inform public policymaking and improve natural resource 
management.
                    Questions From Senator Martinez
    Question 26. In April 2004 Secretary Abraham said at the Sixth 
Energy Ministers Meeting in April of 2004 hosted by the Republic of 
Trinidad and Tobago, that while we are fortunate that our hemisphere 
has abundant supplies of fuels, these resources will do us little good 
if we fail to invest I the means of developing them.
    He told the audience that the real answers to our future energy 
needs will be found in the high-tech laboratories and research 
universities.
    How can Universities like Florida International University become 
more involved and make greater contributions in this area?
    Answer. Research institutions provide an important source of 
analysis and outreach for Departmental goals of increased energy and 
environmental security for the Western Hemisphere. These institutions 
can make substantial contributions and I would look forward to 
discussing this matter further with you.
    Question 27. I believe that it is important to advance integration 
and resource development in the Western Hemisphere and agree with 
Secretary Abraham that the high-tech laboratories and research 
universities should play a pivotal role.
    What is DOE's interest in expanding the utilization and production 
of energy resources in the Western hemisphere?
    Answer. Western Hemisphere energy resources represent a significant 
share of the U.S. energy imports, and those resources should continue 
to be developed and utilized. I understand that DOE has established an 
extensive network of bilateral and regional relationships with Western 
Hemisphere nations to expand both the sources and types of energy 
production, and to increase the efficiency of energy production and 
consumption. I would certainly continue to make this a priority if I am 
confirmed.
    Question 28. (Follow-up) What actions are planned by the DOE in the 
years ahead to follow up on this important initiative?
    Answer. I would expect that DOE will continue to advance 
cooperation with our Western Hemisphere partners.
    Question 29. Another question, in the 108th Congress bipartisan 
language was included that develops a new DOE Western Energy Hemisphere 
Energy Cooperation program.
    Passage of a comprehensive energy bill is a high priory again this 
year. Will you support this new program authorizing in the energy bill?
    Answer. I have not looked closely at these provisions, but as you 
know President Bush has placed an emphasis on increasing energy 
cooperation with the Western Hemisphere nations in the National Energy 
Policy. I will continue to support efforts to strengthen those critical 
relationships that so greatly benefit our energy security.
                     Questions From Senator Talent
    Question 30. Congress has been working on comprehensive energy 
legislation for the past four years now. I believe it is time to get a 
bill across the finish line. Do you agree that Congress should finally 
pass a comprehensive energy bill as soon as possible this year?
    Answer. Yes. If confirmed, I will be an aggressive advocate for 
comprehensive energy legislation.
    Question 31. Renewable fuels like ethanol and biodiesel offer a 
homegrown alternative to imported foreign oil. Do you believe that a 
strong renewable fuels standard should be a component of a 
comprehensive energy bill?
    Answer. The Administration supports the inclusion of a renewable 
fuels standard in comprehensive energy legislation.
    Question 32. American consumers struggled with historically high 
energy prices all last year, and prices remain elevated and volatile. 
While recent mild weather has brought temporary relief to some parts of 
the country, the inevitable return of seasonably cold temperatures 
unfortunately will also bring more spikes in energy prices. According 
to the federal Energy Information Administration, the national average 
gasoline price stayed well above 2003 levels for virtually all of 2004, 
and that remains the case so far in 2005. Spot prices for natural gas 
were 65-80% above 2003 levels at the start of the 2004-2005 heating 
season, and so far this heating season, the price for residential home 
heating oil has stayed at least 50 cents per gallon above the previous 
year.
    These high energy prices are hurting consumers, discouraging job 
creation and dampening economic growth. Don't you agree that high 
energy prices provide some of the best evidence that it is time for 
Congress to finally pass comprehensive energy legislation?
    Answer. Yes.
    Question 33. We need to strengthen and expand the energy 
infrastructure in this country. More investment is needed in the 
electric transmission grid, natural gas pipelines, and other energy 
delivery systems. Reliability, security, and price stability all depend 
on it. The energy bill we considered during the last Congress contained 
many important provisions designed to promote investment, enhance, and 
strengthen critical energy infrastructure. Is it important for Congress 
to include infrastructure investment provisions in major energy policy 
legislation?
    Answer. Yes, and strong electricity language which includes 
measures to ensure reliability and stability is essential.
    Question 34. About 20 percent of the electricity generated in the 
U.S. comes from nuclear power plants. This energy is emissions-free, 
reliable, safe, and affordable. If we are to continue to have fuel 
diversity that includes nuclear power generation, we will have to find 
a solution to the issue of long-term storage of spent nuclear fuel. Do 
you agree that the U.S. needs a permanent nuclear waste repository, 
that the Yucca Mountain facility in Nevada represents the best such 
option, and that we should continue to fund development of that 
facility?
    Answer. Yes.
    Question 35. (Follow-up) Will you work with Congress to ensure full 
funding of Yucca Mountain?
    Answer. Yes.
    Question 36. Currently, 18 states have taken some form of action to 
encourage the development of renewable forms of energy to generate 
electricity. Do you think this approach, where the States decide how to 
proceed, is better than a mandate from the federal government to 
develop renewable energy?
    Answer. Yes I do. States are best equipped to match their renewable 
portfolio standards to the renewable resources locally available, while 
accommodating other local concerns better than a ``one size fits all'' 
federal standard.
    Question 37. I am favorably impressed by what I read about the new 
Integrated Gasification and Combined Cycle (IGCC) technology that would 
take advantage of the abundant supplies of coal that we have in this 
country and, through gasification, produce a cleaner burning fuel. The 
catch, as you know, is that IGCC technology is not yet competitive with 
conventional combustion technologies. What is your position on IGCC 
and, as Secretary of DOE, how would you promote this promising 
technology?
    Answer. I believe that IGCC technology holds great promise, and if 
confirmed, I would continue to support strong R&D funding in this area.
    Question 38. As DOE explores financial mechanisms to promote IGCC, 
I urge you to take into account the fact that Missouri and most other 
states have both privately and publicly owned utilities, which have 
different corporate structures and different financing capabilities. A 
tax credit to promote IGCC, for example, would aid private companies 
but not help municipal utilities that are not-for-profit and do not pay 
federal taxes. Are you aware of these differences and do you agree that 
DOE should help all sectors of the utility industry to develop IGCC?
    Answer. Yes. I am generally aware of these differences and, if 
confirmed, will work to help all sectors of the industry to develop 
IGCC, as appropriate, and consistent with Administration Policy.
    Question 39. Utilities in Missouri and across the U.S. have told me 
repeatedly that our U.S. transmission grid is badly congested and needs 
to be enhanced in order to ensure reliability and to promote 
competitive wholesale electric markets. What is DOE's Office of 
Electric Transmission and Distribution doing now to identify congested 
areas and propose remedies and will this be a priority for you as 
Secretary?
    Answer. While I cannot comment at this time on specific areas of 
concern identified by the Office of Electric Transmission and 
Distribution, if confirmed, I will review their recommendations.
                      Questions From Senator Smith
    Question 40. At the end of 2000, under the Clinton Administration, 
then Secretary of Energy Richardson issued a secretarial order on power 
sales into California. At that time, I wrote to the Secretary to 
express my concern that the order inappropriately gave to the 
California Independent System Operator first priority rights to 
Northwest power and water, and that it might result in greater risk for 
power shortages and substantially increased rates for residential and 
business customers in Oregon. I also raised the concern that the order 
would shift the burden of California's liquidity and credit issues to 
others in the West by forcing them to sell to California without 
guarantees of compensation. Lastly, I also raised concerns that the 
federal dams on the Columbia and Snake Rivers were being operated in a 
manner that could jeopardize salmon recovery efforts.
    I raise this because, at this time, the Pacific Northwest is facing 
another drought. The runoff for the Columbia River is predicted to be 
80 percent of normal. The Klamath Basin is also facing drought 
conditions. This has ramifications for the entire West Coast market, 
since power is usually traded south during the hot summer months.
    While the outlook could still improve--or worsen--can you commit 
that: You will not turn the Northwest into California's energy farm?
    Answer. I am not yet familiar with all of the details of the issues 
you have raised regarding the Pacific Northwest; however, I am aware of 
your interest, and I will commit to working with you in addressing this 
matter appropriately.
    Question 41. (Follow-up) If you need to issue secretarial orders to 
stabilize the electricity markets, you will protect northwest 
generators and ratepayers, and not shift economic risk from California 
to the Northwest?
    Answer. Although I am not familiar with all of the details of this 
matter at this time, I will commit to working with you and all affected 
parties toward an appropriate solution.
    Question 42. BPA is a self-financing federal agency that operates 
and maintains more that seventy-five percent of the high voltage 
transmission in the region. Just like private sector utilities, BPA 
must have long-term certainty with respect to access to capital--be it 
through its Treasury borrowing account or through other means such as 
third-party financing in order to make needed investments in the 
transmission grid. Without reliable access to capital, BPA would not be 
able to plan projects in an efficient and business-like manner and 
would likely be forced to dramatically raise rates on businesses and 
consumers in the region to maintain grid reliability.
    Do you commit to work with me to ensure BPA has the access to 
capital and the multi-year planning certainty it needs to meet its 
unique obligations in the Pacific Northwest?
    Answer. Yes. I will commit to work with you to ensure the financial 
stability of BPA. I certainly understand the importance of this to you 
and your constituents.
    Question 43. Related to this issue is the fact that OMB has 
indicated interest in redefining what constitutes debt for the purposes 
of BPA's statutory debt cap. This would have the effect of closing off 
BPA's access to capital and injecting tremendous uncertainty into its 
long-term financial planning.
    Will you commit to consult with me and my colleagues from the 
Northwest before the Administration forwards a proposal that inhibits 
BPA's ability to meeting its statutory obligations by denying its 
access to capital?
    Answer. I am not familiar with OMB's interest in this issue. I have 
been involved in neither the FY 2006 budget for the Department nor in 
discussions surrounding any definition of BPA debt; however, I will 
commit to working with you on this matter if confirmed.
    Question 44. Mr. Bodman, the Bonneville Power Administration is 
engaged in an informal process with its customers in the Pacific 
Northwest to improve the agency's transparency and financial 
accountability. BPA has no board of directors, like TVA, but this 
informal, collaborative effort is a first step toward sharing 
information and receiving input from customers in the region. How 
engaged will your agency be in these types of oversight efforts of BPA 
and the other PMAs?
    Answer. I am not familiar with all of the details of the issue you 
raise regarding BPA transparency and financial accountability. If I am 
confirmed, the Department would be as involved as is appropriate in 
oversight efforts of the PMAs.
    Question 45. The Pacific Northwest has been engaged over the past 
several years in its own effort to develop a Regional Transmission 
Organization, called Grid West. While we can appreciate the general 
direction on transmission planning, market monitoring and system 
operations that has come out of the Administration these past four 
year, we are strongly committed to tailoring our own plan to fix the 
mix of generating resources in our region. Are you committed to keeping 
RTO participation voluntary and in working with our region to solve its 
transmission problems on its own?
    Answer. Senator Smith, I am not familiar with all of the details of 
this matter, however, if confirmed, I will work with you toward 
appropriate solutions to the issues you raise.
    Question 46. The EIA's weekly natural gas storage data report 
greatly influences natural gas markets across the country. In the past, 
erroneous reports from the agency have caused prices to swing wildly, 
which in turn can cause greatly increased gas procurement costs to 
utilities and their customers in my state. What will your agency do 
over the next four years to reform EIA's data reporting practices?
    Answer. Senator, you are absolutely correct about the importance of 
these reports being accurate. If confirmed, I will work with EIA to 
make the necessary systematic changes to prevent this from happening 
again. I would like to work with you and the Committee on this matter.
                     Questions From Senator Bunning
    Question 47. Clean Coal: I believe that tax incentives are a good 
way to encourage the use of new clean coal technologies. Does the 
Administration continue to support efforts to encourage the development 
of new clean coal technologies and support tax incentives to encourage 
the use of the new technologies?
    Answer. We certainly want to encourage the development and 
deployment of clean coal technologies, and if confirmed I would be 
happy to work with you on the right mix of incentives.
    Question 48. Clean Coal: FutureGen, the research program to create 
a zero-emissions hydrogen power plant from coal, is a good program to 
determine a way to use cleaner burning coal in the future. There are 
other clean coal research programs, such as the Clean Coal Power 
Initiative which I funded through my clean coal bill last year, that 
are useful as well. I believe it is important that we do not put all 
our eggs in one basket by cutting or eliminating other clean coal 
research programs and obtain funds solely for one clean coal project 
such as FutureGen. As Secretary, will you ensure that the Department of 
Energy will not fund the FutureGen program by stripping funding from 
other coal technology development currently underway at DOE?
    Answer. I agree that we should not put all our eggs in one basket 
and that we need to pursue FutureGen, as well as other technology 
advances, to enhance the efficiency and lower the emissions of coal-
fired generation. If confirmed, I will work to maintain an appropriate 
balance.
    Question 49. DOE recently awarded the cleanup contract at the 
Paducah Plant to a small business, North Wind. The Department of Energy 
estimates that the contract will be a sizable portion of the $2 billion 
Paducah cleanup. In the past, the GAO raised questions about small 
businesses assuming the responsibility for major nuclear site 
management. What safeguards does the DOE plan to implement for small 
business contracts such as Paducah to provide accountability while also 
ensuring opportunities for small businesses?
    Answer. I would expect small business contractors, as well as large 
contractors, to perform work safely and in accordance with the contract 
requirements. If confirmed, I would expect that the small businesses 
under contract to the Department are afforded the same opportunity to 
succeed and are held to the same high standard in performing their 
contract requirements.
    Question 50. In 2002, I put a provision in the DOD Authorization 
bill that would require the Department of Energy to convert its 
unenforceable worker health and safety orders covering industrial and 
construction hazards into enforceable regulations. The DOE withdrew its 
issued regulations last year because many in Congress believed they did 
not follow Congress' intent with the law. Do you know when the DOE 
plans to issue new regulations?
    Answer. The supplemental Notice of Proposed Rulemaking (NOPR) for 
the Worker Safety and Health Rule was approved by the Department and 
sent to the Federal Register on January 18, 2005. The expected date of 
publication in the Federal Register is January 26, 2005. The 
supplemental NOPR will have a 90 day comment period. A final rule is 
expected to be promulgated during Fiscal Year 2005.
                    Questions From Senator Bingaman
                           energy efficiency
    Question 51. The appliance efficiency standards program has been a 
stunning success. It already saves an estimated 2.5% of all electricity 
use in this country, saves consumers billions of dollars, and reduces 
strain on the electric grid and on natural gas supplies. Yet DOE is far 
behind in issuing new and updated standards that could save even more. 
In December, DOE announced that its three highest priority rulemakings, 
already years behind schedule, would be delayed at least two years 
more. DOE has missed statutory deadlines for standards on more than a 
dozen products. And if the efficiency provisions in the energy bill 
pass, DOE faces rulemakings on several more products. What will you do 
to expedite rulemakings on appliance standards?
    Answer. I am not familiar with the specific factors which have 
contributed to the delays, but if confirmed I would be happy to look 
into the situation and do what I can to advance technically achievable, 
economically justified efficiency standards in reasonable timeframes.
    Question 52. Last year the administration proposed to cut funding 
for the program by 25%, although Congress rejected the cut. Will you 
request sufficient funds and ensure that these delays at DOE are 
stopped and the rulemakings follow the statutory deadlines?
    Answer. I am not familiar with the specific factors which have 
contributed to the delays. At this time I am not prepared to comment on 
the future funding for the appliance efficiency program, but, if 
confirmed, I will look into this matter.
    Question 53. Over the past four years, budget requests for 
increases in the Low Income Weatherization program have been pitted 
against reductions in other key energy programs. In addition, the state 
and local groups who implement this program in the field have expressed 
concerns about the lack of attention being given to program direction 
and coordination and communication at DOE headquarters. Will you look 
into this situation and reach out to the organizations that support the 
Weatherization program?
    Answer. If confirmed, I will do so.
    Question 54. Last year's overall Energy Efficiency and Renewable 
Energy (EERE) proposed budget was about flat. But the administration 
proposed to cut energy efficiency R&D (excluding grants) by 10%. If you 
exclude the long-term FreedomCar vehicle and fuel cell program, the 
remaining energy efficiency R&D programs would have been cut by 17% 
overall. Many of the programs being cut are those that DOE's own 
Government Performance and Results Act (GPRA) analysis says have the 
highest impact. At a time of natural gas shortages, high gasoline 
prices, and increasing greenhouse gas emissions, does it make sense to 
cut programs that can help solve these problems?
    Answer. These are all factors I will have in mind, should I be 
confirmed, when I have the opportunity to review future budgets. I will 
take a strong and active role in the development of the 
Administration's 2007 budgets.
    Question 55. (Follow-up) Will you support increases for those 
programs that are shown to be effective in the GPRA review?
    Answer. I will certainly take the GPRA criteria into account if 
confirmed.
    Question 56. According to the Alliance to Save Energy, the federal 
government is the largest single energy user and wastes a billion 
dollars a year in its buildings alone through inefficient energy use. 
Energy Savings Performance Contracts are a unique program that allows 
federal agencies to contract with the private sector to upgrade the 
energy efficiency of federal buildings and pay back the cost with 
utility savings. Last year Congress extended the program on a temporary 
basis. Will you work with Congress and the White House to come up with 
a solution that allows for permanent reauthorization of this program?
    Answer. I understand that the Administration strongly recommended 
extension of the ESPC program, and I will be happy to examine the issue 
and, if confirmed, determine whether a permanent reauthorization is 
warranted.
    Question 57. Energy efficiency measures are typically the cheapest 
and quickest means of reducing greenhouse gas emissions and meeting the 
target for reduction of greenhouse gas emission intensity. How will you 
take full advantage of the potential of DOE R&D and deployment programs 
to reduce global warming and achieve the targets?
    Answer. The U.S., through the DOE, currently invests far more than 
any other nation or group of nations in energy efficiency R&D. If 
confirmed, I would continue this strong support.
    Question 58. The President has noted the importance of the pursuit 
and promotion of ``strong conservation policies.'' Will you give energy 
conservation and efficiency policies a top priority status?
    Answer. Yes.
    Question 59. (Follow-up) How do you plan to do this?
    Answer. If confirmed, I will work with DOE senior management, other 
Executive Branch agencies, Congress, and interested stakeholders to 
pursue and promote strong conservation policies.
    Question 60. Given the increasingly global market, in energy and 
beyond, what role do you see the office of Policy and International 
Affairs playing?
    Answer. Given the importance of taking steps to protect our 
nation's energy security in a global market that is increasingly 
integrated, I will expect the Office of Policy and International 
Affairs to play an important role in our efforts to address the issues 
of national energy policy and global cooperation in energy markets. I 
look forward, if confirmed, to working with the leadership in each of 
the Department's program offices to determine effective areas of action 
for the future.
    Question 61. In December, the National Commission on Energy Policy 
released its much awaited report addressing major long-term U.S. energy 
challenges entitled, ``Ending the Energy Stalemate: A Bipartisan 
Strategy to Meet America's Energy Challenges.'' Have you had time to 
look at this report?
    Answer. I am aware of but have not reviewed in detail, the NCEP 
report.
    Question 62. (Follow-up) To what extent will the Commission's 
proposal help inform the Administration's policies and recommendations 
for energy legislation this year?
    Answer. Given the broad and diverse membership of the Commission, I 
expect the proposal will be reviewed by policy officials within the 
Administration for additional ideas that could supplement the 
Administration's energy policy.
    Question 63. An issue on the Committee's agenda for early this 
session is consideration of the petition from the Republic of the 
Marshall Islands for additional compensation for injuries arising from 
the U.S. nuclear weapons testing program in the islands from1946 
to1958. The Department of Energy has a long history of involvement in 
this issue and many respected experts on the history and effects of the 
tests. Will you make these experts available to the Committee to 
discuss the Administration's position and other matters related to the 
petition?
    Answer. Yes. If confirmed, I look forward to working with you and 
Members of the Committee on this important issue.
    Question 64. Within DOE's Office of Health provides continuing 
medical care to those who were exposed to harmful radiation from the 
1954 ``Bravo'' nuclear test. It also provides continuing environmental 
monitoring and resettlement support to those communities contaminated 
by fallout. Will the Administration ask for sufficient funding in its 
budget request to meet our responsibilities to those who were affected?
    Answer. I am not yet familiar with the Department of Energy's FY 
'06 budget requests. I understand, however, that this is an important 
issue, and if confirmed would be happy to discuss this matter with you 
further.
    Question 65. In its evaluation of the Republic of the Marshall 
Island's petition, the Administration states that ``The current dose 
limit used by the U.S. Government to protect the public from all 
sources of radiation is 1 millisievert (mSv) per year [equal to 100 
mrem] . . . The current U.S. dose limit has been used as a guide to 
cleanup decisions in the RMI before and after the Compact was 
enacted.'' However, the NRC uses 25 mrem as the standard for the clean-
up of closed nuclear facilities in the U.S., and DOE has agreed to a 15 
mrem standard for the clean-up of Hanford and Rocky Flats. How does the 
Administration reconcile the use of a 1 millisievert [100 mrem] 
standard in the RMI while using 25 mrem and 15 mrem standards in the 
U.S.?
    Answer. I am unfamiliar with the specifics of the RMI petition. 
Should I be confirmed, I will look into this issue and discuss it with 
you further.
    Question 66. There are reports that a new version of the Clear 
Skies bill will repeal Title IV of the Clean Air Act Amendments, which 
requires utilities to report their carbon dioxide emissions. What are 
your thoughts on emissions reporting and on the repeal of Title IV of 
the Clean Air Act Amendments?
    Answer. I have not seen these reports and, therefore, I am not 
prepared to comment at this time.
    Question 67. Both NASA and DOD use inducement prizes are used to 
encourage technological innovation. Will you explore the use of such 
prizes as an incentive for scientific and technological innovation at 
DOE?
    Answer. Yes.
    Question 68. (Follow-up) Are there any obstacles to DOE 
establishing inducement prizes?
    Answer. I will review DOE's current practice, authority, 
regulations, and internal orders to determine whether there are such 
obstacles.
    Question 69. Although the Administration has engaged in a number of 
cooperative international R&D agreements, it has not so far offered to 
seek increased U.S. expenditures on climate related R&D if other major 
nations would make comparable spending increases. On its face, such a 
pledge and review approach could greatly leverage the impact of U.S. 
expenditures in developing new climate friendly energy sources. What is 
you reaction to linking U.S. R&D increases to those in Europe, Japan, 
and elsewhere?
    Answer. Due to the fact that climate-related R&D is within the 
purview of several agencies, and that the final decisions on U.S. 
expenditures in this area rest with Congress, I would not favor such a 
linkage to decisions made in other countries as DOE policy.
    Question 70. The President has said that climate change is a 
serious issue and that the Administration is committed to a strategy of 
developing new energy sources as one of its principal responses. In 
many ways, though, the President's interagency task force, the Climate 
Change Technology Program, is not nearly as well organized as the 
analogous program of scientific research, the Climate Change Science 
Program. For example:

  <bullet> The CCTP is not grounded in unified authorizing legislation.
  <bullet> assess progress.
  <bullet> There is no full time staff tasked with coordinating the 
        multi-agency effort.
  <bullet> The administration, despite earlier promises that a 
        strategic plan would be forthcoming, has never produced one or 
        at least has not released it to the congress public and the 
        relevant research communities.

    Do you intend to correct these management gaps in the CCTP? If so, 
could you indicate to us in what timeframe might we expect to see 
action?
    Answer. As the former co-chair of the interagency working group on 
climate change science and technology integration, I am well aware of 
the challenges facing the CCTP. If confirmed, I will work diligently to 
address those challenges.
    Question 71. British Prime Minister Tony Blair has said that 
climate change will be one of his two top priorities as President of 
this year's G-8 meeting. Given the President's desire to improve 
relations with Europe, what changes might be made to the Climate Change 
Technology Program before the G-8 summit to increase international 
cooperation?
    Answer. The UK is a partner with the U.S. in our major multilateral 
climate change technology initiatives. If confirmed, I will seek to 
broaden and strengthen that relationship.
                          science & technology
    Question 72. What are your views on the importance of the 
Department's programs to the American science and engineering 
enterprise?
    Answer. The Department of Energy has an important responsibility in 
maintaining America's world leadership in science. As the primary 
agency conducting basic research in the physical sciences, I believe 
DOE plays a critical role in maintaining this leadership.
    Question 73. Can the Department once again play the kind of role it 
played in its early days?
    Answer. I believe the Department of Energy can continue to play a 
critical role in advancing science and technology.
    Question 74. What are the future challenges DOE could address?
    Answer. If confirmed, I look forward to enthusiastically 
investigating ways that Department of Energy resources can be better 
utilized to meet future challenges in the area of science and 
technology.
    Question 75. The President's Committee of Advisors on Science and 
Technology (PCAST) recommended that ``beginning with the FY '04 budget 
and carrying through the next four fiscal years, funding for the 
physical sciences and engineering across the relevant agencies be 
adjusted upward to bring them collectively to parity with the life 
sciences.'' What are the prospects for the physical sciences and 
engineering in the Department's FY '06 budget request?
    Answer. As I stated in my testimony, I have not been briefed on the 
Department of Energy's FY '06 budget proposal. However, I do believe 
that we need increased attention generally in the area of the physical 
sciences.
    Question 76. In your statement you mentioned the importance of our 
nation's leadership in science and technology. Do you agree that this 
leadership at serious risk?
    Answer. Yes. Over the last 50 years, our nation has lead the world 
in science and engineering research, to the great benefit of our 
economy and our citizens. Other countries have observed this and are 
actively following our example. We must make sure that the United 
States maintains its preeminence in the sciences.
    Question 77. What specific approaches will you promote to protect 
our leadership position?
    Answer. If confirmed, I will be a strong voice for the Department 
of Energy's important role in promoting America's world leadership in 
science and technology.
    Question 78. One challenge we face is the lack of a coordinated 
national strategy to recruit the best science minds from around the 
world to study and work in the U.S. Do you believe that the Federal 
government should take a more active role, as the European Union has, 
in developing and implementing a coordinated recruitment and retention 
strategy for science and technology experts?
    Answer. I believe that we must educate and encourage our children 
in math and sciences from a very early age. If confirmed, I look 
forward to familiarizing myself with the specifics of the European 
Union's retention strategies and would be happy to discuss this issue 
with you further.
    Question 79. The 9/11 attacks resulted in immigration restrictions 
that discourage international students from attending our schools, 
scholars from visiting our labs and conferences, and businessmen from 
engaging in joint ventures. Do you expect to be active in seeking 
immigration changes that will assure protection of our national 
security while reducing visa problems for those who do not pose a 
threat?
    Answer. I am generally aware of this issue. While I cannot speak to 
the specifics of immigration changes, I believe that we need to do more 
to encourage students from abroad to continue to attend American 
colleges and universities. If confirmed, I would be open to receiving 
information for further consideration.
    Question 80. In the past, there have been discussions in the 
Administration and Congress about the possibility of establishing a 
separate Science and Technology visa to facilitate the entry of 
international students, researchers and businessmen into the U.S. Are 
you familiar with this idea and do you support it?
    Answer. I am not completely familiar with this issue. If confirmed, 
I would seek to determine whether or not Department of Energy missions 
are being adversely affected by immigration laws and consult with other 
agencies that enforce those laws.
                        nuclear nonproliferation
    Question 81. The Department of Energy plans to spend upwards of one 
billion dollars to build two fossil fuel plants in Russia so that 
Russia will shut down two plutonium producing reactors. The cost of 
this project has steadily increased and is now a cause of concern in 
Congress. What will you do as Secretary of Energy to contain cost 
growth in this program?
    Answer. I believe that eliminating the production of new weapons 
grade plutonium is vital to the national security of the United States. 
This effort is key to accomplishing this objective. If confirmed, you 
have my assurance that I will examine the program's costs and take 
appropriate action.
    Question 82. (Follow-up) In your view, is there a price tag for 
this program beyond which you would believe it is not worth the U.S. 
investment?
    Answer. It is my understanding that there has been good news as it 
relates to this program's long-range costs. Among these is that the 
Russians have agreed to over $200 million in cost reductions for these 
projects. Additionally, Congress has provided the Department with the 
authority to accept international funding that will ensure that the 
project will be completed with a minimum additional commitment of U.S. 
taxpayer dollars. It is my hope that this effort will be successful in 
ending plutonium production in Russia.
    Question 83. What is your position on creating a ``nonproliferation 
czar'' in the Federal government who would be responsible for 
coordinating all nonproliferation programs across agency lines?
    Answer. As I understand it, the National Security Council's 
Proliferation Strategy Policy Coordinating Committee has, and will 
continue, to ensure effective coordination of the nonproliferation 
programs of various agencies. I, therefore, at this time, see no 
utility in designating a duplicative body to serve this same function.
    Question 84. Secretary Abraham was personally committed to reducing 
the risks posed by radiological dispersion devices. Do you share this 
view and, if so, what is the appropriate role for DOE to take in this 
matter, both domestically and worldwide?
    Answer. I share the view that the threat from a radiological 
dispersion device is real and it is one that must be addressed. It is 
my understanding that the Department has established programs to 
mitigate the Radiological Dispersion Devices (RDD) threat both in the 
United States and internationally. If confirmed, reviewing these 
programs would be a top priority.
    Question 85. DOE's Russian ``brain drain'' programs were 
implemented almost a decade ago. Do you believe these programs are 
meeting our nonproliferation objectives and how much longer will DOE 
continue to fund them?
    Answer. I understand the Department's ``brain drain `` programs 
have had a significant nonproliferation impact over the past decade by 
engaging former weapons expertise in commercial pursuits. As to how 
long the Department will fund these programs is something I would need 
to determine if I am confirmed.
    Question 86. In February 2002, the Department issued a report 
stating that its nuclear waste cleanup program could cost more than 
$300 billion and take nearly 70 years to complete. In response, DOE has 
adopted an accelerated cleanup approach. What are your thoughts on how 
DOE has implemented this approach and do you foresee making any 
fundamental changes to it?
    Answer. It is my understanding that as a result of the Department's 
accelerated cleanup program the expected completion date for cleanup 
has been reduced by 35 years and at a cost savings of $50 billion. If 
confirmed, it would be my intent to review the accelerated cleanup 
program to determine if the current plans are optimum in terms of 
safety and resources.
    Question 87. In developing its accelerated plan, DOE has yet to 
fully implement a complex wide, risk-based approach. In your view, what 
are the barriers to developing a risk-base cleanup approach, and what 
steps, if any, will you take to do so?
    Answer. This is an issue that I would need to review if confirmed.
    Question 88. In its efforts to accelerate the cleanup of nuclear 
waste, the Department has recently encountered legal challenges in 
classifying some of its wastes so it can treat and dispose of them in a 
cost-effective manner. What actions do you think DOE must take to 
overcome these legal challenges?
    Answer. I am generally aware of the waste classification issue. I 
support the legislation that was enacted in the last Congress that 
clarifies this issue in South Carolina and Idaho. It would be my 
intention, if confirmed, to review the remaining issues and determine 
the appropriate course of action.
    Question 89. Over several decades, the Department has had mixed 
results in developing new technologies for its nuclear waste cleanup 
efforts, as several failures have been very costly and have hampered 
cleanup progress. The Department's current accelerated cleanup approach 
assumes that several nascent technologies will be successfully 
developed and deployed under very aggressive time frames. What will the 
Department do to ensure it has identified and fully tested the best 
available technology to use in treating the waste?
    Answer. I understand the importance of cleaning up the legacy from 
the Cold War. This is one of the Department's greatest 
responsibilities. If confirmed, it would be my intention to review the 
accelerated cleanup program, including the use of the best available 
technologies, and determine what changes, if any, are needed to ensure 
that the sites are cleaned up in a manner that protects the workers and 
is protective of human health and the environment.
    Question 90. Recently, the Department has been criticized for 
attempting to reduce overall costs and schedule by accelerating its 
cleanup work by means that reduces worker safety. What steps do you 
think DOE should take to avoid increasing these safety risks and to 
ensure that the work is performed in a safe and reliable manner?
    Answer. The safety of the Department's workers is paramount. I 
assure you that accelerated cleanup and reduction of costs would never 
take priority over worker safety. I am unable to know at this point 
whether additional measures are needed to protect the workers. If 
confirmed, this would be an issue I would review.
    Question 91. Since 1990, GAO has considered DOE's contracting 
practices as high risk for fraud, waste, abuse, and mismanagement. 
Since then, DOE has worked to improve its contracting practices by, for 
example, increasing competition and linking payments to contractors' 
actual performance. Even so, performance problems continue at some of 
DOE's sites and projects. What additional changes should DOE's make in 
its practices to help ensure that its contractors' performance is 
acceptable?
    Answer. At this time, I am unable to make specific recommendations 
in this area. However, holding contractors accountable for their 
performance will be critical to the success of the Department's 
missions.
    Question 92. DOE officials now say that it may be 2007 or 2008 
before DOE facilities that contain nuclear materials will be able to 
fully defend against increased threats, particularly those posed by 
terrorists. Do you find this length of time acceptable? What actions 
would you propose to speed up this process or increase security at the 
facilities?
    Answer. Without having reviewed the specific details of the 
Department's plan for increasing security at DOE facilities I am unable 
to ascertain if this length of time is acceptable. However, let me 
assure you that if confirmed, I will closely evaluate the Department's 
implementation plans to ensure that everything possible is being done 
to safeguard the nation's nuclear materials facilities and that these 
enhancements are being accomplished with the appropriate sense of 
urgency.
    Question 93. In response to the September 11, 2001 terrorist 
attacks, Secretary Abraham proposed a 14-point initiative to improve 
security at DOE facilities that contain nuclear material. The 
initiative proposes steps such as federalizing DOE's protective forces 
and consolidating DOE's weapons grade materials into fewer locations. 
How do you intend to implement this initiative to improve security at 
DOE's facilities?
    Answer. Security at DOE sites would be of paramount importance to 
me if confirmed. Keeping nuclear material away from terrorists is vital 
to the security of our nation and I recognize the significance of these 
security initiatives. At this time, I have not had the opportunity to 
review these initiatives in detail. However, at the appropriate time, I 
would be happy to meet with you to discuss this important issue 
further.
    Question 94. The National Nuclear Security Administration (NNSA), a 
key component of DOE, is responsible for the nation's programs in 
nuclear weapons, nonproliferation, and naval reactors. However, in its 
5-year existence, NNSA has been plagued with the kind of management and 
security problems that led to its creation. What do you believe you can 
do as Secretary of Energy to improve management and security at NNSA?
    Answer. The NNSA was established by legislation as a separately 
organized, semi-autonomous entity within DOE. If confirmed, I would 
work to ensure that both management and security at NNSA are improved 
in a manner consistent with congressional intent. I believe that a key 
to resolution of these management and security issues is to make 
expectations clear and to hold individuals at all levels within both 
organizations accountable.
    Question 95. In August 2004, the Nuclear Regulatory Commission 
(NRC) ruled that DOE, in violation of Commission rules, did not place 
all documents relevant to the Yucca Mountain project on an electronic 
network at least six months before submitting a license application to 
the NRC. As a result, DOE, explaining that it had yet to review several 
hundred thousand documents and several million emails, was unable to 
submit a license application in December 2004. How many materials does 
DOE have left to review, and when will it be ready to submit a license 
application?
    Answer. Although I am not personally familiar with the details of 
the Yucca Mountain Licensing process, I have been informed that the 
Department is currently working through the schedule with its 
contractor and over half of the documents (2.1 million) are yet to be 
reviewed. I understand the Department anticipates the completion of the 
license application by the end of the calendar year.
    Completing the licensing process is a massive and unprecedented 
undertaking and presents challenges. Nevertheless, if confirmed, it 
will be very important to me that the Office of Civilian Radioactive 
Waste Management provide a document collection that is accurate and as 
open as possible to the participants in the licensing process.
    Question 96. In July 2004, the U.S. Court of Appeals ruled that 
DOE's safety standard of containing radiation at Yucca Mountain for 
10,000 years violated federal law by ignoring far stricter standards 
recommended by the National Academy of Sciences. Has DOE assessed 
alternative radiation standards? Would the currently planned facility 
meet the National Academy's strict radiation limits?
    Answer. My first priority will be the protection of the health and 
safety of the citizens of Nevada and the rest of the country. 
Therefore, it is vitally important that we have a radiation standard 
for Yucca Mountain that provides adequate health protection over an 
appropriate time period.
    I understand the standard was remanded back to EPA and is within 
its jurisdiction for resolution. It is the Department's responsibility 
to make sure that the repository will comply with whatever standard 
emerges from the EPA's ongoing process.
    As you know, the repository by law cannot be built or operated 
until the Nuclear Regulatory Commission is satisfied that the 
repository will meet the standards set by the EPA. If confirmed, I will 
work to ensure that the Department demonstrates, to the satisfaction of 
the NRC, that public health and safety will be protected.
    Question 97. The Nuclear Waste Technical Review Board recently 
questioned the department's plans to safely dispose of high-level 
nuclear waste in a number of areas, such as the number of times workers 
must handle spent nuclear fuel assemblies and DOE's harmonization of 
cask design, fleet acquisition, waste acceptance and other activities 
at reactor sites. How will you ensure that workers and the public face 
limited exposure when spent fuel is moved to their final repository?
    Answer. I have not personally reviewed the comments of the Nuclear 
Waste Technical Review Board nor am I familiar with the Department's 
proposed response. However, if confirmed, I assure you that limiting 
the radiation exposure of workers and the public will be a paramount 
objective of the program.
    Question 98. In 2003, the department handled more than 75 percent 
of the nation's low-level radioactive waste that was sent for 
commercial disposal, relying on a commercial disposal facility in Utah. 
A proposed low-level radioactive waste disposal facility in Texas may 
create competition with the Utah facility and lead to lower disposal 
rates for the department. What practices are in place to ensure that 
DOE pays a fair price for disposal at the Utah facility?
    Answer. I am unfamiliar with this issue. However, if confirmed, it 
would be my goal to ensure that the Department pays a fair price for 
the disposal of low-level radioactive waste.
    Question 99. (Follow-up) To what extent has the department 
discussed with the developers of the Texas facility the possibility of 
disposing waste there?
    Answer. I am not aware if any such discussions have taken place. If 
confirmed, I would look into this matter.
    Question 100. In December 2004, the New Mexico Environment 
Department issued a notice of deficiency on DOE's proposal to reduce 
testing of waste destined for WIPP. The Department found that the 
proposal is contrary to statutory and regulatory requirements because 
it likely would result in DOE disposing of waste at WIPP that has not 
been properly characterized. How does DOE plan to work with the State 
of New Mexico to address the change in testing? How has New Mexico's 
decision affected the disposal schedule at WIPP and to what degree may 
DOE cleanup activities be slowed by this situation?
    Answer. Senator, as we discussed in our recent meeting, WIPP is a 
success story and I think this is due in large part to the cooperation 
between the Department, the New Mexico congressional delegation, the 
State of New Mexico and the local community. I am aware of the notice 
of deficiency that was issued by the New Mexico Environmental 
Department and, if confirmed, I would review this matter thoroughly.
    Question 101. Much of DOE's recent emphasis in energy research has 
been on developing hydrogen fuel technologies. Although these 
technologies may show promise in the future, the widespread use of 
hydrogen fuels remains a long-term goal. In the meantime, how will you 
ensure that DOE's other ways of meeting our energy needs will receive 
adequate research funding?
    Answer. I believe it is critical that we continue to assemble a 
diverse portfolio of energy R&D and, if confirmed, I will work towards 
that goal.
    Question 102. (Follow-up) Will this require changing DOE's current 
R&D portfolio?
    Answer. If confirmed, I will review our portfolio to determine if 
changes need to be recommended.
    Question 103. In August 2003, a regional electricity blackout cost 
the nation billions of dollars and left many consumers in the dark. 
Analysts concluded that several reasons for the blackout, such as 
noncompliance with reliability standards and poor coordination among 
operators on the electricity grid, were preventable. What can DOE do to 
mitigate these problems in the future?
    Answer. Enforceable mandatory reliability standards is a good place 
to start and new technologies and methods for grid management, such as 
those the DOE is working to develop with industry, can help a great 
deal.
    Question 104. Despite the fact that the world oil market 
periodically produces large price spikes and disrupts the economy, our 
thirst of oil appears to be increasing. Under your leadership, how 
aggressively will DOE attempt to reduce our dependence on oil by 
expanding conservation and the use of alternative fuels?
    Answer. Almost seven out of every ten barrels of oil we use are for 
transportation fuel, so our efforts to promote more efficient cars and 
trucks in the near term, and alternatives to petroleum such as hydrogen 
in the long term, are likely to be the most effective in reducing 
petroleum demand.
    Question 105. (Follow-up) What actions will DOE take to achieve 
these ends?
    Answer. If confirmed, I will continue the Department's efforts to 
make cars and trucks more efficient and ultimately transition to 
hydrogen fuel as envisioned by the FreedomCAR program and the 
President's Hydrogen Fuel Initiative.
    Question 106. Congress invests in the Department of Energy (DOE) 
significant resources to devise policies and operate programs that are 
vital to our economy and national security. As a result, it is 
important for Congress to know how well DOE is fulfilling its 
responsibilities. To assist our oversight of DOE, we often ask GAO to 
evaluate DOE programs and activities. These evaluations require GAO to 
review documents, talk to agency officials, and judge program 
effectiveness. It is critical that GAO have timely access to documents 
and agency officials in order to complete its work.
    Will you commit to working with GAO in a timely and constructive 
manner to address the oversight and other needs of the Congress, and 
will you encourage others in your department to do so?
    Answer. Yes.
    Question 107. (Follow-up) What specific steps will you take to 
ensure that GAO receives access to information and DOE officials and 
that your department provides this information in a timely manner?
    Answer. If confirmed, I will review DOE's current practices in this 
area to determine what steps, if any, need to be taken.
    Question 108. (Follow-up) Do you foresee any problems in providing 
particular types of DOE information to Congress or GAO?
    Answer. The above-mentioned review, would, among other things, 
attempt to identify any such problems.
    Question 109. (Follow-up) If so, what are these problems and how 
will you address them?
    Answer. If such problems are identified, I will work with Congress 
to identify options for addressing them.
    Question 110. The NNSA Strategic Plan states that ``[a]s of Fall 
2004, the DOE is proposing to transfer a number of environmental 
activities from the Office of Environmental Management (EM) to the NNSA 
beginning in FY 2006.'' Do you support that? If so, how do you plan to 
ensure that the NNSA will conduct effective cleanup programs? What 
makes you believe that the NNSA has the expertise to do so?
    Answer. I understand that there have been some concerns expressed 
in Congress over transferring these responsibilities from EM to NNSA. 
If confirmed, I would review this issue and I would be happy to meet 
with you to better understand your views on this matter.
    Question 111. The managers' statement accompanying the Foreign 
Operations Appropriations Act calls on the U.S. AID to work with 
Secretaries of State, Agriculture, and Energy to devise a reforestation 
strategy for areas of Haiti that are vulnerable to erosion.
    How do you view the Department of Energy's role in helping 
international relief efforts like this?
    Answer. I am generally aware of this issue and, if confirmed, I 
would be happy to look into the matter in more detail and get back to 
you.
    Question 112. Will you take an interest in the Haitian effort and 
make sure that DOE plays an instrumental role in developing the 
reforestation strategy?
    Answer. I am generally aware of this issue and, if confirmed, I 
would be happy to look into the matter in more detail and get back to 
you.
    Question 113. Questions have been raised about the use of the 
resources of the Criminal Investigation Division of the Internal 
Revenue Service to provide you with a security detail in your current 
position as the Deputy Secretary of the Treasury. Last summer, lawyers 
for the Internal Revenue Service took the position that the Service 
could provide this service to you, provided it was done ``pursuant to a 
written agreement on a reimbursable basis.'' We have since learned that 
no such written agreement exists and no reimbursement has been 
requested or paid.
    Are you aware of this matter?
    Answer. I am aware that arrangements were made with the IRS to 
provide protection for me in my role as the Deputy Secretary of the 
Treasury. I understand that sufficient legal authority exists for the 
IRS to provide such protection, that a written agreement to provide 
reimbursement to the IRS for a variety of services provided to Treasury 
has been in place for some time, that this written agreement will be 
used to provide reimbursement to the IRS for costs incurred by the IRS 
for my protection, and that a cost estimate has been received from the 
IRS for these services and approved by Treasury.
    Question 114. (Follow-up) Why hasn't this matter been settled?
    Answer. I believe that sufficient arrangements have been put in 
place to address this matter going forward. The IRS and the Treasury 
Department have agreed on both the legal authority and the 
reimbursement method.
    Question 115. (Follow-up) Will it be before you leave the Treasury 
Department?
    Answer. My understanding is that the IRS is intending to submit a 
request for reimbursement shortly. Upon receipt of that request, the 
Department intends to make immediate payment.
                      Questions From Senator Akaka
    Question 116. The President's Hydrogen Fuel Initiative, announced 
in 2003, would provide the bulk of hydrogen appropriations to 
development of hydrogen fuel, infrastructure, and technology for 
transportation. Considering the hydrogen economy broadly, please 
provide your views on whether this is the appropriate focus for 
hydrogen research and development. What priority would you give to the 
areas of (1) production of hydrogen from renewable (or other widely 
available) sources of energy;
    Answer. I have not yet reviewed the Department's plans in detail, 
but I do know that the Department has undertaken a rigorous and 
comprehensive approach to hydrogen that has been independently 
evaluated by the National Academy of Sciences and other external 
groups. I understand that the production of hydrogen from renewable 
energy is a priority identified in the Department's plan.
    Question 117. (Follow-up) . . . and (2) development of low-cost 
stationery or distributed generation of energy through fuel cells?
    Answer. I understand that developing technologies for distributed 
energy fuel cells is also a priority in the Department's plan.
    Question 118. Hydrogen and methane hydrates are decades away from 
becoming major sources of energy. We need other sources of energy to 
help us in transition to utilizing these sources of energy. Liquified 
Natural Gas (LNG) is increasingly seen as an attractive source of 
energy for many applications.
    Do you have plans or policies to encourage the siting and 
development of LNG terminals or use of LNG in areas that might have a 
disadvantage because of more limited markets, such as Hawaii or other 
insular or remote areas?
    Answer. Like the President, I believe the nation's fuel mix should 
be balanced and diversified and that liquefied natural gas can and 
should play an important role in completing that mix. I am not aware of 
issues specific to siting facilities in more disadvantaged markets, but 
will be available to discuss any concerns you may have VI am confirmed.
    Question 119. Certain regions of our country are overly dependent 
on one source of energy or on an imported source of energy. Hawaii is 
very dependent on imported oil. Hawaii's residents and visitors use oil 
to meet 90 per cent of their energy needs. Hawaii's dependence on oil 
poses risks to Hawaii's economy from price increases or from supply 
problems. Our energy costs are among the highest in the nation. What 
are your views on the production tax credits that were renewed and 
extended by Congress in the JOBS bill last year?
    Answer. I support the renewable energy tax credits that were signed 
into law by President Bush.
    Question 120. (Follow-up) Are tax incentives such as production tax 
credits effective ways to stimulate renewable energy production?
    Answer. As we have seen from the fact that wind development occurs 
when incentives are in place, and does not occur when they are not, I 
believe it is clear that tax incentives can be effective in stimulating 
renewable energy production.
    Question 121. (Follow-up) Do you have alternative suggestions?
    Answer. Not at this time, Senator.
    Question 122. Will you support initiatives such as a DOE-sponsored 
study that assesses Hawaii's energy future and the options it faces?
    Answer. I would be happy to look into this if confirmed.
    Question 123. Given the Bush Administration's views on Global 
Climate Change, how will they affect your leadership of the climate 
change research, modeling, and technology programs in the DOE?
    Answer. The Administration believes that climate change is a 
century-long challenge requiring significant investments in science and 
technology. If confirmed, I will continue these programs.
    Question 124. What mandatory measures would you consider as part of 
responsible U.S. policy to deal with the problem of global warming?
    Answer. The United States has a number of existing mandatory 
measures, including corporate average fuel economy (CAFE) and energy 
efficiency standards for appliances that I consider to be part of such 
a policy.
    Question 125. The Department of Energy needs an aggressive program 
to identify and secure, or dispose of, GTCC sealed nuclear sources. The 
GAO study that I requested shows that DOE has been delinquent in 
identifying a depository for used GTCC sources of radioactivity. Since 
the hearing on Low Level Radioactive Waste held by this committee last 
fall, can you please inform me of what progress has been made toward 
identifying a depository and initiating the stages of the environmental 
impact assessment?
    Answer. Senator, I am unfamiliar with this issue. If confirmed, I 
will look into it and I would be happy to get back to you on the 
progress that has been made.
                     Questions From Senator Dorgan
    Question 126. As you may know, I am a huge proponent of 
establishing a hydrogen fuel-cell economy. I am a founding member of 
the Senate Hydrogen and Fuel Cell Caucus. We have been working with 
representatives from the private sector who have a stake in a hydrogen 
future, and our Senate and House colleagues to come up with legislation 
that would put us on a path to achieving this goal. In the last 
Congress, I introduced legislation that committed $6.5 billion over 10 
years for establishing a hydrogen program. In comparison, the 
Administration has proposed re-diverting funds from other programs to 
fund hydrogen research, with less than half the funding being ``new'' 
money.
    How do you feel about hydrogen and where we are currently heading 
in our research?
    Answer. From what I have seen thus far, I believe the Department of 
Energy is pursuing the correct priorities in their hydrogen program, 
and they are achieving significant progress.
    Question 127. Do you believe the DOE can provide more guidance in 
accomplishing our goal of creating a hydrogen economy or do you believe 
private organizations should take a more significant role in developing 
this infrastructure?
    Answer. They must work together. Through the Department's 
FreedomCAR and Fuel Partnership, three major automotive and five energy 
companies are already working closely together with the government to 
overcome the technical and other obstacles that stand between us and a 
hydrogen economy. As customer requirements are met and as the business 
case for hydrogen becomes clearer, the private sector will actually 
build and deploy the vehicles and infrastructure for mass markets.
    Question 128. If confirmed, how aggressive will you be in pushing 
forward on this initiative and ensuring we put hydrogen fuel-cell cars 
on the road in the foreseeable future?
    Answer. Should I be confirmed, I would expect to continue the 
President's aggressive program, proposing to modify it, of course, as 
appropriate as we learn more.
    Question 129. Can we count on your support if and when we introduce 
a bipartisan hydrogen measure in the 109th Congress?
    Answer. I cannot assure you of my support of a bill containing 
provisions I have not seen. However, I will certainly maintain an open 
mind, and will support those provisions which are consistent with the 
Administration's policy goals for hydrogen.
    Question 130. North Dakota has been referred to as the ``Saudi 
Arabia'' of wind energy and is positioning itself to be a major player 
in developing this renewable energy. However, there are many areas that 
need to be addressed at the federal level for this sector to really 
gain momentum. One of these is transmission and infrastructure 
improvements. While I know some of these issues are regulated by the 
FERC, I also believe the DOE can play a significant role in developing 
this resource. For instance, support of a renewable portfolio standard 
(RPS) would be a great catalyst for wind development.
    Additionally, the wind production tax credit needs to be made 
permanent to spur investment. The constant stop and start in wind 
energy development creates havoc with developing major projects.
    Do you support an RPS?
    Answer. I do not support a ``one size fits all,'' federally-
mandated renewable portfolio standard. Because renewable resources vary 
widely from state to state, and because retail electricity is regulated 
largely at the state level, I believe that states should be free to 
develop their own Renewable Portfolio Standards that fit their 
situation and their available resources. Approximately 19 states have 
done so, including Texas when President Bush served as Governor.
    Question 131. Do you believe the federal government should lead by 
example and purchase a significant amount of its electricity from 
renewable sources?
    Answer. Yes. It is my understanding that we are on track to meet 
the goals originally established by the Clinton Administration, and 
supported and pursued by this Administration.
    Question 132. The Department of Energy recently created an office 
of transmission to examine these issues. What is the status of that 
department and how will it undertake solving the transmission problem?
    Answer. The Office of Electric Transmission & Distribution was 
established in August, 2003 to combine DOE's electricity-related 
programs and research in a single, focused office. The mission of the 
Office is to lead a national effort to modernize and expand America's 
electric delivery system. This is a critically important effort.
    Question 133. It is not easy to solve transmission. The problem 
most often cited by developers is a lack of certainty. Developers 
simply do not know what the rules will be. One solution is to develop a 
single system-wide average price for the bulk transmission system. This 
is the pricing structure that has been agreed to by the Upper Great 
Plains Transmission Coalition and its members. How can the DOE help to 
reach agreements on regulations that provide meaningful incentives to 
development such as system-wide average pricing?
    Answer. I would like to learn more about the Upper Great Plains 
Transmission Coalition you have referred to, and look forward to 
working with you in this regard.
    Question 134. I am a huge proponent of developing clean coal 
programs, especially given North Dakota's vast amounts of lignite coal. 
Last year the President's budget increased funding for FutureGen, but 
most of the funding was taken from the Clean Coal Power program. I 
support FutureGen, but not at the expense of other Clean Coal programs.
    Where do you see the clean coal program headed?
    Answer. While I have not yet had extensive briefings, I believe the 
Clean Coal Power initiative can play a key role in using our abundant 
coal resources more efficiently while reducing emissions.
    Question 135. How do you feel about FutureGen?
    Answer. FutureGen is designed to be the ultimate clean coal power 
plant. It seeks to combine many of the technologies developed under the 
clean coal program with carbon sequestration.
    Question 136. Do you believe it should be one large project or do 
you think we can have several smaller versions?
    Answer. I would like an opportunity to review this issue further 
before making this determination.
    Question 137. The development of the ethanol industry is an 
important issue in the Great Plains. The job development associated 
with replacing 25% of the oil we consume today with ethanol is 
considered to be ``tens of billions of dollars and create 750,000 
jobs.'' Additionally, since we first considered a Renewable Fuels 
Standard (RFS), there have been increases in the production of ethanol 
and some feel that the RFS contained in the comprehensive energy bill 
is outdated.
    As you develop the nation's energy policy how would you aid the 
development of ethanol?
    Answer. As you know, the Administration fully supports the 
Renewable Fuels Standard and tax incentives designed to aid the 
development of ethanol and biodiesel. The dramatic growth in ethanol 
and biodiesel production and use under this Administration is an 
indication that our policies are working.
    Question 138. Do you believe the RFS provided in the comprehensive 
energy bill needs to be modified to accurately reflect the increased 
production of ethanol in this country?
    Answer. This is an issue that I would review if confirmed.
    Question 139. Can an increase in the use of ethanol curb our 
dependency on foreign oil?
    Answer. While it cannot fully eliminate our dependence on foreign 
oil, it can certainly make a positive contribution.
    Question 140. I support expanding the involvement of colleges and 
universities in looking for new technologies to increase and expand our 
energy portfolio. I have been pushing an effort by Bismarck State 
College to become a Center of Excellence for training power plant 
operators. I have also supported EERC's efforts in developing new and 
innovative energy technology programs. From coal to hydrogen, I believe 
colleges and universities can play a significant role in diversifying 
our energy portfolio.
    As a former academic, do you support DOE and the national 
laboratories reaching out to rural areas and partnering with 
educational institutions to help solve the types of energy problems we 
are facing today?
    Answer. Yes. I believe it is extremely important for the DOE 
laboratories to reach out to academic institutions all across the 
United States. Universities provide access to the nation's largest 
scientific talent pool and to the next-generation of scientists. 
Development of the workforce through the support of faculty, graduate 
students working toward doctoral degrees, and postdoctoral associates 
developing their research and management skills is a high priority. Of 
course, I am not yet familiar with the specifics of the interaction 
between our national laboratories and the university community, but I 
agree that these interactions are of great benefit to both sides.
    Question 141. The Western Area Power Administration (WAPA) is 
vitally important to my constituents and many others who depend on the 
federal hydropower to meet their power needs. In the past few years 
this Administration has proposed eliminating a program called the 
purchased power and wheeling program. This program allows the Power 
Marketing Administrations to purchase power for preference customers 
when the reservoirs are low and to pay for the delivery of power over 
non-federal transmission lines. I've fought to retain this program 
because the PMAs have an obligation to meet contracts, and it makes no 
sense to tie their hands behind their back. This program is also no 
cost because the customers pay it back.
    As the Secretary of Energy I hope you will see the value of the 
federal power program and discourage any attempts to undermine it.
    Answer. I support the Power Marketing Administrations, but have not 
been briefed on any budget proposals for the next fiscal year and, 
therefore, I cannot offer you insights into what level of funding may 
be proposed for any particular program.
    Question 142. In my region of the United States, the Western Area 
Power Administration (WAPA) is a very important part our communities 
and the economic lifeblood of the entire region. They distribute low-
cost, nonpolluting, renewable hydroelectric power to consumer-owned 
utilities from the federal main stem dams on the Missouri River, and 
support our farmers, ranchers and small communities. They operate an 
extremely reliable system. Support for the power marketing 
administrations has been strongly bipartisan, and especially so in the 
Missouri River Basin. We have two major concerns:

  <bullet> We want to make sure that you and the Department will 
        continue to support WAPA and the other federal power marketing 
        administrations; and
  <bullet> Will support federal appropriations for important system 
        upgrades to ensure that reliability in a very difficult 
        climate.

    What are your views regarding these two concerns?
    Answer. If confirmed, I will continue to support WAPA and will work 
with you and other Members to ensure appropriate investments in system 
upgrades.
    Question 143. We are very concerned about electricity restructuring 
in my region. The intent of state and federal actions in this area 
during the past 10+ years was apparently to reduce costs in regions 
with high electricity costs. This hasn't worked. States that have acted 
have expressed buyer's remorse, because costs have gone up. Evidence 
thus far indicates that the creation of Independent System Operators 
and Regional Transmission Organizations has actually increased regional 
costs in lower cost areas, while not reducing costs significantly in 
higher cost areas. I am from a relatively low-cost region, and I do not 
want consumers in my area to experience higher costs.
    What are your plans for examining this significant problem, 
especially in light of your stewardship of the power marketing 
administrations, relationship with the Federal Energy Regulatory 
Commission, and the pendency of national energy legislation?
    Answer. I am committed to working with this Committee to develop an 
approach to stimulate investment in the grid that takes into 
consideration the fact that some parts of the country are regulated 
while others are not; that some areas have a more reliable network for 
delivery than others; and, that some markets have more expensive power 
than others. If confirmed, I would use the tools at my disposal to 
support our objectives.
    Question 144. We import nearly 60 percent of our oil and most of 
this comes from very troubled parts of the world. The rise in oil 
prices over the last several years has shown that we cannot simply 
``dig and drill'' our way out of our reliance on petroleum products. We 
need a more focused and realistic approach and I do not believe 
drilling in ANWR is the answer.
    Putting pressure on OPEC to keep production levels high and 
maintaining its current pricing scheme in the $22 to $28 range, 
implementing efficiency measures, and ensuring the U.S. takes advantage 
of higher oil prices instead of filling the SPR are some of the common-
sense, little things we can do. But, we also need to focus on more 
broad, long-term measures to address our oil dependence.
    What are your thoughts about filling the SPR instead of putting 
this oil on the market?
    Answer. In November 2001, the President directed DOE to fill the 
SPR to capacity using royalty-in-kind oil from government leases. The 
President has stated repeatedly that the Strategic Petroleum Reserve 
should only be used in the event of a major supply disruption. If 
confirmed, I will support the President and the implementation of this 
policy.
    Question 145. Don't you think this excess oil, if put on the 
market, could (1) stabilize prices and (2) provide additional revenues 
in a time of unprecedented budget deficits?
    Answer. The President has stated repeatedly that the Strategic 
Petroleum Reserve should only be used in the event of a major supply 
disruption, not as a means to manipulate the market. If confirmed, I 
will support the President and the implementation of this policy.
    Question 146. What do you think the role of the DOE Secretary 
should be in curbing our dependence on foreign sources of oil?
    Answer. I believe that the role is one of policy leadership for the 
Administration. If confirmed, I will work for the continued development 
of programs like the President's FreedomCAR and Hydrogen Fuel 
Initiatives and the energy efficiency and renewable energy programs 
currently engaged by the Department.
    Question 147. Saving energy is as important to meeting our energy 
needs as producing it. In fact energy efficiency is our greatest energy 
resource--the Alliance to Save Energy has found that we save more 
energy each year due to energy efficiency over the last three decades 
than we produce from oil, coal, or any single energy source.
    What do you see as the role of energy efficiency in a national 
energy policy, and what policies would you use to fulfill the potential 
of energy efficiency to meet our national energy needs?
    Answer. Energy efficiency is generally the quickest and least 
expensive method of balancing energy supply and demand, so we should 
and we will use conservation and energy efficiency efforts as part of 
our balanced energy strategy. Markets and consumers naturally look to 
achieve greater levels of efficiency even without help, but the 
Department of Energy assists using a variety of methods designed to 
help markets and consumers choose energy efficiency. Should I be 
confirmed, I would expect to continue to advance effective methods of 
promoting energy efficiency.
    Question 148. High natural gas prices are forcing factories to shut 
down and low-income homeowners to abandon their homes. Back in 2003, 
the National Petroleum Council concluded, in a report requested by 
Secretary Abraham, that traditional natural gas sources will not be 
able to meet projected demand, and that ``greater energy efficiency and 
conservation are vital near-term and long-term mechanisms for 
moderating price levels and reducing volatility.'' Yet funding for DOE 
energy efficiency programs has been cut three years in a row.
    Will you support increased funding for DOE energy efficiency 
programs to help bring natural gas supply and demand back into balance?
    Answer. Energy efficiency has enjoyed strong budgetary support 
under President Bush's leadership. It is my hope that we can continue 
this support. We do hope to achieve better results going forward, and 
that will by my goal should I be confirmed.
    Question 149. Many DOE efficiency programs on buildings, industry, 
distributed energy and other areas affect natural gas use--how will you 
ensure coordination of these programs to respond to national needs?
    Answer. I am informed that most of these programs are currently 
managed under a single Deputy Assistant Secretary for Technology 
Development in the Office of Energy Efficiency and Renewable Energy to 
ensure effective coordination and integration. I will review the 
current situation and recommend improvements as needed.
    Question 150. One of the best ways to save natural gas is through a 
strong furnace efficiency standard. But DOE in a recent preliminary 
rulemaking, argued with little evidence that it cannot set a higher 
standard for furnaces in colder climates, where better furnaces make 
the most sense.
    Will you take another look at this issue before the draft rule 
comes out, in order to maximize the cost-effective reduction in natural 
gas demand?
    Answer. If confirmed, I would be pleased to do so.
    Question 151. The Department of Commerce's ``Manufacturing in 
America'' report last January made a number of recommendations for 
improving the economic conditions for manufacturing, so we can stem the 
flow of good jobs going overseas. The Industrial Best Practices program 
and other programs are designed to reduce costs by reducing wasted fuel 
and emissions, as well as to improve worker skills and workplace 
safety.
    Will you help DOE strengthen the Industrial programs and assist in 
meeting the recommendations of the Commerce Department's report? Are 
the major proposed cuts to the Industries of the Future programs 
consistent with the goal of helping U.S. manufacturers?
    Answer. I intend to familiarize myself with the report's 
implications for our nation's energy sector. I, like this 
Administration, am always interested in providing the best opportunity 
for American business to succeed and will work to make sure our efforts 
recognize the needs of all sectors of the American economy.
    Question 152. As you know, in May of last year, Secretary Abraham 
launched the Global Threat Reduction Initiative (GTRI) which integrates 
a number of programs concerned with securing or removing nuclear 
materials from facilities around the world. I've been very pleased with 
the progress that was made during the first term and hope that the 
program continues to receive full funding.
    In your new role at the Department, will you continue to support 
this important initiative?
    Answer. Yes.
    Question 153. In light of the President's campaign promise to have 
sites secured by the end of 2008, will he be requesting additional 
funds this year for the GTRI program?
    Answer. In my capacity as Deputy Secretary of Treasury, I am not 
familiar with any of the provisions of the Department of Energy's FY06 
budget and am unable to answer the question. If confirmed, however, I 
will review the budget situation and work to continue this program.
    Question 154. More than 180,000 megawatts of new natural gas-fired 
units have been permitted or constructed since 2000. This capacity was 
added in anticipation of forecasted natural gas supplies that never 
materialized and at wellhead prices well below current and projected 
markets. Now much of this newly constructed capacity is idle or 
operating well below design parameters. Providing financial incentives 
to support the conversion of these NGCC units to IGCC would have the 
added benefit of reducing both the cost and reliability issues that 
have to date prevented the commercial use of IGCC technologies.
    Has the Administration considered proposals to provide federal 
financial incentives to ``refuel'' some of these existing, but 
underutilized, natural gas combined cycle (NGCC) units with Integrated 
Gasification Combined Cycle (IGCC) technology and would the 
Administration support this effort to reduce the demand on natural gas 
for electricity generation by using our nation's abundant coal 
resources?
    Answer. I will have to look more carefully at the possibility of 
using federal incentives to support the conversion of natural gas 
combined cycle units to integrated gasification combined cycle 
technology. If confirmed, I would look forward to investigating this 
thoroughly and working with you.
                      Questions From Senator Wyden
    Question 155. The continued economic viability of the Klamath Basin 
agricultural community is a matter of great importance to Southern 
Oregon. PacifiCorp's hydroelectric facilities in the basin are 
currently undergoing relicensing proceedings before the Federal Energy 
Regulatory Commission (FERC). PacifiCorp has proposed raising the power 
rate 10 to 20 times over the current rate which was a term of the 1956 
license. When the Bureau of Reclamation's (Reclamation) Klamath Project 
was authorized, Reclamation was given water rights for irrigation and 
electrical power generation with Klamath River waters. In lieu of 
Reclamation building power, the generation for Klamath Project 
irrigation and drainage purposes, the predecessors of Pacific Power, a 
subsidiary of Scottish Power, entered into agreement with the United 
States to provide power at a negotiated rate, in exchange for the use 
of rights reserved by Reclamation for that generating capacity. That 
agreement is a condition of the current utility's FERC license, which 
is in the process of renewal. Is there anything that the Department of 
Energy can do to help ensure that the Klamath Basin agricultural 
community can continue to have the affordable power rates the community 
needs for its economic viability?
    Answer. As you know, FERC functions independently of the rest of 
DOE. However, the Secretary does have certain authorities to 
participate in FERC proceedings and propose policies for FERC's 
consideration. If confirmed, I would be happy to look further into the 
concerns of your constituents in the Klamath Basin agricultural 
community and would look forward to working with you in this regard.
    Question 156. If so, please answer the three additional questions 
below. If not, what other agency or department of the Federal 
government may be able to assist the community in continuing to receive 
affordable power?
    Answer. As stated above, I would be happy to work with you to 
explore assistance that DOE may be able to provide.
    Question 157. Is there any reason that the United States should not 
continue receiving consideration from the utility through conditioning 
of the FERC license?
    Answer. Senator, I will need to look more closely at the issues 
surrounding the license renewal.
    Question 158. Water supply issues are critical in the Klamath 
Basin. Irrigation water conservation has an energy component and that 
wildlife and endangered species rely on that conserved water. Is it in 
the best interest of the United States to see that energy for 
irrigation water conservation remains affordable in the Klamath Basin?
    Answer. Yes.
    Question 159. The United States has invested over $50 million in 
Klamath Basin U.S. Department of Agriculture's Environmental Quality 
Implementation Programs (EQIP) alone since 2002. This does not include 
additional substantial long-term federal investments in Wetland Reserve 
and U.S. Fish and Wildlife Service refuge management efforts that rely 
on pumped water. Is it in the best interest of the United States to 
protect the public's long term investment in Klamath Basin wetlands and 
refuges through continued, affordable power?
    Answer. Yes.
                    Questions From Senator Landrieu
    Question 160. Mr. Bodman one of DOE's core missions is to ensure a 
diversified portfolio of energy supply so that demand and supply are 
balanced. As the new Secretary of Energy what will you do 
programmatically to immediately address: a) the need for more 
diversified energy sources and b) the current and projected inequities 
in the natural gas supply and demand equation?
    Answer. Senator Landrieu, you have raised a point which is central 
to the mission of DOE. One of our most important priorities will be to 
continue to develop new sources of energy and promote a wide array of 
energy sources for our country. As I mentioned at the hearing, in 
meeting with Members of this Committee I have found great enthusiasm 
about taking up a comprehensive energy policy bill, and this is one of 
the most important steps we can take to further diversify our energy 
portfolio. I believe the Bush Administration should get good marks for 
having proposed a balanced portfolio, whether it's developing supply on 
the one hand or greater efficiency on the other. If confirmed, I would 
look forward to working with you and your colleagues to enact polices 
which will further diversify our nation's supply of energy.
    The second part of your question concerns the supply and demand of 
natural gas. Conservation and efficiency measures must be pursued. 
Certainly we must also consider policies which will allow greater 
exploitation of this resource, such as moving forward with 
implementation of the Alaska natural gas pipeline. As you are well 
aware, the combination of higher natural gas prices, rising natural gas 
demand, and lower LNG production costs is setting the stage for 
increased LNG trade in the years ahead. This will also help to address 
the need.
    Question 161. States that have mineral production on federal lands 
within their boundaries receive 50% of the revenues generated from that 
production. These funds are distributed annually as an entitlement and 
are not subject to appropriation. However, there is no similar 
provision in law for coastal producing states for the federal oil and 
gas revenues generated on the Outer Continental Shelf (OCS) off of 
their coasts.
    Answer. I understand this issue is very important to states such as 
Louisiana that host a significant share of the infrastructure that 
support our offshore oil and natural gas production. If confirmed, I 
would be happy to look into this issue.
    Question 162. Are you aware of this inequity and if so do you think 
that coastal producing states should receive a portion of OCS revenues 
for serving as the platform for the development of significant natural 
resources as well as revenues for the country?
    Answer. I understand the importance of this issue to you and would 
be happy to look into it if I am confirmed.
    Question 163. Do you think coastal producing states should be 
compensated for the onshore impacts that occur as a result of this 
federal activity?
    Answer. All of the Outer Continental Shelf issues are matters I 
intend to evaluate and discuss with you further if I am confirmed.
    Question 164. In light of the President's supporting remarks for 
advanced nuclear power in the Wall Street Journal on January 10, 2005 
what do you think is the best means of incentivizing nuclear power? And 
do you intend to continue to fund the Clean Coal technology 
Demonstration and Research and Development at the current levels?
    Answer. I understand DOE is implementing a number of programs 
designed to grow the use of nuclear energy. These include the 
development of new and extremely efficient reactor designs, a concerted 
effort to jump start the licensing of a new facility, and the 
President's decision to support the Yucca Mountain Project. The 
importance of adding new nuclear generation may merit additional 
incentives and, if confirmed, I expect to review all reasonable 
proposals.
    Coal is the dominant source of our electric energy in this country 
and will be for the foreseeable future. The Administration has 
proposed--and the Department has pursued--a number of initiatives with 
respect to coal, the so-called Clean Coal Power Initiatives (CCPI). 
Public private partnerships such as the CCPI are central to the 
strategy of this Department, and, if confirmed, I would expect to 
continue CCPI in the years ahead.
    Question 165. How do you intend to accelerate the clean-up and 
closure of the remaining High Level Waste (HLW) tanks and the HLW that 
they contain thereby reducing the risks to our nation's water supply?
    Answer. The remediation of liquid radioactive waste stored in aging 
underground tanks is by far the greatest environmental challenge facing 
the Department of Energy. It is my understanding that the Department's 
current accelerated cleanup effort has resulted in reducing the 
expected cleanup completion time by 35 years and a reduction in life-
cycle cleanup costs of $50 billion. If confirmed, I intend to learn 
more about this very important issue and I would be happy to discuss it 
with you further.
    Question 166. As you know the U.S. Government has been funding 
Superconductivity research in partnership with U.S. industry since the 
1980's. It has been the hope for decades that U.S. companies would 
pioneer these new technologies and create businesses in the U.S., 
creating thousands of new jobs.
    However, the insufficient research dollars that have been committed 
to new technologies pose significant entry barriers for potential 
commercialization. In fact, many foreign governments around the globe 
have surpassed the U.S. in superconductivity research dollars.
    How do you see the transition of superconductivity from Research 
and Development to commercial applications evolving, particularly at a 
time that our electrical transmission grid demands modernization?
    Answer. I understand that the Office of Electric Transmission and 
Distribution, responsible for superconductivity research, has not 
received the funding amounts for superconductivity research that has 
been sought in the President's budget. If I am confirmed, I will be 
pleased to work with you to ensure that the programs aimed at 
commercializing such technologies are appropriately funded.
    Question 167. Do you support the President's view for the 
modernization of America's electrical transmission grid and the 
critical role to be played by superconductive transmission cables in 
this effort as outlined in the National Electric Delivery Technologies 
Roadmap report released last year?
    Answer. I support the President's view. I am not familiar with the 
report referenced but I recognize the importance of our efforts to 
modernize the nation's transmission grid with new technologies such as 
superconductivity.
    Question 168. The President says that climate change is a serious 
issue and that the Administration is committed to a strategy of 
developing new energy sources as one of its principal responses.
    In many ways, though, Climate Change Technology Program, the 
President's interagency task force is not nearly as well organized as 
the analogous program of scientific research, the Climate Change 
Science Program. For example:

  <bullet> CCTP is not grounded in unified authorizing legislation.
  <bullet> There is no periodic reporting schedule to allow Congress 
        and others to assess progress.
  <bullet> There is no full time staff tasked with coordinating the 
        multi-agency effort.
  <bullet> The administration, despite earlier promises that a 
        strategic plan would be forthcoming, has never produced one or 
        at least has not released it to the congress public and the 
        relevant research communities.

    Do you intend to correct these management gaps in CCTP? If so, 
could you indicate to us in what timeframe might we expect to see 
action?
    Answer. As the former co-chair of the interagency working group on 
climate change science and technology integration, I am well aware of 
the challenges facing the CCTP. If confirmed, I will work diligently to 
address those challenges.
    Question 169. British Prime Minister Tony Blair has announced that 
one focal point of the G-8 session scheduled for later this year will 
be approaches to increasing international cooperation of the 
development of climate friendly technologies. Given President Bush's 
emphasis on improving U.S./European relations, what changes could be 
made to the Climate Change Technology Program before the G-8 summit to 
increase international cooperation?
    Answer. The UK is a partner with the U.S. in our major multilateral 
climate change technology initiatives. If confirmed, I will seek to 
broaden and strengthen that relationship.
    Question 170. Although the Administration has engaged in a number 
of cooperative international R&D agreements, it has not so far offered 
to seek increased U.S. expenditures on climate related R&D if other 
major nations would make comparable spending increases. On its face, 
such a pledge and review approach could greatly leverage the impact of 
U.S. expenditures in developing new climate friendly energy sources. 
What is you reaction to linking U.S. R&D increases to those in Europe, 
Japan, and elsewhere?
    Answer. Due to the fact that climate related R&D is within the 
purview of several agencies, and that the final decisions on U.S. 
expenditures in this area rest with Congress, I would not favor linkage 
between funding levels and decisions made in other nations as DOE 
policy.
    Question 171. In both NASA and DOD, inducement prizes are used to 
encourage technological innovation. A workshop of the National Academy 
of Science recommended that this approach supplement more conventional 
grant and contract arrangements. How would you feel about exploring the 
use of inducement prizes as an incentive for scientific and 
technological innovation in DOE? What plans does DOE have for 
evaluating such a concept?
    Answer. I am not yet familiar with the recommendations from this 
workshop or any plans at the Department to use inducement prizes as 
incentives for scientific innovation.
    Question 172. Are there any obstacles to DOE establishing 
inducement prizes?
    Answer. Because I am not yet familiar with the Department's plan in 
this area I cannot speak to any particular obstacles the Department is 
facing in this area.
                    Questions From Senator Feinstein
    Question 173. Do you anticipate the Department requesting funding 
for the National Ignition Facility in accord with the revised project 
baseline in Fiscal Year 2006 and beyond?
    Answer. At this time, I cannot comment on the FY '06 budget 
request. However, it is my understanding that the Department has been a 
strong supporter of the National Ignition Facility.
    Question 174. Do you plan to request funding for these programs in 
the Fiscal Year 2006 request? Do you believe that the nuclear bunker 
buster program should be moved into defense appropriations budget?
    Answer. I have not been briefed on the FY '06 budget request. With 
regard to moving the Robust Nuclear Earth Penetrator (RNEP) study 
funding to the defense appropriations budget, I am not yet familiar 
enough with the budget to respond. As we discussed at the confirmation 
hearing, your passion on this subject is well known and, if confirmed, 
I would be happy to visit with you as soon as I have learned the 
particulars of the issue.
    Question 175. Do you believe we need a new plutonium pit 
manufacturing plant capable of producing at Cold War levels? When will 
the final Environmental Impact Statement be released? Do you favor a 
particular site for the MPF?
    Answer. I am aware that there is an ongoing process for deciding if 
we should proceed with building a Modern Pit Facility but it would be 
premature for me to comment on the timing of any decision or location 
of such a facility.
    Question 176. The November 2004 National Nuclear Security 
Administration (NNSA) Strategic Plan states under ``Design, develop, 
and produce a new warhead: Our goal is to be able to design, develop, 
and begin production of a new warhead within 3-4 years of a decision to 
do so.'' (Page 20, http://www.nnsa.doe.gov).
    To what extent do you think that goal could undermine our Nation's 
ability to persuade other countries not to pursue their own weapons of 
mass destruction?
    Answer. The U.S. nuclear weapons complex needs to ensure the 
safety, security and reliability of the stockpile. This includes the 
capability to meet emerging threats and to address any unforeseen 
reliability concerns in the stockpile. These activities should not 
encourage proliferation by other nations but rather reinforce the 
desire of the United States to maintain a credible deterrent.
    Question 177. The same paragraph in the NNSA Strategic Plan says 
``While there are no current plans to develop and produce new weapons, 
regaining the capability is an important prerequisite for additional 
reductions in the nuclear stockpile.'' In your view, to what degree is 
regaining the capability to develop and produce new weapons directly 
linked to future arsenal reductions? Do you regard it as an absolute 
requirement? If so, how might that discourage other countries from 
reducing their stockpiles?
    Answer. The United States is committed to reducing the size of its 
stockpile. We must be assured that the nuclear weapons complex has the 
tools to meet present and future challenges to our national security. 
It is necessary that we provide a credible nuclear deterrent in a 
rapidly changing world.
    Plutonium disposition is a core element of tie Administration's 
nonproliferation program, yet over $700 million has been appropriated 
over the last two years for the Mixed-Oxide Fuel Fabrication Facility 
which is not being spent because of a hold up in the program due to 
liability issues and the failure of Russia to move forward with their 
parallel program.
    Furthermore, DOE's June 2004 report on plutonium storage at the 
Savannah River Site indicated that 13 tons of plutonium, of the 34 tons 
planned for disposition, are too impure for the MOX process.
    Question 178. Do you foresee any modification to the U.S.'s 
position on the NPT, such as revoking the ``unequivocal commitment'' to 
undertake practical disarmament steps made by the Clinton 
Administration at the 2000 NPT Review Conference?
    Answer. I am not in a position at this time to comment on this 
treaty.
    Question 179. What is the end state for the 6,000 to 8,000 weapons 
that will no longer be operationally deployed?
    Answer. I have not yet seen the classified details of the ongoing 
stockpile reductions. I do understand that the National Nuclear 
Security Administration and the Department of Defense have begun 
working on how to deal with weapons no longer needed for the stockpile.
                    Questions From Senator Cantwell
    Question 180. When we met, we informally discussed the challenges 
the Northwest faces with respect to electricity rates and our efforts 
to deal with the aftermath of the Western energy crisis of 2000-2001. I 
know you recognize the sad fact that the Northwest is far from out of 
the woods on the rates crisis.
    Obviously, the Western market meltdown has had a profound impact on 
my state's economy, the pocketbooks and economic well-being of my 
constituents--too many of whom have had to make the choice between 
keeping their heat and lights on and buying food, paying rent, and 
purchasing prescription drugs. In some parts of Washington State, 
utility disconnection rates have risen more than 40 percent.
    People just cannot pay their utility bills. So you can imagine, 
what we've seen and heard since the height of the crisis--as we've 
learned about the market manipulation and fraud that took place in the 
Western market, while Enron energy traders laughed about the plight of 
``Grandma Millie''--has added tremendous insult to substantial economic 
injury. Moreover, the Western crisis has brought to the forefront a 
number of very important policy questions about the kind of behavior 
that will be tolerated in our nation's electricity markets, as the 
Federal Energy Regulatory Commission (FERC) has continued to pursue its 
``restructuring'' agenda.
    As the Secretary of Energy, you would have a very important, 
leading role--defined in the 1977 Department of Energy Organization 
Act--in guiding overall electric regulatory policy.
    As such, before I get into some of the specifics, I want to make 
sure we are on the same page when it comes to these broader principles 
and policies:
    First, do you agree that the types of schemes used by Enron 
traders--manipulation tactics with famous nicknames like Get Shorty, 
Death Star and Ricochet, many of which involved the falsification of 
data and have been deemed illegal by the Federal Energy Regulatory 
Commission (FERC)--are practices that must not be tolerated in our 
nation's electricity markets?
    Answer. Senator Cantwell, illegal market manipulation certainly 
cannot be tolerated, and we should vigorously enforce the relevant 
laws.
    Question 181. Do you also agree that, as a matter of common-sense 
policy, the victims of these schemes should not have to pay the 
inflated power prices resulting from market manipulation?
    Answer. We must take appropriate action to protect consumers 
against the effects of illegal market manipulation.
    Question 182. Do you also agree that this principle is even more 
important in instances in which the company perpetrating these schemes 
has done so while providing false information to federal regulators, 
making it impossible for those regulators to ensure markets are 
functioning properly?
    Answer. Any form of market manipulation, including providing false 
information to regulators as you have described, is intolerable and we 
should vigorously enforce the relevant laws. As you know, FERC and/or 
the courts have the authority to review such cases and make appropriate 
judgments.
    Question 183. I particularly want to ask you your views about 
instances where the company perpetrating these schemes has frustrated 
the efforts of regulators and parties trying to find the truth about 
the depth of its deceptions, failing to turn over relevant evidence in 
a timely fashion. Do you believe that, as a matter of national energy 
policy, a company like that should still be allowed to reap the profits 
of its market manipulation schemes?
    Answer. As I am not aware of all the details of current 
allegations, I cannot comment at this time but I would reassert that I 
agree that regulatory authorities should act appropriately to protect 
consumers against unscrupulous or illegal conduct.
    Question 184. Sadly, the theoretical situation I outlined in my 
first question is not theoretical at all. It's the situation that has 
been unfolding at FERC for the past few years. Not only are Western 
parties trying to recover some small fraction of the money they lost to 
Enron as a result of its unscrupulous trading practices, they are 
trying to avoid paying even more. Right now, Enron is claiming 
utilities in Washington state and Nevada alone owe about a half billion 
dollars more--for power Enron never even delivered. You can understand 
just how outrageous this seems to my constituents, who are already 
struggling to pay their power bills.
    Unfortunately, justice delayed is justice denied for Enron's 
victims. It has literally been years now, in which the ratepayers of my 
state--who have already suffered enough--have been waiting for the 
other shoe to drop.
    My understanding is that the Secretary of Energy has, under the DOE 
Organization Act, substantial discretion to intervene in matters 
pending before the Commission. There is also substantial precedent, as 
both Secretaries Richardson and Abraham have involved themselves in 
various ways in matters before FERC. I can understand why. I imagine 
that any Secretary would have a considerable interest in doing so, in 
ensuring that regulatory matters are being handled in a manner 
consistent with national energy policy. I hope that you agree that what 
I've outlined above--the scenario in which Enron is allowed to collect 
money for power never delivered, at outrageous rates resulting from 
market manipulation--is not in the public interest, and is not the 
energy policy endorsed by this Administration.
    Will you commit to me that, if confirmed as Secretary, you would 
use your authority and intervene with FERC to prevent ENRON from 
collecting these so-called ``termination payments'' which harm Western 
consumers?
    Answer. Senator Cantwell, under section 405 of the DOE Organization 
Act, the Secretary of Energy has the ability to intervene, as of right, 
in proceedings before FERC. It is my understanding that there currently 
are matters pending before FERC, as well as in the courts, relating to 
Enron, and that some of those matters have been going on for several 
months or years. If confirmed, I will look into the matter and evaluate 
whether it would be appropriate for DOE to intervene at this point in 
those proceedings at FERC.
    Question 185. In our previous meeting we also had the opportunity 
to discuss the importance of Hanford cleanup to the people of 
Washington State and the Pacific Northwest as a whole. It's also my 
belief that cleaning up the legacy of our defense efforts must be high 
on our list of national priorities. Cleanup suffers, however, when 
relationships between the states and DOE, the Congressional delegation 
and other stakeholders are damaged by the bad faith actions of one of 
the parties.
    I know you are aware of what happened last year, when DOE-authored 
language was inserted into the Fiscal Year 2005 Defense Authorization 
bill, behind closed doors, in a Committee that is not the rightful 
forum for debate on the issue of high-level nuclear waste and how it 
should be treated and disposed of.
    This legislative end-run was viewed by myself and Sen. Murray, as 
well as the State of Washington and many of our constituents, as an 
ill-considered attempt to take short-cuts at Hanford.
    Will you ensure that the DOE will not attempt a similar legislative 
end-run around the State of Washington and its Congressional delegation 
on the issue of high-level waste reclassification, during your tenure 
as the Secretary of Energy?
    Answer. Senator, I appreciated the opportunity to meet with you to 
hear your views about the Hanford cleanup. I agree with you on the 
importance of cleaning up the Hanford site in a manner that is 
protective of human health and the environment. The remediation of 
liquid radioactive waste stored in aging underground tanks in 
Washington, Idaho and South Carolina is by far the greatest 
environmental challenge facing the Department of Energy. It is my 
understanding that the legislation that was enacted in the last 
Congress only affects the Department's sites in South Carolina and 
Idaho. If confirmed, I can assure you that the Department will consult 
with you and the State of Washington on the cleanup of tank waste.
    Question 186. Among the biggest challenges at Hanford is the 
cleanup of 53 million gallons of nuclear waste, contained in 177 tanks 
within 7 miles of the Columbia River. Already, some 67 tanks have 
leaked an estimated one million gallons of this waste into the ground. 
Retrieving and disposing of the waste in these tanks is one of the most 
challenging--yet crucial--components of successful Hanford cleanup. The 
TriParty Agreement lays out the terms of the relationship between the 
State of Washington and federal government when it comes to cleanup. In 
the view of the State of Washington, the agreement vests DOE with the 
responsibility of retrieving and cleaning up ``everything that is 
technically feasible but no less than 99 percent'' of the waste in 
these tanks.
    As Secretary of Energy, will you commit to abide by this 
requirement of the TriParty Agreement?
    Answer. The Department will abide by the terms of the TriParty 
Agreement.
    Question 187. As you may know, this Administration's previous 
budgets have proposed withholding certain cleanup funds until DOE has 
secured what it views to be favorable outcomes in pending litigation or 
legislation. This has been widely viewed by many as blackmail, with the 
purpose of getting the State of Washington to back-down on its cleanup 
requirements at Hanford.
    Will you commit to me that, as Secretary, you will not use these 
same tactics?
    Answer. Senator, I am unaware of the situation you describe. If 
confirmed, I intend to review the accelerated cleanup program and I 
would be happy to meet with you and discuss this further.
    Question 188. More generally, are you committed to working 
collaboratively with Washington State regulators, the affected 
communities' and workers' representatives, and the members of the 
Washington State Congressional delegation to ensure that the cleanup is 
fully funded and completed as soon as possible--in a manner that 
ensures the equal protection of the workers, the public, and the 
environment?
    Answer. Senator, I believe that it is important for the Department 
to work cooperatively with the congressional delegations that represent 
the DOE sites, as well as with the State regulators, the local 
community and the workers' representatives. If confirmed, I would 
expect this practice to be carried out.
    Question 189. Last year, the National Institute of Occupational 
Safety and Health (NIOSH) and DOE conducted audits at the Hanford 
nuclear site on the issue of worker health and safety. Both NIOSH and 
DOE came up with a long list of recommendations and corrective actions. 
Many improvements have been made. But I also want to ensure that DOE, 
as a matter of policy, is doing its job in ensuring adequate health and 
safety protections on an ongoing basis.
    As Secretary, what procedures will you put in place to assure that 
the Department continues to improve its health and safety protection 
for workers at sites like Hanford?
    Answer. The safety of the Department's workers will be a top 
priority for me if confirmed. I will review the safety procedures and 
determine whether additional measures are needed.
    Question 190. Many major DOE procurement decisions are being 
challenged and overturned. What will you do to improve the quality, 
fairness, timeliness, and success of the DOE procurement process?
    Answer. Offerors that are not awarded contracts have the right to 
protest the contract award and other decisions to the Government 
Accountability Office. It is my understanding that, on a relative 
basis, very few protests are filed against DOE award decisions. If 
confirmed, I will ensure that DOE has appropriate standards, systems 
and quality controls in place to guard against irregularities in the 
contracting process.
    Question 191. Another major concern on the part of many of my 
constituents is whether DOE is implementing the President's directive 
to increase government procurements with small business.
    What will you do to improve and expand DOE procurements that 
benefit small businesses, particularly those based in the local 
communities most affected by contamination and which will suffer severe 
economic impacts when cleanup is done if local, sustainable businesses 
are not developed?
    Answer. If confirmed, I would fully support the President's policy 
of increasing government procurements with small businesses.
    Question 192. Will you support efforts to expedite evaluations of 
procurement involving local small businesses--particularly since 
extended delays are especially harmful to small companies that do not 
have the resources to keep teams mobilized?
    Answer. It would be my intent, if confirmed, to review all of the 
issues surrounding small business procurement and I would be happy at 
the appropriate time to meet with you to discuss the matter further.
    Question 193. DOE has made a major commitment to the Hanford 
Vitrification Project. The Defense Board and others have raised 
questions about the safety of the design and prospect for cost 
increases and schedule slippage. Given the supreme importance of this 
project to the future of Hanford cleanup, what do you propose to ensure 
that this facility stays on track? Is there some value in an 
independent review?
    Answer. Senator, I appreciated the opportunity to discuss this 
issue with you during our recent meeting. I understand the importance 
of the Hanford cleanup and I share your view that the cleanup must 
proceed in a timely, efficient manner that is protective of human 
health and the environment. If confirmed, I will review the Hanford 
Vitrification Project and would welcome an opportunity to meet with you 
again to discuss this project further.
    Question 194. The Volpentest HAMMER Training and Education Center 
at Hanford was built by DOE to ensure the health and safety of Hanford 
cleanup workers and emergency responders. HAMMER's unique hands-on 
``Training as Real as It Gets'' is essential to the safe, cost-
effective, and successful completion of Hanford cleanup. Further, as 
the cleanup workforce decreases, more of HAMMER's capabilities will 
become available for other DOE missions, such as energy assurance and 
hydrogen safety, and for training law enforcement, security, emergency 
response, and other homeland security-related personnel.
    Will you ensure that DOE continues to fully utilize HAMMER to 
protect the safety and health of Hanford cleanup workers? Will you 
support the development of new DOE training missions at HAMMER? Will 
you help with the Department of Homeland Security and other agencies to 
develop, expand, and support other training missions at HAMMER?
    Answer. Senator, I am not familiar with this issue. If confirmed, I 
would review this matter and I would be happy to report to you my 
thoughts on HAMMER.
    Question 195. When DOE recompetes its major site contracts for 
complex cleanup projects, the process often takes up to two years with 
extensive worker and community anxiety. Then, it may take up to another 
two years for the new contractor management team to get up to speed 
fully with subsequent impacts on the projects, workers, and 
communities. None of this is good for DOE, the workers, or the 
communities.
    Will you consult to the extent allowed by law with the affected 
workers' and communities' representatives before a recompete decision 
is made, to determine the best course of action?
    Answer. Generally, when the government considers contract 
competition it uses an extensive array of mechanisms to convey public 
information and obtain feedback from interested parties. If confirmed, 
I will ensure that DOE employs these mechanisms and practices to the 
maximum extent practicable.
    Question 196. Dr. Bodman, I also know you are beginning to 
understand the importance that I, and others in tie Northwest 
delegation, place on the Bonneville Power Administration and the 
policies that affect its long-term viability. BPA has for decades been 
the engine of the regional economy. As such, I am sure we'll be in 
frequent contact on many BPA related issues.
    First, I want to confirm something we've previously discussed. 
Namely, I want to ensure that you understand that the decision of 
whether BPA should join a regional transmission organization (RTO) is 
something that must be decided in the Northwest, after an inclusive 
stakeholder process that considers the real world costs and benefits of 
such a change. Can you commit to me that you will not, in your 
potential capacity as Energy Secretary, force BPA to join an RTO?
    Answer. Senator, I appreciate your bringing the issue to my 
attention and while I do not feel I am in a position to make a 
commitment at this time, I can provide assurances that I will work with 
you on this issue should I be confirmed.
    Question 197. Second, as you know, Bonneville has the statutory 
responsibility to maintain the reliability of the Northwest 
transmission system, of which it currently owns more than 75 percent. 
Interestingly, the Northwest is one of the few regions in the country 
where transmission lines are currently under construction. This is due 
to the unique way in which BPA uses borrowing authority, backed by 
Northwest ratepayers, to finance these investments. Unfortunately, the 
President's budget last year called for legislation that would tie 
Bonneville's hands, and make it virtually impossible for the agency to 
continue the transmission expansions necessary to maintain the 
reliability of the Northwest system. Under the proposal, BPA would 
exhaust its borrowing authority in 2008--well before the region can 
complete the needed transmission upgrades. Can you commit to me that as 
Secretary of Energy you will not support legislation that would impair 
BPA's ability to make these crucial investments?
    Answer. I am not familiar with the funding levels being requested 
or other proposals for the Bonneville Power Administration in the FY 
'06 budget. If confirmed, I will evaluate this matter and I would be 
happy to meet with you to discuss your concerns further.
    Question 198. For the past two years, the Pacific Northwest 
National Laboratory has been working with the Department to solve the 
issue of replacement facilities and lab space in the 300 Area of 
Hanford. The 300 Area is home to critical on-going research in science 
and national and homeland security, but the area is scheduled for 
closure by 2009 as part of the DOE accelerated cleanup program. 
Consequently, PNNL must vacate the area on a tight schedule, and 
without interrupting critical work for the DOE, NNSA, and DHS. Planning 
for these facilities has begun, but the most substantial funding needs 
lie ahead. PNNL is an enduring asset to the state and the entire 
Pacific Northwest region, and we cannot afford to come up short on this 
investment. I understand we are in a difficult budget environment, but 
I would like to seek your commitment for continued funding. Will you 
commit to keep this effort on track?
    Answer. I agree with you that the research that takes place at the 
Pacific Northwest Laboratory 300 Area is important to both science and 
homeland security issues. It is my understanding that DOE and the 
Department of Homeland Security are working cooperatively to ensure 
that a new laboratory is constructed and that the important missions at 
the laboratory go uninterrupted. If confirmed, I will review this 
matter and support it as appropriate.
    Question 199. Research and technology applications developed to 
secure America's electricity grid system are being funded by the 
Department's Office of Electricity Transmission and Distribution. Many 
entities in Washington State, including the Pacific Northwest National 
Laboratory, have formed an Alliance that is working closely with the 
Department to help bring these technologies forward. I strongly support 
the GridWise and GridWorks programs and seek your support. Do you plan 
to make research and development through these programs a top priority?
    Answer. I appreciate your support for the efforts of the Office of 
Electric Transmission and Distribution and if confirmed, look forward 
to working with you on programs like the GridWise and GridWorks 
programs.
    Question 200. As you may know, I sponsored legislation in the last 
Congress to support the Genomes to Life program at the Department of 
Energy. I strongly support an expanded program and development of 
research centers to support this goal. Last year, the Office of Science 
released a Twenty-Year Facility Outlook that included four Genomes to 
Life centers. The FY05 Energy and Water Development appropriation 
includes $10M to begin preliminary design of the first facility. Are 
you committed to fulfilling the implementation of the 20-year strategy, 
including the four GTL centers?
    Answer. I will need to familiarize myself with this 20 year 
strategy for science facilities, if I am confirmed as Secretary. But, I 
can assure you that if confirmed, maintaining a robust scientific 
infrastructure will be an important priority for me.
    Question 201. Last week, the Washington Post reported that the Bush 
administration's budget request would freeze most spending, including 
science, and slash or eliminate dozens of federal programs. In my view, 
this is a very short-sighted approach to ensuring the economic future 
of this country. In my state, for example, the DOE's Office of Science 
invests more than $135 million a year in university grants and in 
support of the Pacific Northwest National Laboratory. Can you share 
with us your commitment to science and R&D investments being made at 
the Department of Energy?
    Answer. The Department of Energy has a responsibility to maintain 
America's world leadership in Science. The Pacific Northwest National 
Laboratory certainly plays a key role in the Department's and the 
Nation's scientific enterprise and, if confirmed, I will pay very close 
attention to how we nurture that important asset in your state. While 
we pursue the President's commitment to deficit reduction, I can assure 
you that I will also work to maintain and improve upon America's 
scientific infrastructure that is the envy of the world.
                     Questions From Senator Corzine
    Question 202. Dr. Bodman, please allow me to apologize that the 
inclement weather has prevented me from attending the hearing on your 
nomination. I congratulate you on your selection by the president.
    As you may know, New Jersey has one of the nation's cleanest 
electricity-generation infrastructures. About 75 percent of our State's 
electricity comes from sources that generate little or no pollution. 
However, New Jersey suffers from poor air quality, one-third of which 
can be traced to out of state sources--coal-fired plants in 
particular--according to the Board of Public Utilities.
    Currently, my state confronts the potential retirement of one 
nuclear facility whose license expires in 2009 and seven other 
facilities, which represent 9.8% of New Jersey's peak demand. According 
to the DOE's Annual Energy Outlook, it can be expected that without 
action, the market will naturally gravitate back to construction of new 
coal-fired plants. I cannot impress on you how devastating this would 
be for New Jersey.
    My State has passed a Renewable Portfolio Standard, which mandates 
that New Jersey utilities generate 20% of their electricity from 
renewable sources by 2020. However, this does not protect New Jersey 
from the increased use of coal outside its borders. Do you agree that 
it is a pressing national concern for us to reduce the usage of high 
polluting fossil fuels, and what sort of actions do you plan to take to 
reduce use of those fuels?
    Answer. If confirmed, I will pursue a balanced strategy of 
promoting energy efficiency, renewable energy, new emissions free 
nuclear generation, as well as cleaner-burning fossil fuel plants.
    Question 203. Dr. Bodman, as you have made clear, one of your major 
goals is the opening of a federally-managed nuclear waste repository. 
While I have expressed concerns about the particular Yucca Mountain 
site, it is important to me that the spent fuel stored at New Jersey's 
nuclear plants is stored in a well-guarded location where the 
radioactive material may deplete.
    However, transporting this waste from on-site spent fuel pools at 
Oyster Creek, Salem and Indian Point will likely require the 
radioactive material to travel on rail lines through 11 of New Jersey's 
counties, and through the heart of two of its cities--Camden and 
Trenton. Considering the other week's rail disaster in South Carolina 
where 9 people died from a chlorine gas leak, what are the steps you 
will encourage the DOE and other agencies to take to ensure that the 
nation's rail infrastructure is safe enough to transport radioactive 
nuclear waste through populated regions? Furthermore, are there other 
solutions to the spent fuel issue--such as reprocessing--that you plan 
on pursuing as Secretary of Energy?
    Answer. The safe transportation of nuclear materials will be one of 
my top priorities. I understand that the transportation of nuclear 
materials has a remarkable history of success in this country and 
abroad. I appreciate your concerns about the chlorine incident, but I 
also understand that spent nuclear fuel is shipped in robust containers 
and, given the nature of the material, does not present the same 
transport risk Please be assured that, if confirmed, I will take steps 
necessary to continue the safe transport of nuclear materials.
    Relative to the second part of your question on reprocessing, if 
confirmed, it is my intention to analyze all reasonable solutions to 
the spent nuclear fuel issue.
    Question 204. In addition to mandatory standards, the nation's 
transmission grid would benefit from the increased development of 
regional transmission organizations. New Jersey's electricity 
regulators, electric utilities and consumer groups have all cited New 
Jersey's membership in the PJM grid as a critical reason our state 
avoided the worst of the blackout that created an economic and security 
scare.
    With a birds-eye view over the entire transmission network, PJM 
ensured that the disruption on its grid was contained. Furthermore, as 
part of PJM's Regional Transmission Expansion Plan, $207 million in 
electric transmission system upgrades had been completed in New Jersey 
alone by February 2004.
    The lack of coordination and investment in neighboring regions 
eventually led to the disruption of power to more than 1 million New 
Jerseyans who are on a well-maintained and well-managed grid. Can 
northeastern consumers expect to see more support from the DOE for 
FERC's efforts to expand RTOs, considering that this lesson has taught 
us how invaluable a regional transmission organization can be to our 
security, economy and public health?
    Answer. Yes.
    Question 205. Over the past four years, the Administration has 
pushed for an inventory of oil and gas resources on the outer 
continental shelf. Many coastal members of Congress were shocked to see 
such an inventory even make its way into legislation, considering that 
there are long-standing moratoria on Atlantic seaboard oil and gas 
exploration. However, it has been made clear that some members of 
Congressional leadership see opening ANWR to oil and gas leasing as a 
``precedent'' that they hope to set regarding drilling in 
environmentally sensitive areas.
    Knowing that you support opening ANWR to oil and gas exploration, 
would you support making permanent the moratorium on oil and gas 
development off the mid-Atlantic coast?
    Answer. While I am not familiar enough with the issue at this time 
to make a commitment for such action, if I am confirmed I will look 
forward to working with you and other interested parties to determine 
the best course of action in this area. I share the President's 
commitment to a moratorium for oil and gas development off the mid 
Atlantic coast through 2012.
                     Questions From Senator Salazar
    Question 206. Next month, the National Renewable Energy Laboratory 
(NREL) will break ground on the Science and Technology Facility--the 
first new research laboratory on the lab's main campus in nearly a 
decade. The new facility will house key elements of NREL's world-class 
research in hydrogen and other promising renewable energy technologies 
and will push the envelope on sustainable, energy efficient building 
design. Construction of the facility is scheduled for completion in 
early 2007. Will DOE request from Congress the final capital 
construction funds in FY 2006 to complete this critical new lab 
building to help our nation meet its future energy needs?
    Answer. It is my understanding that ground was broken for this 
facility several months ago. While I have not been briefed on the 
President's 2006 budget, I have been told that this project has been 
fully developed and approved under the provisions of both the 
Department's and OMB's guidelines for the construction of major 
projects.
    Question 207. Several of my constituents recently participated in a 
tour of the NREL facility, and I was surprised to learn that it does 
not operate around the clock, even though there is a long waiting list 
of companies hoping to use the lab's equipment to test their prototypes 
of wind turbines and other wind technology. It seems to me that a 
modest increase in NREL's budget, which would permit the facility to 
operate 24/7, would repay itself in dividends several times over. Will 
you support increased funding for R&D and other operations at DOE 
renewable labs in Colorado and elsewhere in the nation?
    Answer. If confirmed, I will be happy to explore the feasibility of 
operating the laboratory's wind test facilities on an expanded 
schedule. With respect to increased funding, future funding requests 
will depend, as you know, on a variety of factors.
    Question 208. The Department will soon complete the environmental 
cleanup of its Rocky Flats plant west of Denver. In general, the 
cleanup has progressed well. But, as at many contaminated sites being 
cleaned up across the country, some contamination will remain in the 
ground. A part of the site will be designated a National Wildlife 
Refuge. It will be necessary, therefore, to impose certain restrictions 
on land use to ensure that the remedy remains protective of human 
health.
    Because existing legal mechanisms to restrict land use are not 
adequate for this purpose, many states have adopted or are adopting 
legislation to create enforceable use restrictions, or ``institutional 
controls.'' In 2001, the Colorado Attorney General's office drafted and 
sponsored such legislation, and, with the support of the Colorado 
Department of Public Health and Environment, the General Assembly 
passed the legislation unanimously. Governor Owens signed it into law.
    Colorado's institutional control legislation enjoyed strong support 
from both industry and the environmental community, because it reduces 
cleanup costs and it makes cleanups safer and more reliable. Colorado's 
legislation served as the model for the Uniform Environmental Covenants 
Act, which is now being considered in a number of states across the 
country.
    Federal agencies were among the most outspoken supporters of the 
legislation, urging EPA and the states to rely on institutional 
controls to reduce cleanup costs. Yet, now that states are moving to 
create enforceable, effective institutional control laws, federal 
agencies, including DOE, have refused to comply with these laws. At 
Rocky Flats, for example, DOE, the State of Colorado, and EPA are in 
general agreement on the use restrictions that should apply to the 
site. But DOE has refused to put those restrictions in an environmental 
covenant, as required under state law. DOE has refused to comply with 
other states' institutional control laws as well. This refusal has 
raised serious questions about the long-term reliability of the cleanup 
now underway at DOE facilities across the country.
    Under your leadership, will the Department of Energy comply with 
state institutional control laws?
    Answer. As I stated at the confirmation hearing, I am unfamiliar 
with the specifics of this issue but would be happy to look into it and 
discuss the matter with you.
    Question 209. I strongly urge the Department to adopt a policy to 
comply with state institutional control laws. These are valid state 
laws. They enhance the safety of cleanups, and the cost of compliance 
is minimal. In my judgment, DOE is required to comply with these laws 
under the Federal Facility Compliance Act. If the Department does not 
intend to comply with state institutional control laws, then I ask that 
you provide me with a detailed legal justification for your position.
    Our nation uses more energy resources than we can produce 
domestically. The millions of barrels of oil that we import every day 
impose both economic drains on our economy and threats to our national 
security. There are two ways to attack this problem. We can produce 
more oil domestically or we can consume less oil.
    Do you agree that a policy that focuses only on increasing domestic 
production and ignores steps to reduce consumption (e.g., through 
conservation) is missing important options that could reduce our 
dependence on foreign oil, help our economy and increase our energy 
security?
    Answer. I agree. In fact, roughly half of the recommendations in 
the President's National Energy Plan pertained to energy efficiency and 
the expanded use of renewable energy.
    Question 210. Will you support the development of clean energy 
technologies and energy efficiency research within the context of the 
Department's overall energy policy?
    Answer. Yes.
    Question 211. In my view, we are a long way from tapping the 
significant untapped potential for renewable energy resources and 
increased energy efficiency. New Mexico Governor Bill Richardson 
recently stated that we should be making greater efforts to promote 
renewable energy sources in the Rocky Mountain region. Governor 
Richardson and Governor Schwarzenegger of California have taken the 
lead within the Western Governors' Association to develop a plan to 
implement that association's recently adopted resolution on clean 
energy.
    What will you do as Secretary of Energy to assist these efforts to 
augment our nation's energy portfolio with a more meaningful 
contribution from renewable energy sources, increased energy 
efficiency, and clean energy technologies?
    Answer. I am informed that representatives of the Western 
Governors' Association have recently met with top officials of the 
Department to discuss ways we might be of assistance. Should I be 
confirmed, I will be happy to engage in that dialogue as well.
    Question 212. How will you help position American firms to be 
competitive in a global economy that will increasingly be powered by 
renewable energy sources?
    Answer. I understand the new Science and Technology facility as 
well as the existing wind test facilities at NREL are unrivaled 
anywhere else in the world, and are available on a priority basis to 
American firms. Should I be confirmed, I will work to ensure that we 
continue to partner with American businesses at these facilities, to 
help ensure that they can be global technology leaders.
    Question 213. A study released last week by DOE's Lawrence Berkeley 
National Laboratory showed that national standards for energy 
efficiency and renewable energy would produce ``sizeable'' savings for 
consumers on their natural gas bills, and that associated reductions in 
the cost of natural gas would be ``effectively permanent''--with 
customer savings ranging from $10 billion to $74 billion, depending on 
the scope and rate of policy implementation. According to the DOE 
study, new power generation from wind costs about 3.5 cents per 
kilowatt hour, compared to about 4.5 cents for new coal generation and 
6 cents or more for gas-fired generation.
    I find this DOE study about energy efficiency and renewable energy 
sources encouraging. Reducing natural gas demand will also put downward 
pressure on natural gas prices. How do you propose to implement the 
findings in this DOE study?
    Answer. I have not reviewed this particular study, but I understand 
that the study validates the Department's approach in many respects. 
For example, DOE has sought to bring down the cost of wind technology 
and other renewable energy technologies, and the Department's R&D 
efforts are clearly having an impact. With regard to the broader policy 
implications of this study, I will be happy to review the study more 
closely with those implications in mind should I be confirmed.
    Question 214. What other policies would you advocate to reduce the 
demand for natural gas?
    Answer. Most of our natural gas is consumed for a variety of 
industrial, residential and commercial uses as well as for electricity 
generation. Therefore, there is no single or simple preferred approach 
to reducing demand for natural gas. However, we should continue to 
pursue our diverse portfolio of activities that promote energy 
efficiency. In addition, we should also be working to diversify our 
methods of electricity generation (including emission free sources such 
as wind and nuclear), and providing new supplies of natural gas through 
domestic exploration and production, the gas pipeline from Alaska, and 
new LNG terminals.
    I recognize that both traditional and non-traditional resources 
will play an important role in meeting the energy needs of the West and 
the country as a whole. We may need to increase our domestic production 
of oil and natural gas, and we can do that in ways that do not harm the 
environment. But some places should not be drilled because they are 
just too valuable for protection of wildlife habitat, aquatic resources 
and other special environmental, scientific and recreational values.
    Question 215. What criteria would you use to determine whether 
certain areas should be off limits to oil and gas exploration and 
development in order to protect special environmental values?
    Answer. These decisions are made generally by the Department of the 
Interior through its land management planning process and the Congress 
through its designation of wilderness and other specially protected 
areas. If confirmed, I will work through the interagency process to 
achieve the appropriate balance between environmental protection and 
resource development.
                      Questions From Senator Snowe
    Question 216. One of the most important programs administered by 
the Department of Energy is the federal civilian used nuclear fuel 
disposal program run by the Office of Civilian Radioactive Waste 
Management (OCRWM).
    The safe decommissioning and reuse of the site of a closed nuclear 
power plant is very important to my State of Maine. The biggest 
impediment to the completion of these efforts is ongoing problems that 
have prevented the Department from sustaining an effective program for 
used fuel and other radioactive material management.
    As you seek to become Secretary of the Department of Energy, I ask 
for your answers and views to the following:
    Some have suggested that it might be prudent for the Department to 
utilize the facility in my State of Maine, and the several other 
single-unit decommissioning sites, as a pilot program that would 
demonstrate the Department's ability to manage and move spent fuel and 
other material covered by the contract between the government and 
utilities. Recognizing that the Department has authority under the 
Standard Contract to make adjustments to acceptance schedules for such 
sites, do you agree it is feasible and useful for the Department to 
move forward with the contract holder utility in my state to develop a 
realistic program plan, with informed milestones and concrete actions 
including options to remove used material from the site by the end of 
the decade, as part of such a pilot program?
    Answer. I understand the importance of removing spent fuel from 
your state and other states around the nation. The idea of undertaking 
a pilot program is an interesting one, but at this time I am not fully 
familiar with the specifics. If confirmed, I will be happy to entertain 
and evaluate such a suggestion.
    Question 217. Over the years, the Department has seemingly taken 
different positions on the use of private sector dual-purpose, NRC 
licensed storage and transport systems as part of the civilian spent 
fuel management program. During much of the 1990's the Department 
encouraged these private sector initiatives and several have been 
deployed at reactor sites, including the reactor site in my state. More 
recently, again in the context of litigation, the Department has 
reversed its position and declared that the material in these systems 
is no longer a standard waste form for the purpose of its removal from 
the site. Can you assure me that you will carefully examine this issue 
and restore a common sense and sound safety approach that utilizes 
these private-sector systems in the Department's waste management 
system?
    I trust you will, upon confirmation, reinvigorate the Department's 
efforts to effectively manage its obligations regarding used civilian 
nuclear fuel and related material. I look forward to your response.
    Answer. I understand the importance of removing spent fuel from 
your State. I appreciate your question concerning the use of storage 
and transport systems as part of the civilian spent fuel management 
program. As you may know, this matter is the subject of ongoing 
litigation so I am unable to provide you a more detailed response at 
this time. If confirmed, you have my assurance that I will review this 
issue
                     Questions From Senator Schumer
    Question 218. Mr. Bodman, in light of the Department of Energy's 
previous investment of research dollars in high temperature 
superconducting (HTSC) technology, the necessity to renew the power 
grid to restore reliability in a more environmentally friendly manner, 
and the need to keep pace technologically with foreign competitors, 
would you agree that it is important for the Department of Energy to 
increase its funding levels for HTSC research? As Secretary of Energy, 
would you support such increases?
    Answer. I understand that the Office of Electric Transmission and 
Distribution, responsible for superconductivity research, has not 
received the amounts for superconductivity research that have been 
sought in the President's budget. If I am confirmed, I will be pleased 
to work with you to ensure that the program receives the funding level 
the President has sought for this work.
    Question 219. Mr. Bodman, as the next Secretary of Energy what 
steps would you take within the Department of Energy through its Office 
of Electric Transmission and Distribution, and in coordination with 
Congress, to ensure the sustainability of HTSC research and development 
in the United States?
    Answer. I will be pleased to explore this question with you should 
I be confirmed, but as I indicated earlier, it is important that we 
receive funding for the program in line with the President's budget 
request.
    Question 220. Last year witnessed record high crude oil prices, 
surging global energy demand, and continued actions by OPEC designed to 
allow its member countries to gain windfall profits from high oil 
prices. Mr. Bodman, in light of the fact that these trends show strong 
signs of continuing in 2005, how would you, as Secretary of Energy, 
take steps to persuade OPEC to help maintain reasonable oil prices?
    Answer. I understand that the Administration maintains contact with 
both producing and consuming nations, and if confirmed, I would 
anticipate continuing discussions with all producers relating to 
production policy. It is in the interest of all parties to maintain a 
healthy, growing global economy, and producing nations need to ensure 
that the markets are adequately supplied so as to allow this growth to 
occur.
    Question 220a. Under what economic conditions, if any, would you 
consider using the Strategic Petroleum Reserve as a hedge against OPEC 
market manipulation?
    Answer. The SPR is a national security asset, to be used only in 
the case of a severe disruption to our energy supply. The 
Administration's record on SPR policy has been well established over 
the past 4 years.
    Question 221. Mr. Bodman, would you provide your views on the 
impact that developing world's continuing industrialization and growing 
energy demand is going to have on the world markets, particularly in 
oil and natural gas?
    Answer. The world's demand for oil and natural gas will continue to 
grow over the medium and long term, with the bulk of the forecast 
demand growth expected to occur in the developing countries of the 
world. Meeting those growing demands will increasingly become a common 
concern of producers and consumers alike. The President's National 
Energy Policy (NEP) lays out a number of suggestions for productive 
engagement with the rest of the world that will help to ensure that 
economic investments in needed resource development occur in a timely 
manner leading to an improvement in the world's access to oil and gas 
resources.
    We continue to believe that the world will be best served in the 
long run by allowing energy markets to function freely, by opening 
markets to free trade and investment in natural resource development, 
and by supporting continued research, development, and commercial 
deployment of new technologies that enhance efficiency and augment 
supplies.
    Question 222. What steps can be taken to anticipate and mitigate 
any severe economic impacts that may result from a surge in global 
energy demand?
    Answer. Growing energy demand accompanies a growing global economy, 
and we all--producing and consuming nations alike--must take 
appropriate steps to foster a healthy, growing economy. Over the long 
term, a balanced approach to our energy challenges is in all of our 
best interests, and for that reason, the President's National Energy 
Policy focused on both demand and supply elements--increasing 
efficiency and conservation to help limit demand growth, while 
increasing the production and diversity of sources and fuels that we 
draw upon for our energy supply.
    These are long term issues, and in the short term we must take care 
to not act in a manner that will further exacerbate our long term 
energy challenge.
    Question 223. With respect to the transition of Subtitle D of the 
Energy Employees Occupational Illness Compensation Program Act from DOE 
to DOL, upon becoming Secretary of Energy could you please provide an 
update on the following:
    What is the status of the transfer of Subtitle D claimant files 
from DOE to DOL?
    Answer. I am aware that the program has been transferred to the 
Department of Labor, but I have not been briefed on the details of the 
transfer.
    Question 224. How many claims have been transferred?
    Answer. I would be happy to ask the Department to provide you with 
this information. 70
    Question 225. How many are pending transfer?
    Answer. I would be happy to ask the Department to provide you with 
this information.
    Question 226. When will the claims transfer process be completed? 
Have all claims files been accounted for?
    Answer. I would be happy to ask the Department to provide you with 
this information.
    Question 227. How many claims were filed under Subtitle D at the 
point that DOE commenced the transition to DOL? Please provide a list 
of relevant facilities.
    Answer. I would be happy to ask the Department to provide you with 
this information.
    Question 228. How many claims were ultimately paid through Subtitle 
D by the DOE through the end of 2004, at which sites, and for what 
illnesses? Please identify, if available, the amounts for wage loss and 
amounts paid or expected to be paid for medical costs.
    Answer. I would be happy to ask the Department to provide you with 
this information.
    Question 229. In the 2005 Omnibus Appropriations bill, there was 
language directing the Secretary of Energy to establish a field 
resource center in western New York for applicants of the Energy 
Employees Occupational Illness Compensation Program (EEOICPA). Given 
the fact that the administration of Title D of EEOICPA is currently 
being transitioned to DOL, upon becoming Secretary of Energy could you 
provide an update as to whether the authority over resource centers, 
particularly the western New York resource center, been transferred as 
of today?
    Answer. I would be happy to ask the Department to provide you with 
this information.
    Question 230. If not, when do you expect it to be?
    Answer. I would be happy to ask the Department to provide you with 
this information<plus-minus>.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                  January 19, 2005, Washington, DC.
Hon. Samuel W. Bodman,
Deputy Secretary, Department of the Treasury, Washington, DC.
    Dear Dr. Bodman: I am writing to make you aware of an important 
issue related to national security and the management the National 
Nuclear Security Administration (NNSA). Specifically, I want to make 
you aware of NNSA Act (50 U.S.C. 2401 et. seq.) and to seek your 
commitment to ensure its implementation when you assume the position of 
Secretary of Energy.
    This legislation was enacted in 2002 to make specific reforms to 
ensure the independence of the NNSA. However, the goal of independence 
has yet to be realized since passage of this act. With the awesome 
responsibility of maintaining the reliability, security and safety of 
our nuclear weapons stockpile, the NNSA must remain focused on its 
responsibilities and not have its operations, management and budget 
diverted due to historic and intense bureaucratic wrangling within the 
Department of Energy.
    Even today, it has become apparent that leaders within the 
Department have failed to fully enact the reforms outlined in NNSA Act. 
Specifically, the Department has yet to provide adequate staffing in 
the offices of General Counsel, Chief Financial Officer, Environmental 
Management, and Security. As such, the NNSA remains beholden to the 
Department in critical areas for budgetary, legal and security needs. 
In addition, the Department has failed to fulfill the requirement to 
provide 300 excepted service positions as authorized by 50 U.S.C. 2407, 
which will provide the NNSA with the professional and management 
expertise to effectively operate the NNSA.
    Prior to your confirmation vote by the Senate Energy and Natural 
Resources Committee, I hope to receive from you a commitment that you 
will fulfill the terms of the NNSA Act, to its full extent. As Chairman 
of the Energy and Water Subcommittee, you will have my commitment to 
work with you to provide the necessary resources to ensure that the 
NNSA has the resources to meet these requirements of the NNSA Act.
            Sincerely,
                                          Pete V. Domenici,
                                             United States Senator.
                                 ______
                                 
                                Department of the Treasury,
                                  January 25, 2005, Washington, DC.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici: Thank you for your follow-up letter to me 
of January 19, 2005 regarding the National Nuclear Security 
Administration (NNSA) Act, the intent of Congress in passing the Act, 
and your concerns about its implementation.
    As I indicated in my testimony before your Committee on January 19, 
I will implement the NNSA Act to its full extent because it is my duty, 
and because I believe, based on my experience, that it can be made to 
work just fine.
    As I become more deeply involved in and aware of issues related to 
implementation of the Act, I will look forward to further discussions 
with you and to any recommendations on how to improve the operations of 
the NNSA. I recognize the tremendous responsibility of maintaining the 
reliability, security and safety of our nuclear weapons stockpile, and 
the great importance of the related nonproliferation missions. I am 
committed, as I know you are, to an organizational and management 
structure that best serves this essential work.
            Sincerely yours,
                                          Samuel W. Bodman,
                                                  Deputy Secretary.

                                    

      

</pre></body></html>
